<html>
<title> - HARMFUL ALGAL BLOOMS AND HYPOXIA: FORMULATING AN ACTION PLAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   HARMFUL ALGAL BLOOMS AND HYPOXIA:
                       FORMULATING AN ACTION PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2009

                               __________

                           Serial No. 111-52

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
51-929                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                           September 17, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    21
    Written Statement............................................    21

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    21
    Written Statement............................................    21

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    22

                               Witnesses:

Dr. Robert E. Magnien, Director, Center for Sponsored Coastal 
  Ocean Research, National Centers for Coastal Ocean Science, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    34

Ms. Suzanne E. Schwartz, Acting Director, Office of Wetlands, 
  Oceans, and Watersheds, U.S. Environmental Protection Agency; 
  accompanied by Dr. Richard M. Greene, Ecosystem Dynamics and 
  Effects Branch Office of Research and Development, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    40
    Biography for Dr. Richard M. Greene..........................    40

Mr. Dan L. Ayres, Fish and Wildlife Biologist, Coastal Shellfish 
  Lead, Washington State Department of Fish and Wildlife
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    45

Dr. Donald M. Anderson, Senior Scientist, Biology Department, 
  Woods Hole Oceanographic Institution; Director, U.S. National 
  Office for Harmful Algal Blooms
    Oral Statement...............................................    45
    Written Statement............................................    47
    Biography....................................................    60

Dr. Gregory L. Boyer, Professor of Biochemistry, State University 
  of New York, College of Environmental Science and Forestry; 
  Director, New York's Great Lakes Research Consortium
    Oral Statement...............................................    60
    Written Statement............................................    61
    Biography....................................................    67

Dr. Donald Scavia, Graham Family Professor of Environmental 
  Sustainability; Professor of Natural Resources & Environment; 
  Professor of Civil and Environmental Engineering, University of 
  Michigan
    Oral Statement...............................................    67
    Written Statement............................................    69
    Biography....................................................    75

Discussion
  Statements from Representatives Connie Mack and William 
    Delahunt.....................................................    76
  The Inefficacy of Traditional Water Treatment..................    78
  Growing Dead Zones and Their Causes............................    79
  Current Control and Mitigation Strategies......................    79
  Comments from Representative Mack..............................    81
  The Economic Costs of Hypoxia and HABs.........................    83
  Potential Changes at EPA.......................................    84
  Research Funding on the Causes of HABs and Hypoxia.............    85
  Closing........................................................    87


      HARMFUL ALGAL BLOOMS AND HYPOXIA: FORMULATING AN ACTION PLAN

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:21 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Harmful Algal Blooms and Hypoxia:

                       Formulating an Action Plan

                      thursday, september 17, 2009
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, September 17, 2009 the Subcommittee on Energy and 
Environment of the Committee on Science and Technology will hold a 
legislative hearing to examine Harmful Algal Blooms (HABs) and Hypoxia 
research and response needs to develop and implement action plans to 
monitor, prevent, mitigate and control both marine and fresh water 
bloom and hypoxia events. The Subcommittee will also receive testimony 
on draft legislation entitled ``The Harmful Algal Blooms and Hypoxia 
Research and Control Act of 2009.'' Witnesses will provide their 
comments on, and suggestions to, the bill.

Witnesses

Dr. Robert Magnien is the Director of the Center for Sponsored Coastal 
Ocean Research in the National Oceanic and Atmospheric Administration 
(NOAA). Dr. Magnien will discuss NOAA's current HABs and hypoxia 
activities, as well as the need for the implementation action plans to 
address both marine and fresh water blooms and hypoxia events.

Ms. Suzanne E. Schwartz is Acting Director of the Office of Wetlands, 
Oceans, and Watersheds, U.S. Environmental Protection Agency (EPA). Ms. 
Schwartz will discuss EPA's current HABs and hypoxia activities as well 
as the agency's role in addressing the impacts and research needs of 
freshwater harmful algal blooms.

Mr. Dan Ayres is a Coastal Shellfish Manager and Lead Biologist at the 
Washington State Department of Fish and Wildlife Region Six Office. Mr. 
Ayres will discuss the impacts HABs and hypoxia events impose on the 
west coastline. He will also discuss research and need for response and 
implementation plans regarding HABs and hypoxia for prevention, 
control, and mitigation.

Dr. Donald Anderson is a Senior Scientist and Director of the Coastal 
Ocean Institute at Woods Hole Oceanographic Institution. Dr. Anderson 
will discuss the impacts HABs and hypoxia events impose on the Nation's 
coastlines. He will also discuss the current research and need for 
response and implementation plans regarding HABs and hypoxia for 
prevention, control, and mitigation.

Dr. Greg L. Boyer is a Professor of Biochemistry at the State 
University of New York College of Environmental Science and Forestry 
and Director of the Great Lakes Research Consortium. Dr. Boyer will 
discuss impacts of freshwater harmful algal blooms and hypoxia and the 
research and implementation needs to respond to freshwater HABs events.

Dr. Donald Scavia is a Graham Family Professor of Environmental 
Sustainability and Professor of Natural Resources and Environment at 
the University of Michigan. Dr. Scavia will discuss the impacts of HABs 
and hypoxia on the Great Lakes and Chesapeake Bay areas, as well as the 
needs for an implementation strategy for hypoxia in the Northern Gulf 
of Mexico and Mississippi River.

Background

Harmful Algal Blooms and Related Impacts
    A harmful algal bloom (HAB) is a bloom, or rapid overproduction of 
algal cells, that produces toxins which are detrimental to plants and 
animals. These outbreaks are commonly referred to as ``red'' or 
``brown'' tides. Blooms can kill fish and other aquatic life by 
decreasing sunlight available to the water and by using up the 
available oxygen in the water, which then results in a hypoxia (severe 
oxygen depletion) event. These produced toxins accumulate in shellfish, 
fish, or through the accumulation of biomass that in turn affect other 
organisms and alter food webs. In recent years, many of the Nation's 
coastlines, near-shore marine waters, and freshwaters have experienced 
an increase in the number, frequency, duration and type of HABs. Blooms 
can be caused by several factors; for example, an increase in nutrients 
can cause algae growth and reproduction to increase dramatically. In 
other instances, an environmental change in the water quality, 
temperature, sunlight, or other factors allows certain algae to out-
compete other microorganisms for nutrients, which can result in a bloom 
of the algae with the advantage.
    Harmful algal blooms are one of the most scientifically complex and 
economically significant coastal management issues facing the Nation. 
In the past, only a few regions of the U.S. were affected by HABs, but 
now all U.S. coastal regions have reported major blooms. These 
phenomena have devastating environmental, economic, and human health 
impacts. Impacts include human illness and mortality following direct 
consumption or indirect exposure to toxic shellfish or toxins in the 
environment; economic hardship for coastal economies, many of which are 
highly dependent on tourism or harvest of local seafood; as well as 
dramatic fish, bird, and mammal mortalities. There are also devastating 
impacts to ecosystems, leading to environmental damage that may reduce 
the ability of those systems to sustain species due to habitat 
degradation, increased susceptibility to disease, and long-term 
alterations to community structure.

The Harmful Algal Bloom and Hypoxia Research and Control Act and 
        Current Federal Research
    Scientific understanding of harmful algal blooms and hypoxic events 
has progressed significantly since the early 1990s; however, there is a 
need for additional efforts in monitoring, prevention, control and 
mitigation of these complex phenomena. Practical and innovative 
approaches to address hypoxia and HABs in U.S. waters are essential for 
management of aquatic ecosystems and to fulfill a stronger investment 
in the health of the coasts and oceans called for by the U.S. Ocean 
Action Plan\1\ and recent reports on ocean policy. Recognizing this 
need, in 2004 Congress reauthorized and expanded the Harmful Algal 
Bloom and Hypoxia Research and Control Act of 1998 (Public Law 105-383) 
by passing the Harmful Algal Bloom and Hypoxia Amendments Act of 2004 
(Public Law 108-456).
---------------------------------------------------------------------------
    \1\ U.S. Commission on Ocean Policy. Bush Administration, 2004. 
http://ocean.ceq.gov/actionplan.pdf
---------------------------------------------------------------------------
    The 1998 Harmful Algal Bloom and Hypoxia Research and Control Act 
(HABHRCA) established an Interagency Task Force to develop a national 
HABs assessment and authorized funding for existing and new research 
programs on HABs. This includes two multi-year research programs at 
NOAA that focus on HABs, the Ecology and Oceanography of Harmful Algal 
Blooms (ECOHAB) program and the Monitoring and Event Response for 
Harmful Algal Blooms (MERHAB) program. These programs involve federal, 
State, and academic partners and support interdisciplinary extramural 
research studies to address the issues of HABs in an ecosystem context. 
HABHRCA was reauthorized in 2004, requiring assessments of HABs in 
different coastal regions and in the Great Lakes and plans to expand 
research to address the impacts of HABs. The law also authorized 
research, education, and monitoring activities related to the 
prevention, reduction, and control of harmful algal blooms and hypoxia 
and reconstituted the Interagency Task Force on HABs and Hypoxia.
    The 2004 reauthorization also directed NOAA to produce several 
reports and assessments. The Prediction and Response Report, released 
in September 2007, addresses both the state of research and methods for 
HAB prediction and response, especially at the federal level. The 
National Scientific Research, Development, Demonstration, and 
Technology Transfer Plan for Reducing Impacts from Harmful Algal Blooms 
(RDDTT Plan) establishes research priorities to develop and demonstrate 
prevention, control and mitigation methods to advance current 
prediction and response capabilities.
    The law also required development of local and regional Scientific 
Assessment of Hypoxia and a Scientific Assessment of Harmful Algal 
Blooms. These assessments were to be initiated at the request of State, 
tribal, or local governments or for affected areas identified by NOAA. 
Funding was also authorized for ongoing and new programs and activities 
such as: competitive, peer-reviewed research through the ECOHAB 
program; freshwater harmful algal blooms added to the research 
priorities of ECOHAB; a competitive, peer-reviewed research program on 
management measures to prevent, reduce, control, and mitigate harmful 
algal blooms supported by the MERHAB program; and activities related to 
research and monitoring of hypoxia supported by the competitive, peer-
reviewed Northern Gulf of Mexico program and Coastal Hypoxia Research 
Program administered by NOAAs National Ocean Service.
    The HABHRCA authorized funds were directed to conduct research and 
seek to control HABs and hypoxia in U.S. marine waters, estuaries and 
the Great Lakes. The 2004 reauthorization also required a reporting 
requirement on The Scientific Assessment of Freshwater Harmful Algal 
Blooms that describe the state of the knowledge of HABs in U.S. inland 
and freshwaters and presents a plan to advance research and reduce the 
impacts on humans and the environment. However, since the completion of 
the report, the Environmental Protection Agency (EPA) has unilaterally 
determined its obligations regarding implementation of the report 
recommendations and the agency has ceased participation in freshwater 
HAB research and mitigation activities.
    The investigation into marine blooms is critically important, as 
are HABs found in the Great Lakes; therefore, there is a need to 
research and respond to HABs in inland waterways, such as rivers, lakes 
and reservoirs. The Environmental Protection Agency oversees a wide 
array of programs specifically designed to protect and preserve the 
coastal and marine waters of the United States, including watershed 
protection programs working through partnerships and an array of 
regulatory programs. EPA currently has no research and development 
effort that addresses freshwater harmful algal blooms. In conjunction 
with its statutory responsibilities to ensure water quality under the 
Clean Water Act and the Safe Drinking Water Act, EPA has a program of 
research and development on water treatment technologies, health 
effects of water pollutants, security from deliberate contamination, 
and watershed protection. Current annual funding for these activities 
is approximately $50 million.
    Currently, EPA and Louisiana researchers are studying whether the 
dead zone pollution violates water quality standards. With EPA's 
assistance, the State of Louisiana could set standards using the legal 
authority of the Federal Clean Water Act, including non-point source 
runoff of nitrogen and phosphorus fertilizer. EPA and the National 
Oceanic and Atmospheric Administration (NOAA) are co-leads of a Federal 
Workgroup of thirteen federal agencies committed to supporting the Gulf 
of Mexico Alliance, a partnership formed by the five Gulf State 
Governors. In addition, EPA is also a participating member of the 
Mississippi River/Gulf of Mexico Watershed Nutrient Task Force. 
However, at present, there is a lack of significant federal research 
and development aimed at addressing freshwater HABs. Because of the 
agency's complementary work on inland water ecosystems, the EPA is a 
logical federal entity to partner with NOAA to develop and implement a 
research, development, and demonstration program to address freshwater 
harmful algal blooms and hypoxia through research, monitoring, 
prevention, mitigation, and control. As the lead agency with oversight 
over freshwater quality, the EPA should ensure the protection of 
aquatic ecosystems to protect human health, support economic and 
recreational activities, and provide healthy habitat for fish, plants, 
and wildlife by conducting research to develop HAB prevention, control 
and mitigation technologies.

Reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
        Control Act
    For the past 12 years, the science community has been guided by the 
National Plan for Marine Biotoxins and Harmful Algae (Anderson, et al., 
1993)\2\. This plan has served as the foundation for the development of 
national, regional, State and local programs and the advancement of 
scientific knowledge on HABs and their impacts. HABs have increased in 
their type, frequency, location, duration and severity, yet the 
decision-making and management systems have not changed. Thus, the 
national plan was updated to reflect the current state of the HAB 
problem, needs, priorities and approaches. The new plan, Harmful Algal 
Research and Response: A National Environmental Science Strategy 2005-
2015\3\ (HARRNESS) is composed of views from the research and 
management community and outlines a framework for actions over a ten-
year period.
---------------------------------------------------------------------------
    \2\ Anderson, D.,Galloway,S.B., Joseph, J.D. A National Plan for 
Marine Biotoxins and Harmful Algae. 1993. http://hdl.handle.net/1912/
614; https://darchive.mblwhoilibrary.org/bitstream/1912/614/1/WHOI-93-
02.pdf
    \3\ HARRNESS, Harmful Algal Research and Response: A National 
Environmental Science Strategy 2005-2015. National Plan for Algal 
Toxins and Harmful Algal Blooms. http://www.esa.org/HARRNESS/
---------------------------------------------------------------------------
    The HABs issue has been approached at a multi-agency level to 
address its many dimensions. There is presently a range of programs and 
agencies that address specific aspects of HABs. There have been several 
reports and assessments on the range of aspects. The reauthorization of 
the HABHRCA should build upon and utilize the findings and results of 
these workings to formulate a national action strategy as well as 
develop regional research action plans. There is also a need to expand 
the work and research of Harmful Algal Blooms to include both marine 
and freshwaters.

Draft Legislation:

 The Harmful Algal Blooms and Hypoxia Research and Control Amendments 
                              Act of 2009

                      Section-by-Section Analysis
The Harmful Algal Blooms and Hypoxia Research and Control Amendments 
Act of 2009

Purpose: To establish a National Harmful Algal Bloom and Hypoxia 
Program, to develop and coordinate a comprehensive strategy to address 
harmful algal blooms and hypoxia, and to provide for the development 
and implementation of comprehensive regional action plans to reduce 
harmful algal blooms and hypoxia.

Section 1: Short Title

    The Harmful Algal Blooms and Hypoxia Research and Control 
Amendments Act of 2009

Section 2: Amendment of Harmful Algal Bloom and Hypoxia Research and 
                    Control Act of 1998

    Section 2 explains that the text the bill modifies is the Harmful 
Algal Bloom and Hypoxia Research and Control Act of 1998, unless 
otherwise expressly stated.

Section 3: Definitions

    Section 3 provides definitions for the Act, including: 
Administrator of the Environmental Protection Agency; the National 
Harmful Algal Bloom and Hypoxia Program; and the Under Secretary of 
Commerce for Oceans and Atmosphere.

Section 4: National Harmful Algal Bloom and Hypoxia Program

    Section 4 directs the Under Secretary of Commerce for Oceans and 
Atmosphere, through the Interagency Task Force, to establish and 
maintain a National Harmful Algal Bloom and Hypoxia Program. The bill 
outlines tasks for the Under Secretary to ensure through the Program: 
1) to develop a national strategy to address both marine and freshwater 
HABs and hypoxia; 2) to ensure the coordination of all federal programs 
related to HABs and hypoxia; 3) to work with regional, State, tribal, 
and local government agencies; 4) to identify additional research needs 
and priorities; 5) to support international research efforts on HABs 
and hypoxia; 6) to ensure the development and implementation of methods 
and technologies to protect ecosystems damaged by HABs; 7) to 
coordinate an outreach, education, and training program; 8) to 
facilitate regional, State, tribal, and local efforts to implement 
response plans, strategies, and tools; 9) to provide resources for 
training of regional, State, tribal and local coastal and water 
resource managers; 10) to enhance observations, monitoring, modeling, 
data management, information dissemination, and operational forecasts; 
11) to oversee the updating of the Regional Research and Action Plans; 
and 12) to administer peer-reviewed, merit-based competitive grant 
funding.
    In addition, Section 4 directs the Under Secretary to work 
cooperatively with other offices, centers, and programs within NOAA, as 
well as, with States, tribes, non-governmental organizations, and other 
agencies represented on the Task Force. Section 4 also directs the 
Under Secretary and the Administrator of the Environmental Protection 
Agency to jointly carry out the duties for the freshwater aspects of 
the Program.
    This bill also requires the Under Secretary to transmit to Congress 
an action strategy that outlines the specific activities to be carried 
out by the Program, a timeline for such activities, and the 
programmatic roles of each federal agency in the Task Force. The action 
strategy shall be published in the Federal Register and be periodically 
revised by the Under Secretary. Section 4 also requires the Under 
Secretary to prepare a report to Congress describing the budget, 
activities, and progress of the Program.

Section 5: Regional Research and Action Plans

    Section 5 directs the Under Secretary, through the Task Force, to 
oversee the development and implementation of Regional Research and 
Action Plans by identifying the appropriate regions and sub-regions to 
be addressed by each Plan. The bill outlines some contents the Plans 
should identify: 1) regional priorities for ecological, economic, and 
social research related to the impacts of HABs and hypoxia; 2) 
research, development, and demonstration activities to advance 
technologies to address the impacts of HABs and hypoxia; 3) actions to 
minimize the occurrence of HABs and hypoxia; 4) ways to reduce the 
duration and intensity of HABs events; 5) research and methods to 
address the impacts of HABs on human health; 6) mechanisms to protect 
vulnerable ecosystems that could be or have been affected by HABs; 7) 
mechanisms by which data is transferred between the Program and State, 
tribal, and local governments and relevant research entities; 8) 
communication, outreach, and dissemination methods used to educate and 
inform the public; and 9) the roles that Federal agencies can play to 
assist implementation of the Plan.
    Section 5 directs the utilization of existing research, 
assessments, and reports in the development of the Plans. Section 5 
also provides a list of individuals and entities that the Under 
Secretary may work with to develop the Plans. The bill also requires 
that the Plans be completed within 12 months of the date of enactment 
and updated once every five years. Furthermore, Section 5 requires that 
the Under Secretary submit a report to Congress not later than 12 
months after the date of enactment and once every two years after the 
completion of the Regional Research and Actions Plans.

Section 6: Northern Gulf of Mexico Hypoxia

    Section 6 directs the Mississippi River/Gulf of Mexico Watershed 
Nutrient Task Force to transmit a report to Congress and the President 
on the progress made toward attainment of the coastal goals of the 2008 
Gulf Hypoxia Action Plan. The initial report is required no later than 
two years after the date of enactment and every five years thereafter. 
The reports are required to assess progress made toward nutrient load 
reductions, the response of the hypoxia zone and water quality 
throughout the Mississippi/Atchafalaya River Basin and the economic and 
social effects. The reports shall include an evaluation of current 
policies and programs and lessons learned. In addition, Section 6 
requires the reports to recommend appropriate actions to continue to 
implement or, if necessary, revise the strategy set forth in the 2008 
Gulf Hypoxia Action Plan.

Section 7: Authorization of Appropriations

    Section 7 provides a five year authorization to the Under Secretary 
to carry out the Program and a separate authorization for the 
development of the Regional Research and Action Plans. Section 7 also 
provides a five year authorization to the Administrator for the 
freshwater HABs Program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Baird. I want to thank our witnesses for joining 
us. We apologize for the delay. It happens here sometimes. We 
have clusters of votes, and normally, of course, you have to 
sit and listen to us talk at you for far too long, so we are 
going to dispense with that so we can hear people who know what 
they are talking about, which is actually theoretically the 
purpose of a hearing on Capitol Hill.
    So I will recognize Mr. Inglis, who I think is going to say 
the same thing, and then we will hear from our witnesses.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good afternoon. I want to welcome everyone to today's legislative 
hearing on Harmful Algal Blooms (HABs) and draft legislation for the 
reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
Control Act.
    Last year the Subcommittee convened and discussed the impact 
harmful algal blooms and hypoxia has on our coastlines and in bodies of 
freshwater. I know in the State of Washington, HABs have made it 
increasingly difficult to manage important fisheries. It has also been 
our responsibility to protect citizens from the threats that these 
blooms cause on our beaches and subsequently result in wide area 
closures.
    Harmful algal blooms pose serious threats because of their 
production of toxins and reduction of oxygen in the water. These 
impacts include alteration of the ocean's food web, human illnesses, 
and economic losses to communities and commercial fisheries.
    The Gulf of Mexico Hypoxia and the even more recent occurrences of 
coastal dead zones, such as those in Oregon, have also caused many 
fish, crabs, and other aquatic organisms to either flee or die in 
suffocating waters.
    I believe we have taken some important steps and made great 
advances in our research findings due to the 1998 Harmful Algal Bloom 
and Hypoxia Research and Control Act and in the 2004 reauthorization. 
However it is now time to build upon the numerous reports and 
assessments that came out of these two laws.
    This reauthorization calls for action plans to begin responding to 
the needs of our communities. This bill establishes a National Harmful 
Algal Bloom and Hypoxia Program, with the National Oceanic and 
Atmospheric Administration (NOAA) tasked as the lead in overseeing the 
development of these plans. In addition, there needs to be more work 
done on the freshwater HABs. HABs affect not only our coastlines, but 
our inland waters as well. I think my colleagues will agree that we 
expect to see a collaborative effort between NOAA and the Environmental 
Protection Agency (EPA) in addressing the threat of HABs to freshwater.
    Since the last reauthorization of the Harmful Algal Bloom and 
Hypoxia Research and Control Act in 2004, there has been an increase in 
the number, frequency, and type of blooms and hypoxic events in recent 
years. We need to continue the valuable ongoing research while now 
implementing strategic national and regional plans.
    We must use our research and advances in our understanding of these 
blooms and the hypoxic events they cause to better monitor, mitigate, 
and control these occurrences and even prevent them, if possible.
    We have a distinguished panel of witnesses here today, and I hope 
they will offer us expert testimony on how we can move forward together 
in responding to this problem.
    I want to thank all of our witnesses for being here today. At this 
time, I would like to recognize our distinguished Ranking Member, Mr. 
Inglis of South Carolina for his opening statement.

    Mr. Inglis. Yes, Mr. Chairman. I am looking forward to 
hearing from the witnesses.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good afternoon and thank you for holding this hearing, Mr. 
Chairman.
    In the 110th Congress, this subcommittee held a hearing on Harmful 
Algal Blooms and Hypoxia issues. We discussed previous legislation and 
the progress made on a new national plan, HARRNESS: Harmful Algal 
Research and Response: A National Environmental Science Strategy 2005-
2015, and how it will help coordinate the Federal Government's efforts 
on HAB and hypoxia research.
    Today we are here to discuss next steps. We will discuss 
legislation that will push federal efforts beyond previous statutes and 
make use of what we've learned to date. Hopefully we can place greater 
emphasis on the critical areas of monitoring, control, and mitigation.
    South Carolina's Phytoplankton Monitoring Network is a 
collaborative effort of scientists and academics from all over the 
United States. Since it was started in 2001, the Network has reported 
over 70 algal blooms. Cooperative efforts like these and advancements 
in monitoring coordination are important first steps in dealing with 
harmful algal blooms, but we have a lot of work left to do to develop 
an event response program.
    Once blooms are identified, several questions arise: Could the 
bloom have been predicted? How do we control the bloom without causing 
further harm? What can we do to mitigate the economic impacts of these 
blooms?
    I'm also interested in how to properly use regional partnerships to 
leverage greater resources and appropriately differentiate the HAB and 
hypoxia issues and impacts on our diverse coast line. Moreover, I hope 
the witnesses can talk to the appropriate level of resources that the 
Federal Government should invest in an event response program.
    I hope as we discuss this piece of legislation we can keep in mind 
that the end goal is to minimize the negative impacts of HABs and 
hypoxia on our coasts and economy.
    I look forward to hearing from our distinguished panelists about 
all these issues. Thank you again, Mr. Chairman, and I yield back the 
balance of my time.

    Chairman Baird. I thank the gentleman for his eloquent 
speech.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to review prevention and response needs of harmful algal blooms 
(HAB) and hypoxia events and to receive testimony on draft legislation 
to reauthorize and expand the Harmful Algal Blooms and Hypoxia Research 
and Control Act of 1998.
    The Subcommittee has examined the ecological and health risks posed 
by HABs and hypoxia several times through hearings and legislation. Yet 
these harmful events continue to occur in our coastal regions and 
happen regularly in the Great Lakes and other major waterways. The 
spread of HABs and hypoxia to new regions of the country will require 
efforts to monitor, prevent, and respond to these outbreaks.
    In particular, we must take action to address the development of 
HABs and hypoxia in our inland waterways, including the Mississippi 
River and the Great Lakes. The Mississippi River serves as a vital 
transportation corridor for the movement of goods and as a center for 
recreation in Illinois. A HAB or hypoxia outbreak in the Mississippi 
River could have a severe effect on the economy and cause major health 
risks. Previous outbreaks have occurred in the Mississippi River Delta, 
yet the Environmental Protection Agency has no research program in 
place to address inland, freshwater HABs or hypoxia. I look forward to 
hearing from our witnesses how their research efforts may address these 
concerns to manage HBAs and hypoxia in our inland waterways.
    I am pleased Subcommittee Chairman Baird has proposed legislation 
to build upon the 2004 expansion of the Harmful Algal Bloom and Hypoxia 
Research and Control Act to combat the harmful effects of these 
occurrences. The guidelines set forth in the proposed legislation aim 
to manage HABs and hypoxia more efficiently by creating a national 
strategy to address marine and freshwater outbreaks. This strategy 
focuses on regional efforts to address HABs and hypoxia and prevent 
their spread. I would like to hear from our witnesses if this regional 
approach will be effective in preventing the development of HABs and 
hypoxia in areas of the country, such as the Midwest.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    Chairman Baird. It my privilege to introduce our 
outstanding panel of witnesses, who bring great expertise. Dr. 
Robert Magnien--and if I mispronounce, please forgive me--is 
the Director of the Center for Sponsored Coastal Ocean Research 
of the National Oceanic and Atmospheric Administration. Ms. 
Suzanne Schwartz is Acting Director of the Office of Wetlands, 
Oceans and Watersheds at the U.S. EPA. Mr. Dan Ayres hails from 
my home state--good to see you again, Dan--the Coastal 
Shellfish Manager and Lead Biologist at the Washington State 
Department of Fish and Wildlife Region 6 office. Dr. Donald 
Anderson is Senior Scientist and Director of the Coastal Ocean 
Institute at Woods Hole Oceanographic Institute. Dr. Greg L. 
Boyer is Professor of Biochemistry at the State University of 
New York, College of Environmental Science and Forestry and 
Director of Great Lakes Research Consortium, and Dr. Donald 
Scavia is a Graham Family Professor of Environment 
Sustainability and Professor of Natural Resources and 
Environment at the University of Michigan, a state from whence 
hails our delightful Dr. Ehlers, who has been a passionate 
advocate of this. I should also mention that Representatives 
Connie Mack and Kathy Castor of Florida both have been very 
strong advocates of that. As witnesses should know, you will 
have five minutes for spoken testimony. Those of you are dying 
to hear what Mr. Inglis and I were going to say can find those 
on our web sites. Don't rush out and bookmark that right now.
    With that, let us hear from Dr. Magnien and the rest of our 
distinguished panel.

   STATEMENT OF DR. ROBERT E. MAGNIEN, DIRECTOR, CENTER FOR 
SPONSORED COASTAL OCEAN RESEARCH, NATIONAL CENTERS FOR COASTAL 
OCEAN SCIENCE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Dr. Magnien. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. My name is Robert Magnien and I am Director 
of NOAA's Center for Sponsored Coastal Ocean Research. In this 
role, I administer on behalf of the Department of Commerce and 
NOAA the five national programs on harmful algal blooms and 
hypoxia that are authorized by the Harmful Algal Bloom and 
Hypoxia Research Control Act (HABHRCA) of 1998. I also 
coordinate these programs nationally and internationally.
    NOAA views hypoxia and harmful algal blooms, or HABs, as 
significant threats to the health of the American public and 
the U.S. economy. HABs, which now occur in all states, are a 
growing problem worldwide. They threaten human and ecosystem 
health and the vitality of fish and shellfish, protected 
species and coastal economies. Similarly, hypoxia, or areas of 
low dissolved oxygen called dead zones, have increased 30 fold 
since 1960. They now occur in over 300 U.S. coastal systems 
including the Great Lakes, signaling severe degradation of 
water quality and habitats nationwide. I appreciate the 
opportunity to comment on the draft reauthorization so that we 
can build upon the many successes of this legislation.
    In 1998, HABHRCA authorized NOAA to take action to address 
the growing problems of HABs and hypoxia and coordinate 
interagency efforts. A major component of this responsibility 
is NOAA's leadership of the Nation's only competitive research 
programs focused solely on these issues, three for HABs and two 
for hypoxia. HABHRCA also authorizes NOAA to carry out 
intramural research and assessment activities. Active areas of 
research include HAB and hypoxia forecasting, development of 
new methods for HAB cell and toxin detection, and understanding 
the impacts of HABs and hypoxia on aquatic life and coastal 
economies. The 2004 reauthorization required five reports. Four 
have been submitted to Congress and the fifth is undergoing 
interagency approval.
    Many significant research advances supported by HABHRCA 
programs have greatly improved HAB and hypoxia management. 
These accomplishments are described in the HABHRCA reports that 
were submitted to Congress in my written testimony. Let me just 
highlight two.
    HAB forecasting has been extended to new areas, an outcome 
of many years of sustained research, and shows great promise in 
providing early warning to public health and resource managers. 
Forecasts in the western Gulf of Mexico, the Great Lakes, the 
Gulf of Maine, Chesapeake Bay and the Pacific Northwest are in 
various stages of development. NOAA has preliminary plans for a 
national HAB forecasting system which will make routine 
forecasts, like weather forecasts, in areas where HABs are a 
major threat. In 2008, the interagency Mississippi Gulf of 
Mexico Task Force updated the Gulf Hypoxia Action Plan, which 
reaffirmed the goal of reducing the hypoxic zone and prescribed 
45 percent reductions in both nitrogen and phosphorus. The 
recommendations were based in large part on the many years of 
NOAA-funded research authorized by HABHRCA.
    Regarding the draft bill, it addresses two issues that are 
consistent with NOAA goals. First, it will establish an 
overarching HAB and hypoxia program within NOAA. This will 
enhance the visibility of these issues as a national priority 
and improve coordination within NOAA and with other federal 
agencies. Secondly, regional research and action plans will be 
developed with input from local experts and managers. These 
plans will guide future research priorities toward development 
of products that are of greatest benefit to those on the front 
lines of managing these threats as well as the public. We note, 
however, that all mention of specific ongoing HAB and hypoxia 
programs that were identified in prior versions of HABHRCA have 
been removed. NOAA has found the specification of programs 
helps to clarify the intent of Congress when implementing this 
legislation. Much of the Nation's progress in improving HAB and 
hypoxia management and response has come from information and 
products developed under these highly successful programs. 
Further, one of the HABHRCA reports presented to Congress last 
year, called ``HAB Management and Response,'' recommended that 
progress would be enhanced if event response and infrastructure 
programs were added.
    Finally, the role of research within NOAA is not specified 
in the draft legislation as it was in the previously enacted 
legislation. Such authorization assures that the valuable 
research conducted within NOAA will be continued. We understand 
that this bill is only a draft so we would welcome additional 
opportunities to work with the Committee to develop the 
language of this bill.
    Thank you, Mr. Chairman and Members of the Committee, for 
this opportunity to comment on the pending legislation and 
update you on NOAA's programs. NOAA strongly supports 
reauthorization of HABHRCA and the new opportunities it will 
provide. I will be happy to answer any questions that you may 
have.
    [The prepared statement of Dr. Magnien follows:]
                Prepared Statement of Robert E. Magnien

Introduction

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Robert E. Magnien and I am the Director of the National Oceanic and 
Atmospheric Administration's (NOAA) Center for Sponsored Coastal Ocean 
Research (CSCOR). CSCOR provides competitive funding for regional-
scale, multi-disciplinary research on understanding and predicting the 
impacts of major stressors on coastal ecosystems, communities, and 
economies in order to support informed, ecosystem-based management. In 
this capacity, I administer the five national programs solely focused 
on harmful algal blooms (HAB) and hypoxia that were authorized by the 
Harmful Algal Bloom and Hypoxia Research and Control Act of 1998 
(HABHRCA) and reauthorized in 2004. I serve on the Interagency Working 
Group on Harmful Algal Blooms, Hypoxia, and Human Health of the Joint 
Subcommittee on Ocean Science and Technology to coordinate NOAA's 
programs with other federal agencies. Additionally, I serve as the U.S. 
representative for the Intergovernmental Oceanographic Commission panel 
on HABs to maximize international opportunities for exchange of 
relevant research.
    At NOAA, we work to protect the lives and livelihoods of Americans, 
and provide products and services that benefit the economy, 
environment, and public safety of the Nation. By improving our 
understanding of, and ability to predict changes in, the Earth's 
environment, and by conserving and managing ocean and coastal 
resources, NOAA generates tremendous value for the Nation. NOAA's role 
is all the more important given the profound economic, environmental, 
and societal challenges currently facing the country. Two of these 
challenges are HABs and hypoxia, which together represent a significant 
threat to the health of the American public and the U.S. economy.
    HABs, which now occur in all U.S. states,\1\<SUP>,</SUP>\2\ are a 
growing problem worldwide. HABs threaten human and ecosystem health, 
and the vitality of fish and shellfish, protected species, and coastal 
economies. Similarly, hypoxia occurs in over 300 U.S. coastal 
systems,\3\ including the Great Lakes. There has been a 30-fold 
increase in hypoxia events since 1960,<SUP>3</SUP> signaling severe 
degradation of water quality and aquatic habitats nation-wide. HABs and 
hypoxia are two of the most complex phenomena currently challenging 
management of aquatic ecosystems. Given the profound, pervasive, 
complex and growing impacts of HABs and hypoxia, these are important 
issues NOAA will continue to address in the coming years.
---------------------------------------------------------------------------
    \1\ Lopez, C.B., Dortch, Q., Jewett, E.B., Garrison, D. 2008. 
Scientific Assessment of Marine Harmful Algal Blooms. Interagency 
Working Group on Harmful Algal Blooms, Hypoxia, and Human Health of the 
Joint Subcommittee on Ocean Science and Technology. Washington, D.C., 
62 pp.
    \2\ Lopez, C.B., Jewett, E.B., Dortch, Q., Walton, B.T. Hudnell, 
H.K. 2008. Scientific Assessment of Freshwater Harmful Algal Blooms. 
Interagency Working Group on Harmful Algal Blooms, Hypoxia, and Human 
Health of the Joint Subcommittee on Ocean Science and Technology. 
Washington, D.C., 65 pp.
    \3\ Jewett, E.B., Lopez, C.B., Kidwell, D.M. Bricker, S.B., Burke, 
M.K., Walbridge, M.R., Eldridge, P.M., Greene, R.M., Hagy, J.D., 
Buxton, H.T., Diaz, R.J. In Prep. Scientific Assessment of Hypoxia in 
U.S. Coastal Waters. Interagency Working Group on Harmful Algal Blooms, 
Hypoxia, and Human Health of the Joint Subcommittee on Ocean Science 
and Technology. Washington, D.C., 149 pp.
---------------------------------------------------------------------------
    I appreciate the opportunity to comment on the draft HABHRCA 
reauthorization before this committee so we can maximize the 
opportunities to reduce or prevent HAB and hypoxia events and their 
impacts in an efficient and coordinated manner. In order to provide 
context for the importance of HABHRCA reauthorization, I will first 
describe the nature of the problem in more detail, discuss NOAA's role 
in addressing HABs and hypoxia in our coastal and Great Lakes waters, 
and highlight some of the significant advances NOAA has made as a 
result of HABHRCA.

Harmful Algal Blooms in the United States

    Generally, algae are simple plants that in general are beneficial 
because they provide the main source of energy that sustains aquatic 
life. However, some algae cause harm to humans, animals, and the 
environment by producing toxins or by growing in excessively large 
numbers. When this occurs they are referred to as ``harmful algal 
blooms'' or HABs. Sometimes, certain algal species accumulate in such 
high numbers that they discolor the water, and are commonly referred to 
as ``red tides'' or ``brown tides.'' Table 1 lists some of the major 
HAB-causing organisms in the United States.
    Some algae produce potent toxins that cause illness or death in 
humans and other organisms. Fish, seabirds, manatees, sea lions, 
turtles, and dolphins are some of the animals commonly affected by 
harmful algae. Humans and other animals can be exposed to algal toxins 
through the food they eat, the water they drink or swim in, or the air 
they breathe. Other algae species, although nontoxic to humans and 
wildlife, form such large blooms that they degrade habitat quality 
through massive overgrowth, shading, and oxygen depletion (hypoxia), 
which occurs after the bloom ends and the algae decay. These high 
biomass blooms can also be a nuisance to humans when masses of algae 
accumulate along beaches and subsequently decay.
    HABs can have major negative impacts on local economies when, for 
example, shellfish harvesting is restricted to protect human health or 
when tourism declines due to degradation of recreational resources. 
HABs can also result in significant public health costs when humans 
become ill. A recent conservative estimate\4\ suggests that HABs 
occurring in marine waters alone have an average annual impact of $82 
million in the United States. In 2005, a single HAB event in New 
England resulted in a loss of $18 million in shellfish sales in 
Massachusetts alone.\5\ Economic impacts can be difficult to calculate 
as they vary from region to region and event to event, but they are a 
primary concern of coastal communities that experience HAB events.
---------------------------------------------------------------------------
    \4\ Hoagland, P., and Scatasta, S. 2006. The Economic Effects of 
Harmful Algal Blooms. In E. Graneli and J. Turner, eds., Ecology of 
Harmful Algae. Ecology Studies Series. Dordrecht, The Netherlands: 
Springer-Verlag, Chap. 29.
    \5\ Jin, D., Thunberg, E., and Hoagland, P. 2008. Economic Impact 
of the 2005 Red Tide Event on Commercial Shellfish Fisheries in New 
England. Ocean and Coastal Management 51(5):420-429.
---------------------------------------------------------------------------
    In addition to impacting public health, ecosystems, and local 
economies, HABs can also have secondary social and cultural 
consequences. For example, along the Washington and Oregon coasts, tens 
of thousands of people visit annually to participate in the 
recreational harvest of razor clams. However, a series of beach 
closures in recent years due to high levels of the HAB toxin domoic 
acid prevented access to this recreational fishery. These harvesting 
closures have not only caused economic losses, they have also resulted 
in an erosion of community identity, community recreation, and a 
traditional way of living for native coastal cultures.
    As mentioned above, the geographic distribution of HAB events in 
the United States is broad. All coastal states have experienced HAB 
events in marine waters in the last decade, and freshwater HABs occur 
in the Great Lakes and in many inland waters. Evidence indicates the 
frequency and distribution of HAB events and their associated impacts 
have increased considerably in recent years in the United States and 
globally.\6\
---------------------------------------------------------------------------
    \6\ GEOHAB, 2006. Global Ecology and Oceanography of Harmful Algal 
Blooms, Harmful Algal Blooms in Eutrophic Systems. P. Glibert (ed.). 
IOC and SCOR, Paris and Baltimore, 74, pp.
---------------------------------------------------------------------------
    Although all coastal states experience HABs, the specific organisms 
responsible for the HABs differ among regions of the country (see 
Figure 1). As a result, the harmful impacts experienced vary in their 
scope and severity, which leads to the need for specific management 
approaches for each region and species. Some species need to be present 
in very high abundances before harmful effects occur, which makes it 
easier to detect and track the HAB. However, other species cause 
problems at very low concentrations and can in essence be hidden among 
other benign algae, making them difficult to detect and track. The 
factors that cause and control HABs, from their initiation to their 
decline, vary not only by species, but also by region due to 
differences in local factors such as the shape of the coastline, runoff 
patterns, oceanography, nutrient regime, other organisms present in the 
water, etc. Consequently, the development of HAB management strategies 
requires a regional approach.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As noted above, the causes of HABs are complex and are controlled 
by a variety of factors. While we know the causes of HAB development 
vary between species and locations, we do not have a full understanding 
of all the factors involved, including the interplay of different 
contributing factors. In general, algal species grow best when 
environmental conditions (such as temperature, salinity, and 
availability of nutrients and light) are optimal for cell growth. Other 
biological and physical processes (such as predation, disease, toxins 
and water currents) determine whether enhanced cell growth will result 
in biomass accumulation (or what we call a ``bloom''). The challenge 
for understanding the causes of HABs stems from the complexity and 
interrelationship of these processes for individual species and among 
different HAB species. The complexity of interactions between HABs, the 
environment, and other plankton further complicate the predictions of 
when and where HAB events will occur. Knowledge of how these factors 
control the initiation, sustainment, and decline of a bloom is a 
critical precursor for advancing HAB management.
    Human activities are thought to contribute to the increased 
frequency of some HABs.<SUP>3</SUP> For example, increased nutrient 
pollution has been acknowledged as a factor contributing to increased 
occurrence of several high biomass HABs.\7\ Other human-induced 
environmental changes that may foster development of certain HABs 
include changes in the types of nutrients entering coastal waters, 
alteration of food webs by overfishing, introductions of non-indigenous 
species that change food web structure, introduction of HAB cells to 
new areas via ballast water or other mechanisms, and modifications to 
water flow.<SUP>1</SUP> It should also be noted that climate change 
will almost certainly influence HAB dynamics in some way since many 
critical processes governing HAB dynamics--such as temperature, water 
column stratification, up-welling and ocean circulation patterns, and 
freshwater and land-derived nutrient inputs--are influenced by climate. 
The interactive role of climate change with the other factors driving 
the frequency and severity of HABs is in the early stages of research, 
but climate change is expected to exacerbate the HAB problem in some 
regions (http://www.cop.noaa.gov/stressors/extremeevents/hab/current/
CC<INF>-</INF>habs.html).
---------------------------------------------------------------------------
    \7\ Heisler, J., Glibert, P.M., Burkholder, J.M., Anderson, D.M., 
Cochlan, W., Dennison, W.C., Dortch, Q., Gobler, C.J., Heil, C.A., 
Humphries, E., Lewitus, A., Magnien, R., Marshall, H.G., Sellner, K., 
Stockwell, D.A., Stoecker, D.K., and Suddleson, M. 2008. Eutrophication 
and Harmful Algal Blooms: A Scientific Consensus. Harmful Algae 8(1):3-
13.

Hypoxia in the U.S.

    Hypoxia means ``low oxygen.'' In aquatic systems, low oxygen 
generally refers to a dissolved oxygen concentration less than two to 
three milligrams of oxygen per liter of water (mg/L), but sensitive 
organisms can be affected at higher thresholds (e.g., 4.5 mg/L). A 
complete lack of oxygen is called anoxia. Hypoxic waters generally do 
not have enough oxygen to support fish and other aquatic animals, and 
are sometimes called dead zones because the only organisms that can 
live there are microbes.
    The incidence of hypoxia has increased 10-fold globally in the past 
50 years and almost 30-fold in the U.S. since 1960, with over 300 
coastal systems<SUP>3</SUP> now experiencing hypoxia (see Fig. 2). The 
increasing occurrence of hypoxia in coastal waters worldwide represents 
a significant threat to the health and economy of our nation's coasts 
and Great Lakes. This trend is exemplified most dramatically off the 
coast of Louisiana and Texas, where the second largest eutrophication-
related hypoxic zone in the world is associated with the nutrient 
pollutant load discharged by the Mississippi and Atchafalaya Rivers.
    Although coastal hypoxia can be caused by natural processes, the 
dramatic increase in the incidence of hypoxia in U.S. waters is linked 
to eutrophication due to nutrient (nitrogen and phosphorus) and organic 
matter enrichment, which has been accelerated by human activities. 
Sources of enrichment include point source discharges of wastewater, 
non-point source atmospheric deposition, and non-point source runoff 
from croplands, lands used for animal agriculture, and urban and 
suburban areas.
    The difficulty of reducing nutrient inputs to coastal waters 
results from the close association between nutrient loading and a broad 
array of human activities in watersheds and explains the growth in the 
number and size of hypoxic zones. While nutrients leaving water 
treatment facilities can often be controlled through improvements in 
technology and facility upgrades, diffuse runoff from non-point 
sources, such as agriculture, is more difficult to control. Although 
there have been some welcome efforts to optimize fertilizer 
applications, agriculture remains a leading source of nutrient 
pollution in many watersheds due in part to the high demand for 
nitrogen intensive crops. Another exacerbating factor is the short-
circuiting of water flow due to drainage practices, including tile 
drainage and ditching, that have been used to convert wetlands to 
croplands. Wetlands serve as filters and the loss of wetlands increases 
the transport of nitrogen into local waterways and ultimately coastal 
waters. Atmospheric nitrogen deposition from fossil fuel combustion 
remains an important source of diffuse nutrient pollution for rivers 
and coastal waters.
    Unfortunately, hypoxia is not the only stressor impacting coastal 
ecosystems. Overfishing, HABs, toxic contaminants, and physical 
alteration of coastal habitats associated with coastal development are 
several problems that co-occur with hypoxia and interact to decrease 
the ecological health of coastal waters and reduce the ecological 
services they can provide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


HABHRCA Today

    HABHRCA authorizes NOAA to take action to address the growing 
problem of HABs and hypoxia in the United States. The existing statute:

        1.  Establishes a mechanism for interagency coordination 
        through an interagency Task Force;

        2.  Requires reports assessing the causes and impacts of HABs 
        and hypoxia and plans to improve management and response; and

        3.  Authorizes funding for HAB and hypoxia research through 
        national competitive research programs, and for research and 
        assessment within NOAA.

    Since 2005, the Interagency Working Group on HABs, Hypoxia and 
Human Health of the Joint Subcommittee on Ocean Science and Technology 
has been meeting monthly to coordinate interagency efforts with regard 
to HABs and hypoxia. A major focus for the group has been writing the 
five reports mandated by the 2004 reauthorization of HABHRCA. Four of 
the five reports have been submitted to Congress and the fifth is 
undergoing interagency approval (http://www.cop.noaa.gov/stressors/
extremeevents/hab/habhrca/Report<INF>-</INF>Plans.html). These reports 
provide guidance for NOAA HAB and Hypoxia programs. Specifically, the 
HAB Management and Response: Assessment and Plan\8\ recommended the 
formation of the Prevention, Control, and Mitigation of HABs Program, 
which NOAA established this year. The Plan also highlights the need for 
an enhanced HAB event response program and a new infrastructure 
program, which have been incorporated into drafts of the 2009 
reauthorization of HABHRCA.
---------------------------------------------------------------------------
    \8\ Jewett, E.B., Lopez, C.B., Dortch, Q., Etheridge, S.M., Backer, 
L.C. 2008. Harmful Algal Bloom Management and Response: Assessment and 
Plan. Interagency Working Group on Harmful Algal Blooms, Hypoxia, and 
Human Health of the Joint Subcommittee on ocean Science and Technology. 
Washington, DC., 76 pp.

NOAA HAB and Hypoxia Programs

    The goal of NOAA's programs is to prevent or reduce the occurrence 
of HABs and hypoxia and/or to minimize their impacts. Developing useful 
products for HAB and hypoxia management is a multi-step process that 
requires a variety of approaches, and must be based on a strong 
scientific understanding of the causes and impacts of HABs and hypoxia.
    NOAA leads the Nation's three competitive research programs solely 
focused on HABs and authorized by HABHRCA:

        1.  The Ecology and Oceanography of Harmful Algal Blooms 
        (ECOHAB) Program is focused on research to determine the causes 
        and impacts of HABs. The ECOHAB Program provides information 
        and tools necessary for developing technologies for, and 
        approaches to, predicting, preventing, monitoring and 
        controlling HABs.

        2.  The Monitoring and Event Response for Harmful Algal Blooms 
        (MERHAB) Program focuses on incorporating tools, approaches, 
        and technologies from HAB research programs into existing HAB 
        monitoring programs. MERHAB also establishes partnerships to 
        enhance existing, and initiate new, HAB monitoring capabilities 
        to provide managers with timely information needed to mitigate 
        HAB impacts on coastal communities.

        3.  The newer Prevention, Control, and Mitigation of HABs (PCM 
        HAB) Program, transitions promising prevention, control, and 
        mitigation technologies and strategies to end users. The PCM 
        HAB Program also assesses the social and economic costs of HAB 
        events, and strategies to prevent, control and mitigate those 
        events, which will aid managers in devising the most cost-
        effective management approaches.

    HABHRCA also authorizes research on hypoxia to assess the causes 
and impacts of this serious problem in order to guide scientifically 
sound management programs to reduce hypoxic zones and thereby protect 
valuable marine resources, their habitats and coastal economies. NOAA 
leads the Nation's two competitive research programs solely focused on 
hypoxia and authorized by HABHRCA.

        1.  The Northern Gulf of Mexico Hypoxia Program (NGOMEX) 
        supports multi-year, interdisciplinary research projects to 
        inform management in ecosystems affected by Mississippi/
        Atchafalaya River inputs. NGOMEX supports research with a focus 
        on understanding the causes and effects of the hypoxic zone 
        over the Louisiana-Texas-Mississippi continental shelf and the 
        prediction of hypoxia's future extent and impacts.

        2.  The Coastal Hypoxia Research Program (CHRP) supports multi-
        year, interdisciplinary research projects to inform management 
        of hypoxic zones in all of the Nation's coastal waters except 
        those covered by NGOMEX. The objective of CHRP is to provide 
        research results and modeling tools, which will be used by 
        coastal resource managers to assess alternative management 
        strategies for preventing or mitigating the impacts of hypoxia 
        on coastal ecosystems, and to make informed decisions regarding 
        this important environmental stressor.

    HABHRCA authorizes NOAA to carry out research and assessment 
activities, which has led to a world-class intramural research program 
on HABs. Much of this research is conducted in collaboration with 
external partners, including academic researchers, State and federal 
resource and public health managers, and private enterprises. Active 
areas of research include HAB and hypoxia forecasting, development of 
new methods of HAB cell and toxin detection, and understanding the 
impacts of HAB toxins on higher trophic levels, including humans.
    NOAA's extramural and intramural research is leading to the 
development of a number of operational activities that provide valuable 
products and assistance. For example, NOAA currently provides twice 
weekly HAB forecasts for Florida coastal waters (http://
tidesandcurrents.noaa.gov/hab/development.html) and has developed 
preliminary plans for a National HAB Forecasting System, which will 
make routine forecasts in any areas where HABs are a major threat. 
Forecasts in the western Gulf of Mexico, the Great Lakes, the Gulf of 
Maine, and the Pacific Northwest are in various stages of development 
through a combination of extra- and intramural research efforts (http:/
/tidesandcurrents.noaa.gov/hab/development.html). NOAA scientists have 
been instrumental in developing citizen HAB monitoring networks around 
the country. Additionally, the NOAA Analytical Response Team provides 
state-of-the-art toxin analyses during HAB events, especially events 
that involve unusual animal mortality (http://www.chbr.noaa.gov/habar/
eroart.aspx).
    Other NOAA programs, including the Oceans and Human Health 
Initiative, Sea Grant, the Office of Protected Resources, fisheries 
management programs, and the Integrated Ocean Observing System Program, 
collaborate with the HABHRCA-authorized HAB and Hypoxia programs to 
address specific issues that relate to their research or operational 
portfolios. Many of NOAA's HAB and hypoxia accomplishments have 
resulted from these coordinated efforts and through external 
partnerships.

Major Accomplishments

    In the decade following the passage of the original HABHRCA 
legislation, several significant advances have greatly improved 
management. Many of these accomplishments are described in the four 
HABHRCA reports that were submitted to Congress in the last two years. 
Rather than list every accomplishment, I will focus on recent 
outstanding achievements.
    In the last year, HAB prediction and forecasting has been extended 
to new areas and shown great promise in providing early warning to 
public health and resource managers. In most cases, the ability to 
provide HAB forecasts is the outcome of years of research efforts 
focused on the causes of HABs. Examples of regional HAB forecasting 
include:

        <bullet>  In the Gulf of Maine, NOAA-funded researchers issued 
        a seasonal advisory in the spring of 2009 predicting that there 
        would be moderately severe blooms of Alexandrium fundyense, the 
        New England HAB organism that produces a potent neurotoxin, 
        which accumulates in shellfish and can cause human illness and 
        death. That timely prediction provided State managers several 
        months to prepare for the intensive monitoring required to 
        protect public health. A severe bloom did, in fact, occur and 
        the researchers provided weekly forecasts of the bloom 
        intensity and location. Nearly all of the shellfish beds in 
        Maine and New Hampshire and some of the shellfish beds in 
        Massachusetts were closed to harvesting. There was concern the 
        bloom would spread to affect more State waters to the south and 
        reach federal waters offshore. NOAA provided event response 
        funding to support monitoring of the actual bloom location and 
        intensity so the Food and Drug Administration and State 
        managers would have the information necessary to make decisions 
        if the bloom were to spread to new areas.

        <bullet>  In parts of western Lake Erie, blooms of the 
        cyanobacterial HAB Microcystis are common. Excessive nutrient 
        levels and shallow water depth promotes Microcystis blooms, 
        which are a potential concern to human health due to toxin 
        exposure through drinking water or recreational use. In 2008, 
        NOAA produced the first ever Lake Erie Harmful Algal Bloom 
        Bulletin, which predicted Microcystis blooms based on satellite 
        imagery in combination with hydrological, meterological and 
        limnological data. The bulletin aids in notifying users of 
        possible human health risks associated with drinking water 
        quality and Great Lakes beach conditions.

        <bullet>  Along the Washington coast, a toxic diatom, Pseudo-
        nitzschia, sometimes blooms and is transported to beaches where 
        razor clams are harvested recreationally and by tribes. When 
        exposed to such blooms, the clams accumulate the toxin, which 
        can result in illness and death if the clams are eaten. NOAA-
        funded scientists have improved early warning of Pseudo-
        nitzschia blooms by determining how winds move HABs from their 
        source region to coastal beaches. Since 2008, they have issued 
        an interactive HAB Bulletin that managers from the Washington 
        State Departments of Health and Fish and Wildlife use to 
        determine well in advance of openings whether shellfish toxin 
        levels will require closures. Managers can communicate this 
        knowledge to harvesters and owners of coastal businesses 
        catering to harvesters to minimize impacts.

    Detection is a critical first step in protecting human health, as 
it is not possible to predict and respond to a problem that cannot be 
easily quantified or tracked. Many new methods of detecting HAB cells 
and toxins have been developed, tested, and in some cases put into 
routine use for a variety of purposes.

        <bullet>  Local and State shellfish managers needed quick field 
        tests to determine if shellfish are toxic to humans. Working 
        with commercial partners, NOAA scientists developed, and have 
        now made commercially available, a quick test for the potent 
        neurotoxin domoic acid, which is produced by Pseudo-nitzschia, 
        a HAB-causing organism that occurs along all U.S. coasts.

        <bullet>  Long-term, cost-effective HAB monitoring systems 
        require sensors that can be deployed in the water remotely and 
        left for long periods of time. Recently NOAA scientists, 
        working with partners at Monterey Bay Aquarium Research 
        Institute, successfully used a robotic underwater sensor, the 
        Environmental Sample Processor, to detect the HAB organism 
        Pseudo-nitzschia and its toxin domoic acid. This is the first 
        time that HAB organisms and their toxins have been measured 
        remotely, which is a critical first step in using Integrated 
        Ocean Observing Systems to provide early warnings of HABs.

        <bullet>  Similarly, NOAA funding has contributed to the 
        development of automated sensors for Karenia brevis, the 
        Florida red tide organism, which can be deployed underwater 
        either on gliders or stationary sampling platforms. A number of 
        these sensors have been built and are in routine use for HAB 
        monitoring in Florida, where they provide an efficient means of 
        ground-truthing satellite observations, a critical element for 
        accurate HAB forecasting.

    NOAA is currently funding research on novel HAB mitigation and 
control measures. For example, research on both the east and west 
coasts has investigated why some shellfish accumulate toxins but others 
of the same species do not when they are exposed to the HAB species, 
Alexandrium. Alexandrium produces Paralytic Shellfish Poisoning (PSP) 
toxins that can cause severe illness or death in humans. Small genetic 
differences in shellfish appear to determine whether an individual 
shellfish become toxic. Researchers have mapped what they call the 
``toxin resistance'' of soft shell clams in New England, providing 
local resource managers with new insights on why particular harvesting 
areas become toxic much more quickly than others. Research into ``toxin 
resistance'' may also lead to the development of shellfish seed stocks 
that are appropriate for areas that are exposed to Alexandrium blooms.
    NOAA has already begun to develop the Regional Research and Action 
Plans that are called for in drafts of the 2009 reauthorization of 
HABHRCA. As a part of this work, NOAA organized the 2009 West Coast HAB 
Summit, which brought together 80 leading scientists, managers, and 
industry representatives for the first time in Portland, Oregon, to 
discuss region-specific HAB issues and begin to develop the West Coast 
Regional Research and Action Plan. At the Summit, the representatives 
also endorsed the vision of the West Coast Governors Agreement on Ocean 
Health to establish a regional HAB monitoring, alert and response 
network and forecasting system. Seizing on the opportunities of new and 
emerging technologies, this system will provide advanced early warning 
of HABs, minimize fishery closures, protect the economy of coastal 
communities, mitigate the impacts to marine life and protect public 
health.
    Through its HABHRCA-authorized hypoxia programs, NOAA has provided 
the research foundation upon which management of the ``dead zone'' in 
the Gulf of Mexico is based as described in the Mississippi River/Gulf 
of Mexico Watershed Nutrient Task Force Action Plan.\9\ Ongoing 
targeted regional research is furthering our understanding of impacts 
on fisheries and local economies and filling gaps in our understanding 
of the factors driving the size and location of the hypoxic zone, 
including climate change. This information is vital to support the Task 
Force's adaptive management approach to addressing this major coastal 
problem.
---------------------------------------------------------------------------
    \9\ Mississippi River/Gulf of Mexico Watershed Nutrient Task Force. 
2008. Gulf Hypoxia Action Plan 2008 for Reducing, Mitigating, and 
Controlling Hypoxia in the Northern Gulf of Mexico and Improving Water 
Quality in the Mississippi River Basin. Washington, DC.
---------------------------------------------------------------------------
    NOAA has collaborated closely with the U.S. Environmental 
Protection Agency in developing and promoting implementation of 
management strategies to reduce nutrient pollution contributing to the 
Gulf of Mexico hypoxic zone. The Undersecretary of Commerce for Oceans 
and Atmosphere and NOAA Administrator (Dr. Jane Lubchenco) sits on the 
EPA-chaired interagency Mississippi River/Gulf of Mexico Watershed 
Nutrient Task Force, and NOAA also plays a leading role on the Task 
Force's Coordinating Committee, and co-chairs its Monitoring, Modeling 
and Research Workgroup. The Task Force released the 2008 Gulf Hypoxia 
Action Plan, which reaffirmed the goal of reducing the hypoxic zone and 
suggested 45 percent reductions of both nitrogen and phosphorus.
    NOAA-funded research has demonstrated that widespread reproductive 
impairment occurs in a common marine fish, Atlantic croaker, in the 
hypoxic zone west of the Mississippi River. More recently, the actual 
molecular mechanism behind the reproductive impairments in fish was 
identified. Atlantic croaker exposed to hypoxia had significantly less 
of the hormone progestin, which is critical to the croaker reproductive 
cycle. The reduction in progestin resulted in reduced ovarian and 
testicular growth in adults, and a decrease in hatching success and 
larval survival. Identification of this molecular mechanism adds to a 
growing body of evidence that non-lethal hypoxia impacts pose long-term 
threats to living resource populations in the hypoxic zone.
    NOAA-funded researchers are providing predictive modeling tools to 
resource and water quality managers in Narragansett Bay in Rhode Island 
to help mitigate hypoxia events, which have led to major fish kills and 
resulted in nutrient reduction criteria for waste water treatment 
facilities (WWTF). These predictive modeling tools will provide 
alternative management options for WWTFs (such as relocation of outfall 
pipes to locations where outward currents would speed nutrients out of 
the ecosystem) and will generate ecological impact scenarios for 
various nutrient loading estimates, thereby helping to determine 
allowable nutrient loadings for WWTFs into local rivers that drain into 
Narragansett Bay.

NOAA Comments on the House Bill

    We only just recently received a copy of the draft bill to review, 
and therefore have not had a sufficient amount of time to fully review 
and comment on its content. However, based on an initial review, the 
House HAB and hypoxia bill addresses two issues that are consistent 
with our goals for improving out HABs and hypoxia efforts:

        1.  It will establish an overarching HAB and Hypoxia Program 
        within NOAA. This will enhance the visibility of these issues 
        as a national priority and improve coordination within NOAA 
        between programs that primarily address HABs and hypoxia and 
        those that conduct research and response as part of a larger 
        mission, such as Sea Grant, OHHI, OPR, IOOS and the NOAA labs. 
        Coordination with NOAA partners in other federal agencies will 
        also be improved.

        2.  Regional Research and Action Plans will be developed with 
        input from local experts on HABs and hypoxia. These plans will 
        help further coordinate federal, regional, State, and local 
        entities and recommend specific actions they can undertake to 
        prevent, reduce or minimize HABs, hypoxia, and their impacts. 
        The plans will also provide guidance for NOAA research and 
        operational programs to better target regional needs.

    We note that all mention of specific ongoing HAB and hypoxia 
programs that were specified in prior versions of HABHRCA have been 
removed. NOAA has found that the specification of programs helps to 
clarify the intent of Congress when implementing this legislation. Much 
of the progress in improving HAB and hypoxia management and response 
has come from information and products developed through these highly 
successful programs. Further, the HAHBRCA report presented to Congress 
last year, HAB Management and Response: Assessment and Plan, 
recommended that progress would be enhanced if an Event Response and 
Infrastructure Program were added.
    Additionally, the role of research within NOAA is not specified in 
the legislation. In the previous legislation, specific authorization 
was given for research and assessment in NOAA. Such authorization 
assures that the valuable research conducted within NOAA will be 
continued.
    We understand that this bill is only a draft. As such, we would 
welcome additional opportunities to work with your Subcommittee as you 
continue to work on the language of this bill.

CONCLUSION

    Thank you for this opportunity to comment on the pending 
legislation and to update you on NOAA's HAB and hypoxia programs. NOAA 
strongly supports reauthorization of HABHRCA and the new opportunities 
it will provide. With this legislation in place, NOAA and its many 
partners and affected communities will be able to build on its numerous 
accomplishments. Over the last ten years we have made enormous progress 
in understanding the causes and consequences of HABs and hypoxia, 
leading to the development of many tools and information products 
which, in turn, have directly improved HAB and hypoxia management, 
particularly in the area of prediction and mitigation. We anticipate 
that in the next ten years we will continue to make progress and our 
ability to prevent and control, as well as mitigate, HAB events will be 
greatly enhanced.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Robert E. Magnien

    Robert Magnien has been Director of NOAA's Center for Sponsored 
Coastal Ocean Research (CSCOR) since 2003. CSCOR is responsible for 
administering the competitive research programs called for in the 
Harmful Algal Bloom and Hypoxia Research and Control Act (HABHRCA), 
which include the only three national programs devoted solely to 
Harmful Algal Bloom (HAB) research. CSCOR also administers the two 
national competitive Hypoxia research programs called for in HABHRCA 
and other regional-scale applied research programs to provide the 
predictive capabilities necessary for management of coastal systems in 
an ecosystem context. Dr. Magnien has served as the NOAA lead on HAB 
and hypoxia coordination internally, across the Federal Government, and 
internationally.
    From 1983 to 2003 Dr. Magnien held several positions in the State 
of Maryland's Chesapeake Bay Program from its inception and served in 
numerous leadership roles (technical and policy) for the EPA-led 
regional Chesapeake Bay Program. He last served from 1995 to 2003 for 
Maryland's Department of Natural Resources as Director of the Tidewater 
Ecosystem Assessment (TEA) Division and, additionally, from 2002 to 
2003 as Director of the Resource Assessment Service, which oversees the 
Maryland Geological Survey and three other Divisions which include most 
of the State's science capabilities related to the management of the 
Chesapeake Bay and freshwaters. In these capacities Dr. Magnien led 
Maryland's efforts to respond to threats posed by HABs and reported to 
the Governor and his cabinet as needed. He also provided both 
scientific and policy leadership on regional efforts to understand and 
manage the Chesapeake Bay's hypoxia problem as well as numerous other 
issues such as water quality, habitat restoration, dredging operations, 
toxic contaminants, ecological forecasting, and information management.
    Dr. Magnien has authored numerous peer-reviewed publications, 
technical reports, agency documents and workshop reports and has also 
made numerous invited and submitted presentations at international, 
national, and regional scientific conferences. These publications and 
presentations include his work on harmful algal blooms, hypoxia, large-
scale monitoring programs, environmental assessments and the 
interactions between science and policy.
    Dr. Magnien received a Ph.D. in Aquatic Ecology from Dartmouth 
College and a B.S. in Biology from the State University of New York at 
Albany.

    Chairman Baird. Thank you, Dr. Magnien.
    Ms. Schwartz.

 STATEMENT OF MS. SUZANNE E. SCHWARTZ, ACTING DIRECTOR, OFFICE 
    OF WETLANDS, OCEANS, AND WATERSHEDS, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY; ACCOMPANIED BY DR. RICHARD M. GREENE, 
 ECOSYSTEM DYNAMICS AND EFFECTS BRANCH OFFICE OF RESEARCH AND 
       DEVELOPMENT, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Schwartz. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. I am Suzanne Schwartz, the Acting Director of 
the Office of Wetlands, Oceans, and Watersheds within the 
Office of Water at the U.S. Environmental Protection Agency 
(EPA). I would also like to introduce now to you Dr. Rick Green 
of our Office of Research and Development, who is sitting 
behind me, who is the Agency's technical expert on the subject 
of hypoxia and harmful algal blooms. Thank you for the 
opportunity to discuss some of the things that EPA is doing to 
address the threats to human health and our marine and 
freshwater resources from harmful algal blooms and hypoxia.
    Obviously, everyone here knows the problems associated with 
harmful algal blooms. I would, however, just note that the 
second largest hypoxic zone in the world is located in the 
northern Gulf of Mexico. It is not something we are proud of. 
There is very strong evidence connecting hypoxia and algal 
blooms with nutrient pollution, excessive nitrogen and 
phosphorus in the water, with the most significant sources of 
nutrients coming from agricultural runoff as well as 
residential and commercial fertilizers, animal waste, sewage 
treatment plants and air deposition from utilities and 
vehicles. EPA's focus, while we have done research, has largely 
been to look at ways to control those sources of this 
pollution.
    EPA has statutory authority under the Clean Water Act and 
the Marine Protection Research and Sanctuaries Act to protect 
oceans and coastal waters as well as freshwater lakes, rivers 
and streams. We have a number of programs under the Clean Water 
Act that look specifically to regulating discharges into waters 
of the United States and establishing limits for pollutants 
that can go into waters of the United States. We regulate 
discharges of sewage from vessels as well as discharges of 
other materials. Under the Safe Drinking Water Act, we 
promulgate drinking water standards for the protection of human 
health from exposure to contaminants.
    It is clear that the discharges of nitrogen and phosphorus 
and their effects on the development of hypoxia and harmful 
algal blooms is a problem now more than ever. In response, 
since the introduction of HABHRCA, we have worked to adopt a 
watershed approach to reducing nutrient discharges that 
involves identifying high-priority watersheds and applying both 
voluntary and regulatory tools to achieve water quality goals. 
In the Mississippi River basin states, EPA has approved a total 
of about 3,500 nutrient-related TMDLs, total maximum daily 
loads, which identify a maximum amount of pollutant that a 
water body can receive and still achieve water quality 
standards. We are also working closely with the states on 
developing nutrient management and nutrient reduction 
strategies. Just today EPA is seeking public input on a draft 
nutrient TMDL for the Chesapeake Bay, which again we will be 
looking at innovative ways to address the non-point sources in 
particular as well as the point sources that are causing the 
problems. We also have non-point source grant program and other 
grant programs where we provide some financial assistance for 
nutrient management.
    We are working with the states on assessing the Nation's 
waters. The National Lakes Assessment Report, which is due for 
release in December, will include for the first time the 
occurrence of microcystin, the most commonly measured algal 
toxin in lakes across the country. The surveys will provide 
information on nutrient levels in our waters as well. EPA is 
also working with the states to support the development of 
numeric nutrient water quality standards. We are engaged in 
rule-making for that purpose in Florida. We are carefully 
considering our response to a petition to do the same in the 
Mississippi/Atchafalaya River basin and we have just recently 
provided to EPA's Science Advisory Board methodologies for 
states to use in developing their own criteria.
    EPA has a long history of doing research whether it is in 
the Great Lakes, through the ECOHAB program or through other 
programs. We are also in the process of reviewing the addition 
of algal toxins on the EPA Candidate Contaminant list for 
drinking water. We have worked with EPA's Science Advisory 
Board as well as the National Academy of Sciences, and I would 
just highlight that they found that while the Clean Water Act 
had much reduced direct discharges from point sources into the 
Mississippi River, problems stemming from urban runoff, 
agriculture and other non-point sources have proven difficult 
to address. This is an issue that confronts the EPA because our 
statutory authority is focused primarily on point source 
pollution and we have limited regulatory authorities over non-
point source pollution.
    The Office of Research and Development is working to guide 
the science on Gulf hypoxia and nutrient management decisions, 
to help forecast the effects of nutrient management actions 
that are taken and provide options to guide restoration and 
decision-making. As part of the Task Forces, we have been 
actively participating as well and we chair the Mississippi 
River/Gulf of Mexico Watershed Nutrient Task Force.
    In conclusion, EPA is an active participant in research and 
control of freshwater and marine hypoxia and harmful algal 
blooms, and particularly their primary cause, excess nutrients. 
We appreciate the Subcommittee's efforts in this area. We look 
forward to working with you further on the bill. We do have 
some comments that I won't provide at this time and I thank you 
very much. I will be happy to answer questions.
    [The prepared statement of Ms. Schwartz follows:]

               Prepared Statement of Suzanne E. Schwartz

    Good afternoon Mr. Chairman and Members of the Subcommittee. I am 
Suzanne Schwartz, Acting Director of the Office of Wetlands, Oceans and 
Watersheds, within the Office of Water, U.S. Environmental Protection 
Agency (EPA). I would also like to introduce to you Dr. Rick Greene of 
our Office of Research and Development, who is here with me as the 
Agency's technical expert on the subject of hypoxia and harmful algal 
blooms. Thank you for the opportunity to discuss some of the things EPA 
is doing to address the threats to human health and our marine and 
freshwater resources from harmful algal blooms (HABs) and hypoxia.

HARMFUL ALGAL BLOOMS AND HYPOXIA--THREATS TO HUMAN HEALTH AND 
                    ECOSYSTEMS

    Harmful algae and hypoxia, or low dissolved oxygen, represent a 
serious and growing threat to freshwater and marine mammals and 
fisheries, as well as to human health. While the understanding of the 
causes and impacts of harmful algal blooms and hypoxic events is not 
complete, it is known that the death and decay of algal blooms can lead 
to oxygen depletion in the water, resulting in widespread mortality of 
fish, shellfish and other invertebrates. These algae can grow, 
displacing native species, and altering habitat. Public health 
officials and ocean resource managers have had to increasingly respond 
to the adverse impacts of harmful algae by sensitive public.
    There are over 405 hypoxic zones around the world (Science, 2008), 
and the second largest zone in the world is located in the Gulf of 
Mexico. There is strong evidence connecting hypoxia and algal blooms 
with nutrient pollution--excessive nitrogen and phosphorus--in the 
water, with the most significant sources of nutrients coming from 
agricultural runoff, largely from the upper Mississippi River Basin, as 
well as residential/commercial fertilizers, animal waste, sewage 
treatment plants, and air deposition from utilities and vehicles. NOAA 
has provided a conservative estimate that the cost of hypoxia and algal 
blooms to the U.S. seafood and tourism industries is approximately $82 
million annually.

EPA RESPONSE

Programmatic
    EPA has statutory authority under the Clean Water Act (CWA) and the 
Marine Protection, Research and Sanctuaries Act (MPRSA) to implement 
programs designed to provide protections for oceans and coastal waters 
and freshwater lakes, rivers and streams. For example, EPA and 
delegated States may issue permits for the discharge of pollutants to 
waters of the U.S., including the territorial seas, under section 402 
of the CWA. In addition, EPA may issue section 402 permits for 
discharges to ocean waters beyond the territorial seas. For discharges 
to coastal and marine waters, section 403 of the CWA includes 
additional requirements related to permitting such discharges. CWA 
section 303 directs states to adopt water quality standards for their 
waters establishing the designated uses and water quality criteria to 
protect those uses. By regulation, publishes scientific information 
related to water pollution. CWA section 312 addresses discharge of 
sewage and other materials from vessels. EPA also works with the Army 
Corps of Engineers to manage ocean dumping of dredged material under 
the MPRSA. Also under the MPRSA, EPA regulates the dumping of materials 
(other than dredged materials) into the ocean. Additionally, EPA has 
authority under the Safe Drinking Water Act to promulgate drinking 
water standards for the protection human health from exposure to 
contaminants, possibly including toxins created by harmful algal 
blooms, which might be present in public drinking water systems.
    It is clear that the discharges of nitrogen and phosphorus, and 
their affect on the development of hypoxia and harmful algal blooms is 
a problem, now more than ever. In 2008, the Gulf of Mexico hypoxic zone 
was among the largest ever recorded since measurements began over 
twenty years ago. Last year, while it was smaller in size, it was more 
severe in terms of oxygen depletion. In response, since the 
introduction of HABHRCA, EPA has worked to adopt a watershed approach 
to reducing nutrient discharges that involves identifying high-priority 
watersheds and applying both voluntary and regulatory tools to achieve 
water quality goals. In the Mississippi River Basin States, EPA has 
approved a total of about 3500 nutrient-related TMDLs (Total Maximum 
Daily Loads), which identify the maximum amount of pollutant that a 
waterbody can receive and still achieve water quality standards. The 
non-point source grant program under CWA section 319, and the Targeted 
Watershed Grants provide financial assistance to states that are 
implementing their own nutrient management programs.
    EPA is also working with the states to assess the condition of the 
Nation's waters through a series of statistical surveys on rivers and 
streams, lakes and reservoirs, coastal waters and wetlands. The 
National Aquatic Resource Surveys are beginning to contribute 
significant information we can use to evaluate the extent and impact of 
toxic algae, nutrients and other key indicators. The National Lakes 
Assessment report, due for release in December, will include the first 
national picture of the occurrence of microcystin (the most commonly 
measured algal toxin), in lakes across the country. These data will 
provide valuable information in assessing the scope of toxic algal 
problem nationally. The Surveys also provide information on nutrient 
levels in our waters which can be related to land use, harmful algal 
bloom risk levels and other issues such as hypoxia.
    EPA is also working with the States to support implementation of 
Clean Water Act regulatory tools through the development of numeric 
nutrient water quality standards. EPA is engaged in proposed rule-
making for numeric nutrient criteria for the State of Florida, 
following the Agency's January 2009 determination that numeric nutrient 
criteria are needed in Florida. EPA is also at this time carefully 
considering its response to a petition to establish nutrient criteria 
within the Mississippi/Atchafalaya River Basin. The great distances 
between the sources of nutrients contributing to hypoxia in the Gulf, 
and the impact that factors other than nutrients--temperature, 
precipitation and storm events--have on the size of the hypoxic zone, 
complicate the regulatory issues.
    Harmful algal blooms are of concern in the Great Lakes and other 
waters because of their toxicity and impact on human and ecosystem 
health. A particularly toxic species is present in have significant 
cyanobacterial blooms. These blooms cause fouling of the beaches and 
shoreline, economic and aesthetic losses, taste and odor impairments of 
drinking water, and direct risks to human, fish and animal health. 
EPA's Great Lakes National Program Office funds research on harmful 
algal blooms research and coordinates with NOAA's Center of Excellence 
for Great Lakes and Human Health (CEGLHH).
    EPA has had a long-standing collaboration with NOAA through the 
Interagency Ecology and Oceanography of Harmful Algal Blooms Program, 
authorized by HABHRCA in 1998 and 2004. A Memorandum of Understanding 
that is still in effect allowed the participating agencies, EPA, NOAA, 
NSF, NASA, and ONR, to fund competitive research on the causes and 
impacts of HABs and to develop methods of detection, prevention and 
control EPA funded nearly 30 projects between 1997 and 2006, several of 
them joint efforts with NOAA.
    EPA continues to evaluate the human health implications from 
harmful algal blooms and the toxins they produce in drinking water. The 
Agency included cyanotoxins as a group and discussed the three algal 
toxins, anatoxin, microcystin, and cylindrospermopsin, on the draft 
Candidate Contaminant List published in February 2008. The CCL 
identifies contaminants that may occur in public water systems and may 
require a drinking water regulation. The Agency sought public comment 
and review by the Science Advisory Board of the draft CCL 3. EPA is 
reviewing comments on the draft CCL 3 and anticipates publishing a 
final list soon.

Scientific
    In 2006, EPA's Office of Water requested that the EPA Science 
Advisory Board (SAB) convene an independent panel to evaluate the state 
of the science regarding hypoxia in the Northern Gulf of Mexico and 
potential nutrient mitigation and control options in the Mississippi-
Atchafalaya River basin (MARB).
    The SAB Panel found that the Gulf of Mexico ecosystem appears to 
have gone through a regime shift with hypoxia such that today the 
system is more sensitive to inputs of nutrients than in the past, with 
nutrient inputs inducing a larger response in hypoxia than has been 
evidenced in other coastal marine ecosystems such as the Chesapeake 
Bay. Further, the SAB suggested that changes in benthic and fish 
communities exposed to hypoxia are cause for concern. The recovery of 
hypoxic ecosystems may occur only after long time periods or with 
further reductions in nutrient inputs. If actions to control hypoxia 
are not taken, the SAB warned that further ecosystem impacts could 
occur within the Gulf.
    In 2008 the National Academy of Science (NAS), published 
``Mississippi Water Quality and the Clean Water Act,'' which found that 
while the Clean Water Act had much reduced direct discharges from point 
sources into the Mississippi River, problems stemming from urban 
runoff, agriculture and other non-point sources had proven difficult to 
address. A second NAS study, supported by the EPA entitled, ``Nutrient 
Control Actions for Improving Water Quality in the Mississippi River 
Basin and Northern Gulf of Mexico,'' recommended more collaborative 
action between EPA and USDA. A third study, ``Clean Water Act 
Implementation Across the Mississippi River Basin'' is currently 
underway.
    To respond to the challenge posed by hypoxia, the EPA's Office of 
Research and Development has ongoing hypoxia research and modeling 
activities that will help guide the science needed to address Gulf 
hypoxia and support nutrient management decisions. The goal of that 
effort is to develop a suite of model applications, data products and 
other tools to assess and predict the relationships between nutrient 
loads and Gulf hypoxia, quantify sources of error and uncertainty 
associated with nutrient load reduction targets, forecast the effects 
of nutrient management actions in the Basin on Gulf hypoxia, and 
provide defensible options to guide restoration and decision-making.
    In addition, the Office of Research and Development has published 
multiple regression models that describe the relationship between the 
Gulf hypoxic area and nitrate and phosphorus concentrations and spring 
discharge in the Mississippi-Atchafalaya Rivers. These models explain 
much of the variability in the size of the hypoxic zone over the past 
25 years and provide improved capabilities for evaluating dual 
nutrients management strategies to address Gulf hypoxia. However, model 
predictions indicate that with gradual nutrient reductions (e.g., 45 
percent over 10 years), much more than a decade would be required 
before a significant downward trend in hypoxic area could be observed.

Harmful Algal Bloom and Hypoxia/Gulf Hypoxia Task Forces
    In response to the human health and environmental risks posed by 
the threat of excess nutrient pollution to the Nation's fresh and 
marine waters, EPA, NOAA, and other federal and State agencies have 
been working collaboratively to better understand, and ultimately, 
manage or respond effectively and efficiently to nutrient pollution and 
hypoxia in particular. EPA is an Interagency Working Group on HABs, 
Hypoxia, and Human Health (IWG-4H) led by NOAA, which, among other 
responsibilities, implements the reporting requirements of HABHRCA 
2004.
    Recently a Scientific Assessment of Freshwater Harmful Algal Blooms 
was developed through the Interagency Working Group on HABs, Hypoxia 
and Human Health (IWG-4H), which examined the causes, ecological 
consequences, and economic costs of freshwater HABs. It was based, in 
large part, on a workshop report from the International Symposium on 
Cyanobacterial Harmful Algal Blooms (ISOC-HAB) sponsored by EPA, and 
other agencies, held September 2005, which focused on: 1) occurrence of 
freshwater blooms and toxins, 2) causes, prevention, and mitigation, 3) 
toxins, toxin kinetics and dynamics, 4) human health and ecological 
effects, 5) analytical methods for identifying and quantifying 
freshwater HAB organisms and toxins, and 6) risk and/or impact 
assessments for freshwater HABs.
    In addition, the EPA chairs and manages the Mississippi River/Gulf 
of Mexico Watershed Nutrient Task Force, comprised of fifteen States 
and Federal Agencies, which work together to reduce, mitigate, and 
control hypoxia in the northern Gulf of Mexico and improve water 
quality in the Mississippi/Atchafalaya River Basins. In 2008, the Task 
Force published their second Action Plan, identifying three goals and 
eleven actions designed to accelerate the reduction of nitrogen and 
phosphorus in the Mississippi watershed, and ultimately reduce the Gulf 
hypoxic zone to 5,000 km. On September 23rd and 24th, the Gulf Hypoxia 
Task Force will meet in Des Moines, IA, to discuss a variety of 
strategic proposals that have the potential for significant reductions 
in nutrient discharges to the Gulf. The Task Force will also be 
presenting its first Annual Report, and FY 2010 operating plan in a 
public forum.
    In conclusion, EPA believes that harmful algal blooms and hypoxia 
represent serious threats to human health and the environment and we 
have robust research ongoing that is targeting the causes and their 
impacts. In addition, EPA is using its regulatory authority under the 
Clean Water Act (including the Beach Act) to address the causes of 
harmful algal blooms where necessary, and ultimately to protect human 
health and the environment. The Gulf Hypoxia Task Force, which engages 
federal agencies and the states in a voluntary collaborative effort, is 
proposing innovative approaches to reducing nutrient discharges that 
could have significant results. At the same time, EPA appreciates the 
Subcommittee's efforts to improve the effectiveness of this overall 
effort, and to increase the focus on the freshwater impacts of HABs and 
hypoxia. We look forward to working with you in the future.
    Thank you for the opportunity to address the Subcommittee. We will 
be happy to answer your questions.

                   Biography for Suzanne E. Schwartz

    Suzanne Schwartz is the Acting Director of the Office of Wetlands, 
Oceans and Watersheds (OWOW) at the United States Environmental 
Protection Agency (EPA) within the Office of Water. OWOW promotes a 
watershed approach to manage, protect, and restore the water resources 
and aquatic ecosystems of the Nation's marine and fresh waters. OWOW's 
programs include wetlands regulation and restoration, regulation of 
ocean dumping and vessel discharges, monitoring and assessment, 
including the National Aquatic Resource Surveys, non-point source 
pollution management, TMDL oversight, and building capacity of State 
and local governments and watershed organizations.
    Suzanne has served as the Deputy Director of OWOW since April 2007. 
Previously she was the Director for EPA's Oceans and Coastal Protection 
Division. In this capacity she was responsible for the Clean Water Act 
Nation Estuary Program; the regulation of disposal of wastes in the 
ocean, and other ocean, marine and coastal programs.
    Since Suzanne joined EPA in 1980 she has worked on a number of 
water issues in a variety of staff and management positions. Prior to 
coming to EPA, Suzanne was the founding editor of the Environmental Law 
Institute's National Wetlands Newsletter. She holds a law degree from 
Columbia University School of Law.

                    Biography for Richard M. Greene

    Dr. Greene is the Chief of the Ecosystem Dynamics and Effects 
Branch, Gulf Ecology Division, National Health and Environmental 
Effects Research Laboratory in EPA's Office of Research and 
Development. He is the EPA lead for Gulf of Mexico Hypoxia research and 
water quality research supporting nutrient criteria development in 
estuarine and coastal waters. Dr. Greene serves as the EPA 
representative on numerous federal/State science teams, advisory 
committees and task forces, including the interagency Mississippi 
River/Gulf of Mexico Watershed Nutrients Task Force Coordinating 
Committee. He recently co-chaired the symposium ``Hypoxia in the 
Northern Gulf of Mexico: Assessing the State of the Science'' which was 
conducted as part of the Task Force's reassessment of the 2001 Action 
Plan for Reducing, Mitigating and Controlling Hypoxia in the Northern 
Gulf of Mexico.
    Dr. Greene holds a Doctor of Philosophy in Oceanography from the 
State University of New York, Stony Brook, a Master of Science in 
Biological Sciences from California State University, Fullerton, and a 
Bachelor of Science in Biology from Oregon State University. In 
addition, he was a postdoctoral researcher in the Oceanographic and 
Atmospheric Sciences Division at Brookhaven National Laboratory, and a 
research faculty in the Oceanography Department, Texas A&M University. 
His research interests and expertise include estuarine and coastal 
water quality; nutrient dynamics and eutrophication; improving the 
science supporting numeric nutrient criteria development; phytoplankton 
production and bloom dynamics; and coastal oceanographic processes.

    Chairman Baird. Thank you, Ms. Schwartz.
    Mr. Ayres.

  STATEMENT OF MR. DAN L. AYRES, FISH AND WILDLIFE BIOLOGIST, 
COASTAL SHELLFISH LEAD, WASHINGTON STATE DEPARTMENT OF FISH AND 
                            WILDLIFE

    Mr. Ayres. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to speak today.
    As the Washington Coastal Shellfish Manager, I am here 
today to represent the many State and tribal fishery managers, 
aquaculture industry managers and human health experts who, 
like me, work hard to manage important shellfish resources, 
allowing for the maximum socioeconomic value these resources 
can provide to the small communities along the Washington 
coast. We each have responsibility in our respective areas to 
manage the harvest of the bountiful natural resources we have 
been blessed with in the Pacific Northwest.
    The West Coast aquaculture industry, which produces a large 
portion of the Nation's oysters, mussels and hardshell clams, 
is valued at more than $110 million annually. In an average 
year, landings in the West Coast Dungeness Crab Fishery have a 
value just to the fishermen of between $25 million to $45 
million, making this fishery an important coastal economic 
driver for the hundreds of licensed fishers, both State and 
tribal, and many more people involved in shoreside processing 
operations, and the fishery that I know so well, Washington 
State's Recreational Razor Clam Fishery, that draws very large 
numbers of participants from great distances to the small 
communities along our coast during the October to May period 
when few visitors would otherwise be present. The 2008-2009 
season recorded just under 250,000 digger trips and generated 
an estimated $12.5 million to the many small tourist-related 
coastal businesses.
    However, all of us find our jobs are made much more 
difficult by the ever-present threat of harmful algal species 
that are naturally occurring in the waters of the West Coast 
and the potential harm they pose to human health. When the 
growth of these species bloom and produce dangerous toxins, 
then the fisheries we manage are disrupted and the activities 
and income of those who depend on them are greatly impacted.
    This last winter, NOAA hosted the first ever West Coast 
Harmful Algal Blooms Summit. This three-day workshop in 
Portland, Oregon brought together West Coast scientists, State 
and tribal fishery managers, human health experts and 
aquaculture industry members to design a West Coast regional 
HAB monitoring, alert and response network as well as a West 
Coast regional HAB forecasting network. In addition, workshop 
participants also began developing a West Coast HAB research 
and action plan. Joining regional expert scientists and 
managers to address regional HAB problems is very valuable. The 
solutions to these problems can best be found within each 
region with the help, support and guidance of federal agencies. 
We applaud NOAA's efforts along with representatives of the 
West Coast Governors' Agreement on Ocean Health to organize and 
execute the West Coast HAB summit. Direction to federal 
agencies to continue to organize and fund regional workshops 
that result in regional HAB research action plans around the 
Nation should be an integral part of future legislation.
    In 2007, I participated in a NOAA-sponsored workshop that 
brought together a group of HAB researchers and coastal 
managers from all around the Nation to provide input into the 
National Scientific Research, Development, Demonstration and 
Technology Transfer Plan on Reducing Impacts from Harmful Algal 
Blooms, the RDDTT plan. The major result was a call for three 
new federal programs. First, a program that focuses on methods 
for prevention, control and mitigation of HABs, second, a 
comprehensive national HAB event response program, and third, a 
core infrastructure program. While we see all three programs as 
important to move the Nation ahead in addressing HAB-related 
issues, as a State fishery manager, I worked hard on the HAB 
Event Response Program. Today we want to strongly encourage you 
to consider this as a potential new program that federal 
agencies are directed to implement. Such a program will improve 
access to existing resources for better response through 
information sharing, communication, and coordination and will 
provide essential new resources. However, improving our 
national response to regional HAB events is only half the 
battle. We want to encourage you to include in any future HAB 
legislation support for continued research into ways to 
mitigate for and some day actually prevent HAB events. The 
other two programs proposed in the RDDTT plan will certainly 
move the Nation in that direction. The Prevention, Control and 
Mitigation Program will focus on moving promising technologies 
and strategies that arise through basic research programs from 
development to demonstration to technology transfer for field 
application by managers. The Core Infrastructure Program will 
increase availability of adequate analytical facilities, 
research and reference materials, technical training and access 
to data.
    Finally, in reviewing the Committee's draft legislation for 
the reauthorization of the Harmful Algal Bloom and Hypoxia 
Research and Control Act, we are very concerned that two key 
existing HAB programs administered by NOAA are not specifically 
identified. On the Washington coast, we are now enjoying the 
results from the work of two important projects that were 
funded through these programs, the Monitoring and Event 
Response for Harmful Algal Bloom, the MERHAB program, and 
Ecology and Oceanography of Harmful Algal Blooms, the ECOHAB 
program. My written testimony includes specific examples of why 
these programs should be continued.
    So in the end, the ability to predict the onset of these 
harmful algal blooms, to better respond on a region-wide basis 
and to find innovative ways to mitigate and even prevent them 
will be a huge step forward in allowing us to better accomplish 
our mission: to provide our citizens access to some of the best 
seafood in the world. Thank you.
    [The prepared statement of Mr. Ayres follows:]

                   Prepared Statement of Dan L. Ayres

    I am pleased to submit this prepared testimony to Members of the 
Subcommittee on Energy and Environment of the United States House of 
Representatives.
    As a Washington State coastal shellfishery manager, I represent the 
many State and tribal fishery managers, aquaculture industry members, 
and human health experts, who like me, work hard to manage important 
sustainable shellfish resources, allowing for the maximum socioeconomic 
value these resources can provide to the small communities along the 
Washington Coast. We each have responsibility in our respective areas--
to manage the harvest of the bountiful natural resources we've been 
blessed with in the Pacific Northwest.
    Each of us can tell you the story of how important these 
resources--and the ability to harvest them--are to the citizens of our 
State and tribal communities.
    The West Coast aquaculture industry, which produces a large portion 
of the Nation's oysters, mussels and hard-shell clams, is valued at 
more than $110 million annually.\1\
---------------------------------------------------------------------------
    \1\ http://www.pcsga.org/pub/farming/farm<INF>-</INF>benefits.shtm
---------------------------------------------------------------------------
    In an average year, landings in the West Coast Dungeness crab 
fishery\2\ have a value--just to the fishermen--of between $25 to $45 
million, making this fishery a very important coastal economic driver 
for the hundreds of licensed fishers (both State and tribal) and many 
more people involved in shore-side processing operations.
---------------------------------------------------------------------------
    \2\ http://wdfw.wa.gov/fish/shelfish/crabreg/comcrab/coast/
index.htm; http://www.oregon dungeness.org/general-info/
ODCC<INF>-</INF>the<INF>-</INF>fishery.htm; http://www.dfg.ca.gov/
marine/dungeness.asp
---------------------------------------------------------------------------
    And the fishery that I know so well, Washington State's 
recreational razor clam fishery\3\ is a very popular activity that 
draws very large numbers of participants from great distances to the 
small communities along the Washington coast during the October to May 
season when few visitors would otherwise be present. The most recent 
2008-09 season recorded just under 250,000 digger trips and generated 
an estimated $12.5 million to the many small tourist-related coastal 
businesses.
---------------------------------------------------------------------------
    \3\ Washington State has actively managed razor clam populations 
along 58 miles of its Pacific Ocean coastline for more than 70 years. 
http://wdfw.wa.gov/fish/shelfish/razorclm/razorclm.htm
---------------------------------------------------------------------------
    Razor clams also provide an important source of sustenance and 
much-needed income to members of the Quinault Indian Nation\4\ who have 
a very long history of depending on safe sources of shellfish.
---------------------------------------------------------------------------
    \4\ http://209.206.175.157/index1.htm
---------------------------------------------------------------------------
    However, all of us find our job is made much more difficult by the 
ever present threat of harmful algal species that are naturally 
occurring in the waters of the Washington coast and the threat they 
pose to human health.
    When the growth of these species takes off--or bloom--and produce 
dangerous toxins,\5\ then the fisheries we manage are disrupted and the 
activities and income of those who depend on them are greatly impacted.
---------------------------------------------------------------------------
    \5\ Eating of fish and shellfish containing domoic acid causes the 
human illness known as amnesic shellfish poisoning (ASP). Symptoms 
include vomiting, nausea, diarrhea and abdominal cramps within 24 hours 
of ingestion. In more severe cases, neurological symptoms develop 
within 48 hours and include headache, dizziness, confusion, 
disorientation, loss of short-term memory, motor weakness, seizures, 
profuse respiratory secretions, cardiac arrhythmia, coma. People 
poisoned with very high doses of the toxin can die. There is no 
antidote for domoic acid. Research has shown that razor clams 
accumulate domoic acid in edible tissue (foot, siphon and mantle) and 
are slow to depurate (purify) the toxin. Eating of fish and shellfish 
containing saxitoxin causes human illness known a paralytic shellfish 
poisoning (PSP). Symptoms include tingling of the lips followed by 
paralyzing of the diaphragm and possible death.
---------------------------------------------------------------------------
    For example, the Washington and Oregon razor clam fisheries have 
seen numerous closures--often erasing an entire season for State and 
tribal recreational and commercial fishers and creating a big economic 
loss for the tourist communities who depend on these visitors.
    In Puget Sound, not a year goes by when some areas are closed and 
the harvest and shipment of shellfish is banned because of harmful 
algae. Some of these closures can last for many months--perhaps 
affecting a shellfish grower's entire annual income.
    This last winter, the NOAA Center for Sponsored Coastal Ocean 
Research hosted the first-ever West Coast HAB (Harmful Algal Bloom) 
Summit.\6\ This three day workshop, in Portland, Oregon, brought 
together a large group of West Coast scientists, State and tribal 
fisheries managers, human health experts and aquaculture industry 
members to design a West Coast Regional HAB Monitoring, Alert and 
Response Network as well as a West Coast Regional HAB Forecasting 
Network. In addition, workshop participants also focused on beginning 
the process of developing a West Coast HAB Research and Action Plan.
---------------------------------------------------------------------------
    \6\ http://www.cop.noaa.gov/stressors/extremeevents/hab/current/
HAB<INF>-</INF>Summit09/west<INF>-</INF> coast<INF>-</INF>summit.html
---------------------------------------------------------------------------
    The concept of joining regional expert scientists and managers to 
address regional HAB problems has proven to be very valuable. The 
solutions to these problems can best be found within each region--with 
the help, support and guidance of federal agencies. We applaud NOAA's 
efforts, along with representatives of the West Coast Governor's 
Agreement on Ocean Health to organize and execute the West Coast HAB 
Summit.
    Much work remains on these important regional plans and NOAA 
remains the collaborative yet driving force that will ensure these 
plans reach their goals of completion and implementation.
    Direction to federal agencies to continue to organize and fund 
regional workshops that result in regional HAB research action plans 
around the Nation should be an integral part of future legislation.
    I was honored to be invited in 2007 to participate in a NOAA-
sponsored workshop that brought together a group of HAB researchers and 
coastal managers from around the Nation to provide input into the 
National Scientific Research, Development, Demonstration, and 
Technology Transfer Plan on Reducing Impacts from Harmful Algal 
Blooms,\7\ (RDDTT Plan). The major result of this plan was the call for 
three new federal programs. First, a program that focuses on 
development, demonstration, and technology transfer of methods for 
prevention, control, and mitigation of HABs; also, a comprehensive 
national HAB Event Response program: and finally, a Core Infrastructure 
program.
---------------------------------------------------------------------------
    \7\ www.whoi.edu/fileserver.do?id=43464&pt=10&p=19132
---------------------------------------------------------------------------
    While we see all three new programs as important to move the Nation 
ahead in addressing HAB-related issues, as a State fishery manager I 
worked hard on the HAB Event Response Program. Today we want to 
strongly encourage you to consider this as a potential new program the 
federal agencies are directed to implement. Such a program will improve 
access to existing resources for response through better information 
sharing, communication, and coordination and provide essential new 
resources. Our proposal lays out a regionally based, federal HAB Event 
Response Program linked to a network of Regional HAB Coordinators.
    However, it is true that improving our national response to 
regional HAB events is only half of the battle. We would like today to 
also encourage you to include in any future HAB legislation support for 
continued research into ways to mitigate for and someday actually 
prevent HAB events.
    The other two programs proposed in the RDDTT Plan will certainly 
move the Nation in that direction. The Prevention, Control and 
Mitigation Program will focus on moving promising technologies and 
strategies that arise through basic research programs from development 
to demonstration to technology transfer for field application by 
managers or other end-users. The Core Infrastructure Program will 
increase availability of adequate analytical facilities, reference and 
research materials, technical training, and access to data; improve 
integration of HAB activities with existing monitoring and emerging 
observational programs; and enhance communication and regional and 
national coordination.
    We are concerned that two key existing HAB programs administered by 
NOAA are not called out specifically in the Committee's draft 
legislation for the reauthorization of the Harmful Algal Blooms and 
Hypoxia Research and Control Act. On the Washington Coast we now are 
enjoying the results from the work of two important projects that were 
funded through these programs, the Monitoring and Event Response for 
Harmful Algal Bloom (MERHAB) program and Ecology and Oceanography of 
Harmful Algal Blooms (ECOHAB) program.
    MERHAB provided five years of funding that allowed Seattle-based 
NOAA HAB researchers, University of Washington oceanographers and algae 
experts, State and tribal fishery managers and human health experts to 
form a successful partnership we call the Olympic Region Harmful Algal 
Bloom project. MERHAB funding allowed us to ramp up our ability to 
monitor for harmful algal species in our marine waters--providing much 
needed advance notice of potential HAB events. This endeavor started 
with MERHAB funds in 2000 and transitioned to State dollars (generated 
by a surcharge on shellfish licenses) in 2005. In addition, on-going 
MERHAB funded programs in our region continue to add to our ability to 
monitor for and respond to potential HAB events. In just the last few 
days, data collected by the Oregon's MOCHA (Monitoring Oregon Coastal 
HABs)\8\ project--funded by MERHAB--alerted our staff to watch closely 
for increases in the harmful algae species that could produce PSP 
(paralytic shellfish poison) in shellfish.
---------------------------------------------------------------------------
    \8\ http://bioloc.oce.orst.edu/strutton/hab<INF>-</INF>intro.html
---------------------------------------------------------------------------
    ECOHAB funding of an ambitious five-year project, ECOHAB-PNW,\9\ 
has provided us with valuable understanding of how HAB events initiate 
in Washington's northern off-shore marine waters and how and why they 
then move to our near-shore waters, potentially affecting Washington's 
coastal shellfish resources. ECOHAB is also funding a new project (PNW-
TOX) that will allow University scientists in both Washington and 
Oregon to look specifically at HAB events that initiate in Oregon's 
off-shore waters and then move to both Oregon and southern Washington's 
near-shore waters affecting shellfish resources on the coasts of both 
states.
---------------------------------------------------------------------------
    \9\ http://www.ecohabpnw.org/
---------------------------------------------------------------------------
    Programs such as MERHAB and ECOHAB are vitally needed by Washington 
State and the other states of our region.
    As you continue to work on the draft of the reauthorization of the 
Harmful Algal Blooms and Hypoxia Research and Control Act we urge you 
to specifically direct NOAA to continue the very valuable MERHAB, 
ECOHAB and the newly started PCM HAB programs.
    In the end, the ability to reliably predict the onset of these 
harmful algal blooms--both when and where they can be expected--to 
better respond on a region-wide basis and to share expertise, and to 
find new innovative ways to mitigate and even prevent these dangerous 
blooms will be a huge step forward in allowing us to better accomplish 
our mission--to provide our citizens safe access to some of the best 
seafood found anywhere in the world.

                       Biography for Dan L. Ayres

    Dan Ayres is a Fish and Wildlife Biologist who leads the Washington 
Department of Fish and Wildlife's coastal shellfish unit based in 
Montesano and Willapa Bay. He manages Washington's very popular razor 
clam fishery and oversees the unit's work managing the coastal 
Dungeness crab, pink shrimp and spot prawn fisheries, the Willapa Bay 
oyster reserves and research projects in Willapa Bay.
    He has also worked closely with other State and federal agencies on 
harmful algal bloom issues since the marine toxin domoic acid was first 
found along the Washington Coast in 1991. Dan is currently serving his 
second term on the National Harmful Algal Bloom Committee. He has 
represented WDFW in testimony on this topic at both the State and 
federal level. He has collaborated on several national HAB plans 
including: Harmful Algal Research and Response: A National 
Environmental Science Strategy (2005); Harmful Algal Research and 
Response: a Human Dimensions Strategy (2006); Harmful Algal Bloom 
Research and Development, Demonstration and Technology Transfer--
National Workshop Report (2008). He also worked to organize the 
recently held West Coast HAB Summit (2009) and is currently working 
with the team developing the reports that will be products of the 
summit.

    Chairman Baird. Thank you, Mr. Ayres.
    Dr. Anderson.

STATEMENT OF DR. DONALD M. ANDERSON, SENIOR SCIENTIST, BIOLOGY 
  DEPARTMENT, WOODS HOLE OCEANOGRAPHIC INSTITUTION; DIRECTOR, 
         U.S. NATIONAL OFFICE FOR HARMFUL ALGAL BLOOMS

    Dr. Anderson. Chairman Baird and Ranking Member Inglis, my 
name is Don Anderson and I am a Senior Scientist at the Woods 
Hole Oceanographic Institution where I direct the U.S. National 
Office for Harmful Algal Blooms. I am also Co-Chair of the 
National HAB Committee and have been actively involved in 
research on HABs and in formulating our national HAB program.
    I was asked to talk about technologies used to mitigate and 
control HABs. Mitigation is a term that includes well-proven 
strategies such as monitoring programs for toxins in shellfish, 
public education and outreach, scientifically based siting of 
aquaculture facilities, and other activities that reduce HAB 
impacts. In a major advance for the United States, we are now 
forecasting HABs over time scales ranging from weeks to months. 
For example, an ECOHAB program in the Pacific Northwest has 
identified an eddy, or a circulating water mass, off Puget 
Sound that serves as an incubator for the toxic cells that 
cause amnesic shellfish poisoning. This is a debilitating 
illness that can cause death or permanent memory loss in some 
victims. As the water spins off of that eddy, it carries cells 
to shore, causing sudden and significant outbreaks that are now 
easier to manage, given this understanding.
    On the East Coast, again with ECOHAB and MERHAB support, we 
have taken forecasting a step further and now have computer 
models that allow us to evaluate conditions that caused past 
outbreaks, but we can also look forward with forecasts. For the 
last two years, we successfully forecast major regional red 
tides months in advance and have provided weekly forecasts as 
well. The value of this information is evident in the 
commitment by Maine, Massachusetts and New Hampshire to pay 
nearly one-half million dollars for the collection of data 
needed to initiate these forecasts for the next two years.
    Another important mitigation tool relies on DNA probes for 
identifying and enumerating HAB species. In a very exciting 
development this technology is now being incorporated into 
robotic instruments that can be deployed remotely, collecting 
water and conducting the manipulations needed to detect and 
count HAB cells and measure their toxins. This brings us one 
step closer to a dream that I share with many in my field--
arrays of instruments deployed along a coast that can detect 
HABs, monitor their development and provide real-time data to 
the computer models that then predict landfall and impacts. 
This is the approach used by the Weather Service to provide 
accurate weather forecasts. There are significant challenges to 
do this with biological systems in the ocean but I think we are 
up to that challenge.
    In the area of control of marine HABs, I am afraid progress 
has been regrettably slow. This is not for a lack of 
strategies, as there are methods to kill HAB cells using 
bacteria, parasites, viruses, chemicals or even minerals such 
as clay that can be sprayed over a bloom to capture the toxic 
cells and carry them to bottom sediments. The stumbling block 
has been transitioning these laboratory studies to the field. 
And why is this? One reason is that given a choice, scientists 
will propose fundamental research on bloom dynamics, for 
example, rather than undertake the risky, controversial and 
highly visible task of trying to control a bloom. Another 
reason is that we do not have a separate program with its own 
funding line and yet another is that we have no agency that 
currently has a clear mandate to control marine nuisance 
organisms just like the Agricultural Research Service has for 
control of terrestrial pests. To jump-start progress, this 
HABHRCA legislation needs to explicitly call for a program on 
prevention, control and mitigation of HABs and authorize funds 
for that specific program. If the funding is significant and 
targeted, scientists and engineers will participate and move 
this field forward. This is also an area where the HAB 
community should work with those who seek to manage invasive 
species or again with agencies such as the Agricultural 
Research Service.
    A related comment is that we need to authorize two other 
programs as detailed in my written testimony and as you have 
also heard so far today. One is the National HAB Event Response 
Program and the other an infrastructure program. The need for 
the former was clearly evident this year when a red tide closed 
shellfish beds in Maine, New Hampshire and much of 
Massachusetts, leading to requests to NOAA from Senator Snowe 
and from the FDA for information on the offshore extent and 
status of the bloom. This led to a scramble for funds to 
support cruises and personnel on a very short notice. Had there 
been a national program other than response, this would have 
been much more effective and timely.
    I will close by saying that I am strongly supportive of the 
involvement of EPA in our national HAB program. The inclusion 
of freshwater HABs is important as well. This committee, I 
believe, has shown great foresight and initiative in 
recognizing this need and acting upon it.
    Mr. Chairman, that concludes my testimony.
    [The prepared statement of Dr. Anderson follows:]

                Prepared Statement of Donald M. Anderson

    Mr. Chairman and Members of the Subcommittee. I am Donald M. 
Anderson, a Senior Scientist in the Biology Department of the Woods 
Hole Oceanographic Institution, where I have been active in the study 
of red tides and harmful algal blooms (HABs) for 30 years. I am here to 
provide the perspective of an experienced scientist who has 
investigated many of the harmful algal bloom (HAB) phenomena that 
affect coastal waters of the United States and the world. I am also 
Director of the U.S. National Office for Harmful Algal Blooms, co-Chair 
of the National HAB Committee, and have been actively involved in 
formulating the scientific framework and agency partnerships that 
support and guide our national program on HABs. Today my testimony will 
briefly summarize HABs and their impacts and provide some examples of 
the nature of our national HAB program and the technologies that have 
been developed to help mitigate and control these outbreaks. I will 
also provide my perspective on the research, programmatic, and 
legislative needs to move towards a National HAB action plan, and will 
offer some comments about the Committee's draft legislation for the 
reauthorization of HABHRCA (Harmful Algal Bloom and Hypoxia Research 
and Control Act). Other than a few general comments, I will restrict my 
comments to marine HABs, as testimony on freshwater HABs is being 
provided by my colleague Dr. Greg Boyer.

Background

    HABs are caused by algae--many of them microscopic. These species 
sometimes make their presence known through massive ``blooms'' of cells 
that discolor the water (hence the common use of the term ``red 
tide''), sometimes through illness and death of humans who have 
consumed contaminated shellfish or fish, sometimes through mass 
mortalities of fish, seabirds, and marine mammals, and sometimes 
through irritating aerosolized toxins that drive tourists and coastal 
residents from beaches. Macroalgal or seaweed blooms also fall under 
the HAB umbrella. Excessive seaweed growth, often linked to pollution 
inputs, can displace natural underwater vegetation, cover coral reefs, 
and wash up on beaches, where the odor of masses of decaying material 
is a serious deterrent to tourism. As you will hear from Dr. Boyer, 
there are also HABs in freshwater systems that pose threats to human, 
animals, and ecosystems as a result of toxins present in drinking and 
recreational waters.
    With regard to human health, one major category of HAB impact 
occurs when toxic phytoplankton are filtered from the water as food by 
shellfish which then accumulate the algal toxins to levels that can be 
lethal to humans or other consumers. These poisoning syndromes have 
been given the names paralytic, diarrhetic, neurotoxic, azaspiracid, 
and amnesic shellfish poisoning (PSP, DSP, NSP, AZP, and ASP). All have 
serious effects, and some can be fatal. A sixth human illness, 
ciguatera fish poisoning (CFP) is caused by biotoxins produced by 
dinoflagellates that grow on seaweeds and other surfaces in coral reef 
communities. Ciguatera toxins are transferred through the food chain 
from herbivorous reef fishes to larger carnivorous, commercially 
valuable finfish. Yet another human health impact from HABs occurs when 
a class of algal toxins called the brevetoxins becomes airborne in sea 
spray, causing respiratory irritation and asthma-like symptoms in 
beach-goers and coastal residents, typically along the Florida and 
Texas shores of the Gulf of Mexico.

Distribution of HAB Phenomena in the United States. With the exception 
of AZP, all of the poisoning syndromes described above are known 
problems within the U.S. and its territories, affecting large expanses 
of coastline (Fig. 1). PSP occurs in all coastal New England states as 
well as New York, extending to offshore areas in the northeast, and 
along much of the west coast from Alaska to northern California. 
Overall, PSP affects more U.S. coastline than any other algal bloom 
problem. NSP occurs annually along Gulf of Mexico coasts, with the most 
frequent outbreaks along western Florida and Texas. Louisiana, 
Mississippi, North Carolina and Alabama have also been affected 
intermittently, causing extensive losses to the oyster industry and 
killing birds and marine mammals. ASP has been a problem for all of the 
U.S. Pacific coast states. The ASP toxin has been detected in shellfish 
on the east coast as well, and in plankton from Gulf of Mexico waters. 
Until recently, DSP was virtually unknown in the U.S., but a major 
outbreak was recently reported along the Texas coast, resulting in an 
extensive closure of shellfish beds in that area. CFP is the most 
frequently reported non-bacterial illness associated with eating fish 
in the U.S. and its territories, but the number of cases is probably 
far higher, because reporting to the U.S. Center for Disease Control is 
voluntary and there is no confirmatory laboratory test. In the Virgin 
Islands, it is estimated that nearly 50 percent of the adults have been 
poisoned at least once, and some estimate that 20,000-40,000 
individuals are poisoned by ciguatera annually in Puerto Rico and the 
U.S. Virgin Islands alone. CFP occurs in virtually all sub-tropical to 
tropical U.S. waters (i.e., Florida, Texas, Hawaii, Guam, Virgin 
Islands, Puerto Rico, and many Pacific Territories). As tropical fish 
are increasingly exported to distant markets, ciguatera has become a 
problem for consumers far from the tropics. For example, recent 
poisonings of restaurant patrons in the Washington, DC area and 
elsewhere were linked to fish caught in the Flower Garden Banks 
National Marine Sanctuary in the Gulf of Mexico south of Texas. The FDA 
subsequently issued a letter of guidance to seafood processors that 
recommends that certain fish species caught around that sanctuary 
should be avoided.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Recent Trends. The nature of the HAB problem has changed considerably 
over the last three decades in the U.S. Virtually every coastal state 
is now threatened by harmful or toxic marine algal species, whereas 30-
40 years ago, the problem was much more scattered and sporadic. In 
inland states, HABs in rivers, lakes, reservoirs, and other water 
bodies have increased as well. Overall, the number of toxic blooms, the 
economic losses from them, the types of resources affected, and the 
number of toxins and toxic species have all increased dramatically in 
recent years in the U.S. and around the world (Ramsdell et al., 2005).
    There are many reasons for this expansion, some of which involve 
human activities. Some new bloom events likely reflect indigenous 
populations that have been discovered because of better detection 
methods and more observers rather than new species introductions or 
dispersal events. Other ``spreading events'' are most easily attributed 
to dispersal via natural currents, while it is also clear that man may 
have contributed to the global HAB expansion by transporting toxic 
species in ship ballast water. The U.S. Coast Guard, EPA, and the 
International Maritime Organization are all working toward ballast 
water control and treatment regulations that will attempt to reduce the 
threat of species introductions worldwide.
    Of considerable concern, particularly for coastal resource 
managers, is the potential relationship between the apparent increase 
in HABs and the accelerated eutrophication of coastal waters due to 
human activities (Anderson et al., 2002). Some HAB outbreaks occur in 
pristine U.S. waters with no influence from pollution or other 
anthropogenic effects, but in other areas, linkages between HABs and 
eutrophication have been noted (Anderson et al., 2008). Coastal waters 
are receiving massive and increasing quantities of industrial, 
agricultural and sewage effluents through a variety of pathways. Just 
as the application of fertilizer to lawns can enhance grass growth, 
marine algae can grow in response to various types of nutrient inputs. 
Shallow and restricted coastal waters that are poorly flushed appear to 
be most susceptible to nutrient-related algal problems. Nutrient 
enrichment of such systems often leads to eutrophication and increased 
frequencies and magnitudes of phytoplankton blooms, including HABs.

Economic and Societal Impacts. HABs have a wide array of economic 
impacts, including the costs of conducting routine monitoring programs 
for shellfish and other affected resources, short-term and permanent 
closure of harvestable shellfish and fish stocks, reductions in seafood 
sales (including the avoidance of ``safe'' seafoods as a result of 
over-reaction to health advisories), mortalities of wild and farmed 
fish, shellfish, submerged aquatic vegetation and coral reefs, impacts 
on tourism and tourism-related businesses, and medical treatment of 
exposed populations. A conservative estimate of the average annual 
economic impact resulting from HABs in the U.S. is approximately $82 
million (Hoagland and Scatasta, 2006). Cumulatively, the costs of HABs 
exceed a billion dollars over the last several decades. These estimates 
do not include the application of ``multipliers'' that are often used 
to account for the manner in which money transfers through a local 
economy. Furthermore, individual bloom events can approach the annual 
average, as occurred for example in 2005 when a massive bloom of 
Alexandrium species along the New England coast closed shellfish beds 
from Maine to southern Massachusetts. The impact to the Massachusetts 
shellfish industry alone was estimated by the State Division of Marine 
Fisheries to be $50M, with similar large impacts occurring in Maine. 
Additional unquantified losses were experienced by the tourist industry 
and by restaurants and seafood retailers, as consumers often avoided 
all seafood from the region, despite assurances that no toxins had been 
detected in many of these seafood products.

HAB Program Development

    In addition to providing background information on HABs, I was 
asked to comment on the technologies that are used for the mitigation 
and control of HABs. I was also asked to comment on the draft HABHRCA 
legislation and the need for action plans and research strategies, 
including those at the regional level. Below I will highlight some of 
the technologies that have been developed under past funding 
initiatives. This will demonstrate some of the extraordinary progress 
that has been made in our ability to monitor and manage HABs, but it 
will also help to demonstrate where there are gaps in our national 
program that need to be filled through specific, thematic funding 
programs that I believe should be specified in the draft legislation.
    Our national HAB program is viewed by many colleagues in other 
disciplines as a model program that has succeeded because of its 
organization and planning. As recently as 20 years ago, this was not 
the case, however, as there was very little research on HABs, and that 
being conducted in the academic community was scattered and unfocused. 
To help rectify this problem, we formulated a National Plan (Anderson 
et al., 1993) that guided activities in this field for the next 10-15 
years, identifying major impediments to progress and identifying the 
steps that were needed to overcome those impediments. The National Plan 
was broadly based, however, encompassing ecology, physiology, 
toxicology, human health, economics, ecosystem health, and many other 
topics. This breadth exceeded the mandate and resources of any single 
agency or program, and thus for implementation purposes, it was 
necessary to break the plan into a series of programs on complementary 
topics that together would meet all needs. The first thematic area was 
the ``Ecology and Oceanography of HABs,'' which was addressed by the 
ECOHAB program. This was followed by MERHAB (Monitoring and Event 
Response of HABs), and then by Ocean and Human Health (OHH) programs. 
The latter began with a partnership between the National Institute of 
Environmental Health Sciences (NIEHS) and the National Science 
Foundation (NSF), who have supported four Centers for Oceans and Human 
Health that include significant HAB research and outreach activities. 
This program is in transition at the moment, due to the decision of 
NIEHS not to participate in the renewal process for the Centers due to 
budgetary issues. NSF has provided interim support, and efforts are 
underway to encourage NIEHS to re-join the program. NOAA has also 
created an Oceans and Human Health Initiative (OHHI) that supports 
extramural research and focused activities at three federal OHHI 
centers. As discussed below, several other programs are needed to 
complete the national program.

Research progress and technological advances

    ECOHAB projects have been highly successful in unraveling the 
fundamental mechanisms behind the blooms or outbreaks of toxic and 
harmful algae throughout the U.S. In some cases, the advances represent 
the accumulation of knowledge that leads to a conceptual understanding 
of the dynamics of blooms that can stretch for 1,000 km or more. 
Imagine the complexity of the biological, chemical, and physical 
phenomena that underlie blooms that occur on that scale. Yet as a 
result of the ECOHAB program's sustained investment in regional survey 
cruises and multi-disciplinary research teams, we now have what I 
believe is the best fundamental understanding of several regional HABs 
anywhere in the world. In the Northeastern U.S., for example, this has 
led to our ability to forecast toxic PSP outbreaks on an annual basis, 
which we have done quite successfully for the last two years, and which 
we will continue to do in the future. (See www.whoi.edu/
page.do?pid=24039&tid=282&cid=41211). We also provide weekly numerical 
model predictions of bloom status that are posted on the Internet and 
widely used by resource managers within the region. The value of these 
long and short-term forecasts is seen in the actions of three states 
(Maine, Massachusetts, and New Hampshire) who contributed nearly 
$500,000 of emergency (``failed fishery'') funds for the collection of 
data needed to initialize the models that will be used to forecast the 
regional blooms for 2010 and 2011.
    In a similar manner, a regional ECOHAB program on the west coast of 
the U.S. has identified an eddy or circulating water mass off Puget 
Sound that serves as a reservoir or incubator for the toxic cells that 
cause ASP poisonings on that coast. (ASP is a debilitating illness that 
includes permanent loss of short-term memory in some victims). As water 
spins off of that eddy, it carries the cells to shore, causing sudden 
and significant outbreaks that are now easier to manage given this 
understanding of the source. I expect that Dan Ayres will provide more 
information on the value of this type of information in his 
accompanying testimony.
    In the Gulf of Mexico, a second phase of the ECOHAB-Florida program 
is investigating nutrient uptake by the toxic red tide organism Karenia 
brevis, and is conducting surveys of nutrient concentrations in the 
region that are addressing the sensitive and highly controversial issue 
of the potential link between red tide blooms and nutrient inputs from 
land, including those associated with agriculture and other human 
activities. This ongoing research has obvious implications to policy 
decisions concerning pollution and water quality in the region.
    These are but a few of the advances in understanding that have 
accrued from ECOHAB regional funding. Equally important are the 
discoveries from smaller, targeted research projects, as well as those 
that provide management tools to reduce the impacts of HABs on coastal 
resources. The most effective HAB management strategies are monitoring 
programs that involve sampling and testing of wild or cultured seafood 
products directly from the natural environment, as this allows 
unequivocal tracking of toxins to their site of origin and targeted 
regulatory action. Numerous monitoring programs of this type have been 
established in U.S. coastal waters, typically by State agencies. This 
monitoring has become quite expensive, however, due to the 
proliferation of toxins and potentially affected resources. States are 
faced with flat or declining budgets and yet need to monitor for a 
growing list of HAB toxins and potentially affected fisheries 
resources. Technologies are thus urgently needed to facilitate the 
detection and characterization of HAB cells and blooms. This need is 
being addressed through the MERHAB program. MERHAB projects have 
contributed valuable technologies to these ongoing monitoring programs, 
such as the application of species-or strain-specific DNA ``probes'' 
that can be used to label only the HAB cells of interest so they can 
then be detected visually, electronically, or chemically. With 
technological advances that often started with ECOHAB projects and 
moved to MERHAB applications, progress has been rapid and probes of 
several different types are now available for many of the harmful 
algae, along with techniques for their application in the rapid and 
accurate identification, enumeration, and isolation of individual 
species. One example of the direct application of this technology in 
operational HAB monitoring is for the New York and New Jersey brown 
tide organism, Aureococcus anophagefferens. The causative organism is 
so small and non-descript that it is virtually impossible to identify 
and count cells using traditional microscopic techniques. Antibody 
probes were developed that bind only to A. anophagefferens cells, and 
these are now used routinely in monitoring programs run by State and 
local authorities, greatly improving counting time and accuracy.
    These probes are now being incorporated into a variety of different 
assay systems, including some that can be mounted on buoys and left 
unattended while they robotically sample the water and test for HAB 
cells. Clustered with other instruments that measure the physical, 
chemical, and optical characteristics of the water column, information 
can be collected and used to make ``algal forecasts'' of impending 
toxicity. These instruments are taking advantage of advances in ocean 
optics, as well as the new molecular and analytical methodologies that 
allow the toxic cells or chemicals (such as HAB toxins) to be detected 
with great sensitivity and specificity. A clear need has been 
identified for improved instrumentation for HAB cell and toxin 
detection, and additional resources are needed in this regard. This can 
be accomplished during development of the Integrated Ocean Observing 
System (IOOS) for U.S. coastal waters, and through a targeted research 
program on HAB prevention, control, and mitigation (see below). These 
are needed if we are to achieve our vision of future HAB monitoring and 
management programs--an integrated system that includes arrays of 
moored instruments as sentinels along the U.S. coastline, detecting 
HABs as they develop and radioing the information to resource managers. 
Just as in weather forecasting, data from instrumented networks can 
also be assimilated into numerical models to improve forecast accuracy.
    This capability is consistent with ECOHAB and MERHAB goals to 
develop and incorporate forecasts or predictions of bloom development 
and movement into management and mitigation programs. Prediction of HAB 
outbreaks requires numerical models which account for both the growth 
and behavior of the toxic algal species, as well as the movement and 
dynamics of the surrounding water. Numerical models of coastal 
circulation are advancing rapidly in the U.S., and a number of these 
incorporate HAB dynamics as well. A model developed to simulate the 
dynamics of the organism responsible for paralytic shellfish poisoning 
(PSP) outbreaks in the Gulf of Maine is relatively far advanced in this 
regard (McGillicuddy et al., 2005), and is now being transitioned from 
academic use towards an operational mode. Here again, congressional 
support is needed to provide the appropriations needed to turn these 
academic tools into operational programs, as discussed below. Note also 
that scientists from the New England region are working with colleagues 
in Washington State to help them adapt the Gulf of Maine numerical 
model for use in Puget Sound waters, since closely related organisms 
cause PSP outbreaks in both regions.
    In the Gulf of Mexico, satellite images of ocean color are now used 
to detect and track toxic red tides of Karenia brevis. Bloom forecast 
bulletins are now being provided to affected states in the Gulf of 
Mexico by the NOAA NOS Center for Coastal Monitoring and Assessment. 
The combination of warning and rapid detection is a significant aid to 
the Gulf states in responding to these blooms. As is the case with the 
Gulf of Maine HAB forecasting system and one for the Great Lakes, 
Congressional attention is needed to provide the mandate and funding to 
make these HAB forecasting systems operational within NOAA. In FY 2010, 
funds were requested for this purpose in the President's budget, but 
were not included in either the House or Senate appropriations. I would 
like to see this operational HAB forecasting capacity within NOAA 
authorized in the HABHRCA legislation, and a specific funding line 
recommended.
    Other practical strategies to mitigate the impacts of HAB events 
include: regulating the siting of aquaculture facilities to avoid areas 
where HAB species are present, modifying water circulation for those 
locations where restricted water exchange is a factor in bloom 
development, and restricting species introductions (e.g., through 
regulations on ballast water discharges or shellfish and finfish 
transfers for aquaculture). Each of these strategies requires 
fundamental research such as that being conducted through ECOHAB, but 
further advances would occur if they are moved to practical application 
through a new program on the prevention, control, and mitigation of 
HABs.
    Several approaches to directly control or suppress HABs are under 
study as well--similar to methods used to control pests on land--e.g., 
biological, physical, or chemical treatments that directly target the 
bloom cells. Here however, progress towards direct field applications 
has been slow, and efforts are needed to change the nature and the pace 
of this line of investigation. To date, other than one study in which 
copper sulfate was dropped from crop dusting planes to control a 
Florida red tide over 50 years ago, there has not been a single effort 
to control a natural HAB in U.S. waters. Another sign of the lack of 
progress in this topic area is seen in the submissions of scientific 
papers to the forthcoming 5th U.S. HAB Symposium--a national meeting of 
U.S. HAB researchers and managers. Of the nearly 200 abstracts 
submitted to this conference, only two involve bloom control studies.
    The reasons for this lack of progress in bloom control will be 
discussed below, and recommendations will be offered for ways to change 
this worrisome trajectory, but it is not for lack of possible 
strategies. One example is work conducted in my own laboratory, again 
through ECOHAB support, using ordinary clay to control HABs. When 
certain clays are dispersed on the water surface, the tiny clay 
particles aggregate with each other and with other particles, including 
HAB cells. The aggregates then settle to the ocean bottom, carrying the 
unwanted HAB cells from the surface waters where they would otherwise 
grow and cause harm. As with many other new technologies for HABs, 
initial results are quite promising and small-scale field trials have 
been conducted, but continued support is needed to fully evaluate 
benefits, costs, and environmental impacts.
    Another intriguing bloom control strategy is being evaluated for 
the brown tide problem. It has been suggested that one reason the brown 
tides appeared about 15-20 years ago in the Long Island region was that 
hard clams and other shellfish stocks have been depleted by 
overfishing. Removal of these resources altered the manner in which 
those waters were ``grazed''--i.e., shellfish filter large quantities 
of water during feeding, and that removes many microscopic organisms 
from the water, including natural predators of the brown tide cells. If 
this hypothesis is valid, a logical bloom control strategy would be to 
re-seed shellfish in the affected areas, and to restrict harvesting.
    In general, bloom control is an area where very little research 
effort has been directed in the U.S. (Anderson, 1997), yet considerable 
effort is needed before these means are used to control HABs in natural 
waters given the high sensitivity for possible damage to coastal 
ecosystems and water quality by the treatments. The U.S. lags behind 
countries like Japan, China, South Korea and Australia in pursuing and 
implementing bloom control strategies. At the current pace of research 
and development, options for HAB control may not be in place for many 
years unless a concerted effort is made to encourage and promote these 
kinds of studies. As discussed below, this could be accomplished as 
part of a national program on HAB prevention, control, and mitigation, 
and through cooperation with other fields of science where control of 
aquatic or terrestrial pests is more common.

Comments on the draft legislation

    It is my belief that the 1993 National Plan provided the guidance 
and perspective that led to the creation of several multi-agency 
partnerships for HAB studies, and to many individual agency initiatives 
on this topic. Together, ECOHAB and MERHAB have funded over $100 
million in marine and freshwater (Great Lakes) HAB research since the 
programs began in 1996 and 2000, respectively. Significant funding has 
also been provided by the COHH and OHHI programs. After more than 10 
years of strong program growth and diverse research activities, the 
1993 National Plan became outdated, however, and thus was replaced by 
HARRNESS (Harmful Algal Research and Response: A National Environmental 
Science Strategy 2005-2015; Ramsdell et al., 2005). Several hundred 
scientists and managers, from a wide array of fields, contributed to 
the knowledge base on which this new national science and management 
strategy is based. HARRNESS is the plan that will guide U.S. HAB 
research and monitoring well into the future, and is one that I 
enthusiastically support.
    At the conceptual level, HARRNESS is a framework of initiatives and 
programs that identify and address current and evolving needs 
associated with HABs and their impacts. At the programmatic level, 
several of the existing national programs will continue to function, 
and new programs will need to be added. In the former category, ECOHAB 
should continue to address the fundamental processes underlying the 
impacts and population dynamics of HABs. Research results have been 
brought into practical applications through MERHAB, a program 
formulated to transfer technologies and foster innovative monitoring 
programs and rapid response by public agencies and health departments. 
MERHAB should also continue under the new HARRNESS framework.
    Two relatively new programs (the Centers for Oceans and Human 
Health (COHH) initiative of NIEHS and NSF and NOAA's OHHI) should also 
continue under HARRNESS. They fill an important niche by creating 
linkages between members of the ocean sciences and biomedical 
communities to help both groups address the public health aspects of 
HABs. The COHH focus on HABs, infectious diseases, and marine natural 
products, whereas the NOAA OHHI Centers and extramural funding include 
these subjects in addition to chemical pollutants, coastal water 
quality and beach safety, seafood quality, sentinel species as 
indicators of both potential human health risks and human impact on 
marine systems. The partnership between NIEHS, NSF, and NOAA clearly 
needs to be sustained and expanded in order to provide support to a 
network of sufficient size to address the significant problems under 
the OHH umbrella. This is best accomplished through additional funds to 
these agencies, as well as through the involvement of other agencies 
with interests in oceans and human health, including, for example, EPA, 
NASA, FDA, and CDC.
    A number of the recommendations of HARRNESS are not adequately 
addressed by existing programs, however. As a result, the HAB community 
needs to work with Congressional staff and agency program managers to 
create new programs, as well as to modify existing ones, where 
appropriate. Specific recommendations are given below in this regard.

Freshwater HABs. With the exception of the Great Lakes, which fall 
under NOAA's jurisdiction, freshwater systems that are impacted by HABs 
have not been comprehensively addressed in ECOHAB, MERHAB, or the OHH 
HAB programs. This is because NOAA's mandate includes the Great Lakes 
and estuaries up to the freshwater interface, but does not include the 
many rivers, ponds, lakes, and reservoirs that are subject to 
freshwater HAB problems. Freshwater HABs are an important focus within 
HARRNESS, and therefore I strongly support the inclusion of EPA in the 
draft HABHRCA legislation before us. More direction should be provided, 
however, so that EPA and NOAA move this program forward in a productive 
and efficient manner. As the draft legislation reads now, the direction 
of the freshwater HAB program will be determined by the Regional 
Research Action Plans. There is certainly a need for prioritization and 
planning at the regional level, but national planning workshops and a 
national research agenda for freshwater HABs are also needed, as was 
done with the 1993 National Plan and HARRNESS for marine HABs. This is 
particularly true given that two federal agencies will be involved. 
Coordination and the division of responsibilities will be important 
issues to resolve.
    It is critical however that appropriations be increased to include 
this new area of investigation. If appropriations remain level, and a 
new freshwater program is established, resources will be drawn away 
from marine issues that are already thinly funded, and research 
progress will decrease dramatically and the productive scientific 
community working on HABs will grow smaller and less effective.
    The support provided to HAB research through ECOHAB, MERHAB, Sea 
Grant, and other national programs has had a tremendous impact on our 
understanding of HAB phenomena, and on the development of management 
tools and strategies. Since HAB problems facing the U.S. are diverse 
with respect to the causative species, the affected resources, the 
toxins involved, and the oceanographic systems and habitats in which 
the blooms occur, we need multiple teams of skilled researchers and 
managers distributed throughout the country. This argues against 
funding that ebbs and floods with the sporadic pattern of HAB outbreaks 
or that focuses resources in one region while others go begging. I 
cannot emphasize too strongly the need for an equitable distribution of 
resources that is consistent with the scale and extent of the national 
problem, and that is sustained through time. This is the only way to 
keep research teams intact, forming the core of expertise and knowledge 
that leads to scientific progress. To achieve this balance, we need a 
scientifically based allocation of resources, not one based on 
political jurisdictions. This is possible if we work within the 
guidelines of HARRNESS and with the inter-agency effort that has been 
guiding its implementation.

New Programs to be Established and Sustained. The 1998 Harmful Algal 
Bloom and Hypoxia Research Control Act (HABHRCA) and the Harmful Algal 
Bloom and Hypoxia Amendments Act of 2004 (2004 HABHRCA Reauthorization) 
authorized the establishment of three national programs on HABs: 1) 
``Ecology and Oceanography of Harmful Algal Blooms'' (ECOHAB) (HABHRCA 
Sec. 605 (2) ); 2) ``Monitoring and analysis activities for HABs'' 
(renamed Monitoring and Event Response for Harmful Algal Blooms or 
MERHAB) (HABHRCA Sec. 605 (4) ); and 3) ``A peer-reviewed research 
project on management measures that can be taken to prevent, reduce, 
control, and mitigate HABs.'' (HABHRCA Sec. 605 (3) ). Under HABHRCA 
the ECOHAB program was authorized as an interagency (NOAA, NSF, EPA, 
NASA, ONR), competitive research program, led by NOAA, and the MERHAB 
program was established as a NOAA competitive research program. A 
Federal Register Notice (FRN), published 5/04/2009 (http://
edocket.access.gpo.gov/2009/E9-10187.htm), announced that NOAA was 
establishing the Prevention, Control, and Mitigation of Harmful Algal 
Blooms (PCMHAB) Program.
    Guidelines for the PCMHAB are given in the National Scientific 
Research, Development, Demonstration, and Technology Transfer Plan on 
Reducing Impacts from Harmful Algal Blooms (RDDTT Plan; Dortch et al., 
2008). The proposed RDDTT program has two other essential components. 
These are: 1) a comprehensive national HAB Event Response program: and 
2) a Core Infrastructure program. Together with the PCM component, 
these are interdependent and critical for improving future HAB research 
and management, and I therefore urge the Committee to include these as 
specific, named programs in the draft legislation. Justification for 
this emphasis is as follows.

Prevention, Control, and Mitigation of HABs. Congress mandated a 
program for HAB Prevention, Control and Management in the legislation 
reauthorizing the Harmful Algal Bloom and Hypoxia Research and Control 
Act of 1998 and again in the 2004 reauthorization. Further rationale 
for this program is that much of the focus of past HAB research has 
been on fundamental aspects of organism physiology, ecology, and 
toxicology, so less effort has been directed towards practical issues 
such as resource management strategies, or even direct bloom 
suppression or control (Anderson, 1997). As discussed above, progress 
in the area of bloom suppression or control has been very slow. I have 
attached a commentary that I wrote for the journal Nature more than 10 
years ago (Annex 1) that discussed why progress in bloom control was 
advancing so slowly. Unfortunately, many of the points in that 
discussion are still valid today. Among the impediments to progress is 
that scientists have chosen to focus more on less controversial, and 
therefore more easily funded lines of work. Societal concern about 
bloom control strategies that might involve the use of chemicals or 
engineered or non-indigenous organisms is significant, and therefore it 
has been difficult to move research from the laboratory to the field. 
In the case of my own laboratory's work on the use of clay dispersal to 
control blooms, we have seen that a few vocal opponents can raise 
environmental concerns that delay or stop field applications, even 
though this method is environmentally benign in comparison to the 
damage from the HAB itself, and that this same bloom control strategy 
is used routinely elsewhere in the world to protect fish farms (e.g., 
Korea).
    Yet another impediment is that there is no specific funding 
specified for PCM research. As a result, PCM proposals compete with 
ECOHAB and MERHAB submissions for funds. Given the controversial nature 
of many PCM strategies, it is not surprising that peer reviews of the 
proposals are variable and sometimes negative, and that more 
conservative projects on bloom dynamics, toxin chemistry, or other 
topics are selected. I therefore strongly recommend that specific 
wording be inserted in the draft HABHRCA legislation to establish and 
sustain a national program on Prevention, Control and Mitigation of 
HABs, and that specific funds be authorized for that program.
    In this context, Congressional oversight may be needed to establish 
an agency mandate for control of marine and freshwater nuisance 
species. Unlike the Agricultural Research Service of the USDA, which 
has a mandate for control of terrestrial plant pests, there is no 
federal agency with this responsibility for marine waters. This is an 
area where the growing concern about invasive species could be of great 
help to the HAB field, as technologies, regulations, policies, and 
environmental concerns are common to both fields. I can see a great 
deal of value in the convening of a workshop to in which HAB 
investigators would meet with those working on control strategies for 
invasive species, insects, aquatic vegetation, other pest infestations, 
as well as with those working on bioremediation strategies used for oil 
spill and pollution events.

Event Response. A major HAB outbreak in the Gulf of Maine in 2009 
highlighted the need for an Event Response program as part of the 
national HAB program. During this event, virtually the entire coastline 
of the State of Maine was closed to shellfish harvesting due to 
dangerous levels of toxicity. The same was true for New Hampshire, and 
for portions of Massachusetts. Government officials, resource managers, 
and the general public were anxious for information on the offshore 
extent of the bloom, and it's potential duration, yet there were no 
research programs ongoing to provide such information. Senator Snowe 
made a direct request to NOAA to provide this type of information, 
resulting in a scramble to find funding for ships and research 
personnel on short notice. Had there been a national HAB Event Response 
Program, as described in the RDDTT report (Dortch et al., 2008), the 
response would have been significantly more comprehensive, rapid, and 
efficient.
    This is but one example of the need for rapid response to HABs that 
occur throughout the US. In some cases, local resources are sufficient, 
but in unexpected events, or those that are more significant and 
dangerous than normal, additional resources are needed that can be 
rapidly mobilized and used to protect the public health and fisheries 
resources. It is therefore my recommendation that specific wording for 
a national HAB Event Response program be included in the HABHRCA 
legislation, and that specific funds be authorized for that program.

Infrastructure. Researching and implementing new PCM strategies and 
improving event response will not be possible without certain types of 
infrastructure, including chemical analytical facilities, reference and 
research materials, toxin standards, HAB culture collections, tissue 
banks, technical training centers, and databases. At the present time, 
many of these facilities or resources are maintained by individual 
investigators or laboratories, with no centralized coordination or 
support. Personally, I maintain a culture collection of HAB species 
that exceeds 400 strains, yet I do not receive direct funding for its 
expenses. For other infrastructure needs, the necessary resources to 
not exist, and therefore funds are needed to provide these to the HAB 
community. For example, analytical standards for some HAB toxins are 
not available, severely restricting research and management progress. 
Likewise, molecular probes that allow the accurate and rapid 
identification of HAB species are also not universally available.
    The RDDTT report (Dortch et al., 2008) identifies and prioritizes 
infrastructure needs for the national HAB program. What is needed is 
the Congressional recognition of the need for such a program, and 
therefore I recommend that specific wording for a national HAB 
infrastructure program be included in the HABHRCA legislation, and that 
funds be authorized for this specific program.
    Although PCMHAB will be the program that the public will most 
readily perceive as 'progress' in the management of HABs, the program 
is part of an integrated approach to HAB risk management that must 
include Event Response and Infrastructure programs. Furthermore, since 
many agencies are involved in HAB research and response, it will be 
necessary to specify that these new programs should be interagency 
partnerships, and funding should be provided to agencies with major 
roles. In addition to NOAA, NSF, and EPA, other agencies, such as FDA, 
CDC, NSF, and NIEHS also contribute substantially and should be named 
as partners in the national HAB program.

Regional Research Action Plans. As emphasized above, HAB phenomena are 
diverse throughout the US, and therefore impacts and research needs 
will vary across regions. I therefore support the congressional 
directive to create regional research action plans through a series of 
meetings involving managers, scientists, government officials, 
industry, and other stakeholders. My only concern here is the timescale 
for these meetings. Having participated in a very successful meeting of 
this type in Florida, I know that a significant cost is involved, and 
that considerable time is needed to plan, convene, and then report on 
the results of such a meeting. Given the inclusion of ``freshwater'' 
regions involving inland states, of which there may be many, I can 
envision NOAA HAB program officials struggling to organize and run a 
large number of meetings in a short period of time, and having to 
commit significant funds that would otherwise be directed to research. 
I would thus recommend a more gradual approach to the regionalization.

SUMMARY AND RECOMMENDATIONS

    The diverse nature of HAB phenomena and the hydrodynamic and 
geographic variability associated with different outbreaks throughout 
the U.S. pose a significant constraint to the development of a 
coordinated national HAB program. Nevertheless, the combination of 
planning, coordination, and a highly compelling topic with great 
societal importance has initiated close cooperation between officials, 
government scientists and academics in a sustained attack on the HAB 
problem. The rate and extent of progress will depend upon how well 
federal agencies work together, and on how effectively the skills and 
expertise of government and academic scientists can be targeted on 
priority topics that have not been well represented in the national HAB 
program. The opportunity for cooperation is clear, since as stated in 
the ECOHAB science plan (Anderson, 1995), ``Nowhere else do the 
missions and goals of so many government agencies intersect and 
interact as in the coastal zone where HAB phenomena are prominent.'' 
The HAB community in the U.S. has matured scientifically and 
politically, and is fully capable of undertaking the new challenges 
inherent in an expanded national program, exemplified in HARRNESS. This 
will be successful only if a coordinated interagency effort can be 
implemented to focus research personnel, facilities, and financial 
resources to the common goals of a comprehensive national strategy.
    In summary:

        <bullet>  Marine HABs are a serious and growing problem in the 
        U.S., affecting every coastal state; freshwater HABS are an 
        equally significant problem in inland states. HABs impact 
        public health, fisheries, aquaculture, tourism, and coastal 
        aesthetics. HAB problems will not go away and will likely 
        increase in severity.

        <bullet>  HABs are just one of many problems in the coastal 
        zone that are affected by nutrient inputs and over-enrichment 
        from land. They represent a highly visible indicator of the 
        health of our coastal ocean. More subtle impacts to fisheries 
        and ecosystems are likely occurring that are far more difficult 
        to discern.

        <bullet>  A coordinated national HAB Program was created over 
        15 years ago and partially implemented. That National Plan has 
        been updated with a new plan called HARRNESS that can guide the 
        next decade or more of activities in HAB research and 
        management.

Recommendations:

        <bullet>  Sustain and enhance support for the national HAB 
        program HARRNESS.

        <bullet>  Sustain and enhance support for the ECOHAB, MERHAB 
        and OHH programs, and authorize new programs. In the latter 
        context, a separate program on the practical aspects of HAB 
        prevention, control and mitigation (PCMHAB) needs to be 
        authorized, as it was in past HABHRCA legislation, and two new 
        programs (HAB Event Response and HAB Infrastructure) should be 
        authorized as well, each with a specific amount of funds to 
        insure that resources are indeed directed to these programs by 
        NOAA and EPA.

        <bullet>  Recognize that NOAA will require funds for operations 
        in support of HAB management, such as HAB forecasting; 
        authorize these activities with specific language, and specific 
        funding allocations.

        <bullet>  Encourage interagency partnerships, as the HAB 
        problem transcends the resources or mandate of any single 
        agency.

        <bullet>  Freshwater HABs are an important focus within 
        HARRNESS, and therefore EPA should be included in the draft 
        HABHRCA legislation. More direction should be provided, 
        however, so that EPA and NOAA move this program forward in a 
        productive and efficient manner. For example, national planning 
        workshops and a national research agenda for freshwater HABs 
        are needed, given that two federal agencies will be working on 
        the topic. The direction of the freshwater program should not 
        be determined solely by Regional Research Action Plans.

        <bullet>  Encourage methods and instrument development for 
        land-and mooring-based HAB cell and toxin detection, and for 
        bloom forecasting through instrument development support for 
        the Integrated Ocean Observing System.

        <bullet>  Recommend appropriations that are commensurate with 
        the scale of the HAB problem in both marine and fresh waters. 
        The national HAB program is well established and productive, 
        but it needs additional resources if new topics, 
        responsibilities and tasks are added through new legislation. 
        Research should be peer-reviewed and competitive, and should 
        take full advantage of the extensive capabilities of the 
        extramural research community.

    Mr. Chairman, that concludes my testimony. Thank you for the 
opportunity to offer information that is based on my own research and 
policy activities, as well as on the collective wisdom and creativity 
of numerous colleagues in the HAB field. I would be pleased to answer 
any questions that you or other Members may have.

Literature citations:

Anderson, D.M. 1997. Turning back the harmful red tide. Nature 388:513-
        514.

Anderson, D.M. (Ed.). 1995. ECOHAB: The ecology and oceanography of 
        harmful algal blooms--A research agenda. Woods Hole 
        Oceanographic Institution. 66 pp.

Anderson, D.M., J.M. Burkholder, W.P. Cochlan, P.M. Glibert, C.J. 
        Gobler, C.A. Heil, R. Kudela, M.L. Parsons, J.E. Rensel, D.W. 
        Townsend, V.L. Trainer, and G.A. Vargo. 2008. Harmful algal 
        blooms and eutrophication: Examining linkages from selected 
        coastal regions of the United States. Harmful Algae 8:39-53.

Anderson, D.M., S.B. Galloway, and J.D. Joseph. 1993. Marine Biotoxins 
        and Harmful Algae: A National Plan. Woods Hole Oceanographic 
        Institution Tech. Report, WHOI 93-02. Woods Hole, MA. 59 pp.

Anderson, D.M., P.M. Glibert, and J.M. Burkholder. 2002. Harmful algal 
        blooms and eutrophication: Nutrient sources, composition, and 
        consequences. Estuaries 25(4b):704-726.

Dortch, Q., Anderson, D., Ayres, D., and Glibert, P., editors, 2008. 
        Harmful Algal Bloom Research, Development, Demonstration and 
        Technology Transfer: A National Workshop Report. Woods Hole 
        Oceanographic Institute, Woods Hole, MA. http://www.whoi.edu/
        fileserver.do?id=43464&pt=10&p=19132

Hoagland, P. and S. Scatasta. 2006. The economic effects of harmful 
        algal blooms. In E. Graneli and J. Turner, eds., Ecology of 
        Harmful Algae. Ecology Studies Series. Dordrecht, 
        TheNetherlands: Springer-Verlag.

McGillicuddy, D.J., Jr., D.M. Anderson, D.R. Lynch, and D.W. Townsend. 
        2005. Mechanisms regulating large-scale seasonal fluctuations 
        in Alexandrium fundyense populations in the Gulf of Maine: 
        Results from a physical-biological model. Deep-Sea Res. II 
        52(19-21):2698-2714.

Ramsdell, J.S., D.M. Anderson, and P.M. Glibert (Eds). 2005. HARRNESS. 
        Harmful Algal Research and Response: A National Environmental 
        Science Strategy 2005-2015. Ecological Society of America, 
        Washington, DC, 96 pp.

Annex 1. Turning back the harmful red tide. (Nature 388:513-514. 1997)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Donald M. Anderson

    Don Anderson is a Senior Scientist in the Biology Department of the 
Woods Hole Oceanographic Institution (WHOI), where he also serves as 
Director of the Cooperative Institute for the North Atlantic Region. He 
served as Director of WHOI's Coastal Ocean Institute, from 2004 to 
2008. He earned a doctorate from MIT in 1977 and joined the WHOI 
scientific staff in 1978. In 1993, he was awarded the Stanley W. Watson 
Chair for Excellence in Oceanography, in 1999 was named a NOAA 
Environmental Hero, and in 2006 received the Yasumoto Lifetime 
Achievement Award from the International Society for the Study of 
Harmful Algae.
    Anderson's research focus is on toxic or harmful algal blooms 
(HABs). His research ranges from molecular and cellular studies of 
toxin genetics and regulation to the large-scale oceanography and 
ecology of the ``blooms'' of these micro-organisms.
    Along with an active field and laboratory research program, 
Anderson is heavily involved in national and international program 
development for research, monitoring, and training on marine biotoxins 
and harmful algal blooms.
    Anderson is author or co-author of over 240 scientific papers and 
13 books.

    Chairman Baird. Dr. Boyer.

 STATEMENT OF DR. GREGORY L. BOYER, PROFESSOR OF BIOCHEMISTRY, 
STATE UNIVERSITY OF NEW YORK, COLLEGE OF ENVIRONMENTAL SCIENCE 
    AND FORESTRY; DIRECTOR, NEW YORK'S GREAT LAKES RESEARCH 
                           CONSORTIUM

    Dr. Boyer. Chairman Baird, Ranking Member Inglis, thank you 
for inviting me to testify at this hearing. My name is Greg 
Boyer I am a Professor of Biochemistry at the State University 
of New York College of Environmental Science and Forestry and 
Director of New York's Great Lakes Research Consortium. I have 
worked on harmful algal blooms for more than 35 years including 
marine and freshwater toxins, but today I would like to 
specifically address freshwater harmful algal blooms in this 
draft legislation.
    The written testimonies provided will expand on many of the 
facts and details, so let me briefly review just a few key 
points. Marine and freshwater blooms are caused by the very 
rapid growth of microscopic plant-like organisms, but unlike 
marine systems, most freshwater blooms are caused by blue-green 
algae, which is actually a photosynthetic bacteria. This makes 
them similar but not identical to their marine counterparts, so 
therefore some of the treatment options will be the same, but 
many of the approaches for prevention, control and mitigation 
of these freshwater blooms will be different than those for 
marine systems.
    Some marine blooms produce very toxic compounds. Saxitoxin, 
a neurotoxin found in both marine and freshwater systems, is 
one of the most toxic nonprotein toxins known and is a 
regulated biowarfare agent. Microcystins, a common liver toxin 
found in blooms in every state of the union, goes by the 
trivial name of ``fast death factor.'' An outbreak in the 
Potomac River caused 5,000 to 8,000 cases of human 
gastrointestinal illness. Anatoxin-A, another neurotoxin 
produced by blue-green algae, goes by the trivial name is very 
fast death factor. A recent bloom in Lake Champlain resulted in 
the deaths of several family pets. These dogs barely made it 
off the beach before collapsing and dying in front of the 
family's children. Simply put, these are not nice compounds.
    Toxic blooms are becoming much more common and being 
reported in new locations each year. A recent study from my own 
laboratory found 50 percent of the samples collected from 
western Lake Erie over the last five years had measurable 
levels of toxin. That number is probably typical for any 
impacted water body in the United States.
    Our existing HAB research programs have been very 
successful for coastal waters. This is especially true for 
marine systems where their interagency program, ECOHAB, has 
made tremendous strides in understanding the ecology of harmful 
algal blooms in the western Gulf of Maine and in the Gulf of 
Mexico. Similarly, NOAA's MERHAB program has developed exciting 
new technologies for monitoring blooms both in the Gulf of 
Mexico and the Great Lakes region. I am also strongly 
supportive of NOAA's new program in prevention, control and 
mitigation. These programs need to be continued and all three 
programs adequately funded so they can continue to provide for 
essential research in their respective areas.
    However, freshwater algal blooms offer an additional 
challenge. Most of the pictures you have been watching did not 
occur in the Great Lakes and are thus not under NOAA's 
jurisdiction. The Clean Water Act and the Safe Drinking Water 
Act clearly give the U.S. EPA oversight of our nation's 
freshwater resources; thus, U.S. EPA needs to be more actively 
involved in both development and implementation of a freshwater 
harmful algal bloom research and control program. The bill 
under discussion needs to provide clear direction to U.S. EPA 
as to their role. It needs to provide sufficient authority and 
it needs to allocate funds necessary to carry out that work. It 
should clearly delineate U.S. EPA's responsibility for 
freshwater HABs and direct NOAA and the U.S. EPA to 
cooperatively administer the program where they have 
overlapping jurisdictions so that duplication can be avoided. I 
also want to emphasize that providing funds for extramural 
research is absolutely essential to the success of the HAB 
programs and the best way to harness the vast talents of the 
scientific community at large.
    Freshwater HABs adversely impact all segments of U.S. 
society: north, south, east, west and in the middle, and the 
impacts on health, ecology and economics on affected 
communities is large. These programs require a federally 
directed program with interagency cooperation and the 
recognition that different research will be needed for 
different areas. We cannot borrow from one program to pay for 
another. Therefore, I would like to thank the Committee for 
having the foresight to understand the gaps in our efforts and 
work towards trying to improve the Nation's water quality, both 
in marine and freshwater systems. With that, I will end my 
comments. Thank you.
    [The prepared statement of Dr. Boyer follows:]

                 Prepared Statement of Gregory L. Boyer

Introduction

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Gregory Boyer, and I am a Professor of Biochemistry at the State 
University of New York's College of Environmental Science and Forestry 
(SUNY-ESF). I am also the Director of New York's Great Lakes Research 
Consortium (NY-GLRC), a Consortium of over 300 scientists located at 18 
New York academic institutions and seven Canadian affiliate 
institutions with interests in all aspects of Great Lakes Science and 
Policy. However more importantly, I am a career scientist who has 
worked on the chemistry and ecology of harmful algal blooms (HABs) for 
more than 35 years, starting from my Ph.D. work on the chemistry of 
paralytic shellfish poisons, the neurotoxins produced by selected 
marine red tides, and continuing in my current work on the toxins 
produced by freshwater HABs. In 2002, I became the lead scientist for 
MERHAB-Lower Great Lakes, a NOAA-sponsored regional program to develop 
monitoring and event response protocols for harmful algal blooms in the 
lower Great Lakes. Working with MERHAB-LGL, NOAA's Oceans and Human 
Health Initiative (OHHI), and with the US-EPA Great Lakes National 
Program Office (GLNPO), I have spent many thousands of hours on our 
Great Lakes and inland waterways examining and responding to freshwater 
harmful algal blooms. I also operate a rapid response laboratory at 
SUNY-ESF for toxic HAB samples submitted from hospitals, health 
departments, State environmental conservation agencies, lake monitoring 
organizations and concerned citizens from across North America. These 
efforts give me a unique ground-up perspective from the needs of our 
national program to address both marine and freshwater HABs.
    Today, my colleagues, Donald Anderson and Dan Ayres, will speak to 
you about marine harmful algal blooms so I would like to confine my 
comments to the issue with Freshwater HABs. This topic was first 
brought to your attention in a hearing last summer by Dr. Ken Hudnell. 
Here, I would like to summarize the types and impacts of freshwater 
harmful algal blooms in the United States, as well a comment 
specifically on the proposed legislation that is being developed by 
Chairman Bart Gordon that directs the EPA to participate in freshwater 
HAB research and authorizes funds for freshwater research applications.

BACKGROUND

    Blooms of freshwater algae occur across the United States and 
around the world. Under the proper conditions of light, temperature, 
and nutrients, these small aquatic plant-like organisms can grow to 
extremely dense concentrations, blocking out light from reaching the 
water below the surface, clogging the water intakes of our nation's 
power and industrial plants, and leading to taste and odor issues with 
our drinking water. Unsightly and smelly surface accumulations 
interfere with the use of local beaches and recreational parks, leading 
to a decrease in the recreational and tourism dollars flowing to small 
businesses and local municipalities. Upon their death, the decay of 
these blooms can consume the available oxygen in the water column, 
leading to fish kills and local hypoxia [low oxygen concentrations].
    Freshwater HABs are not simply a nuisance issue. In addition to 
those generalized effects described above, there are a number of 
freshwater algal species that produce extremely potent toxins. When 
these occur in natural systems, bad things can happen, including 
illness and mortalities to domestic animals, widespread loss of fish 
and wildlife, and potential harm to humans using the waters for 
drinking or recreational purposes.

Toxins and Their Health Effects

    There are currently more than 300 different toxins reported to be 
produced by freshwater algae. These toxins vary widely in their 
chemistry, their effect on ecosystems, and in their potential effect on 
animals and humans who are exposed to them. Most toxins are produced by 
a group of 20 or more species of blue-green algae (a.k.a. 
cyanobacteria); however there are also species that are not blue-green 
algae that produce of toxins that have dramatic impacts on aquaculture 
and fish communities. Some of the major toxins and species include:

Peptide Liver Toxins. The peptide liver or hepatotoxins called 
microcystins are probably the most common toxins produced by blue-green 
algae. Microcystins are named for the genus of cyanobacteria 
(Microcystis) from which they were first identified. Subsequent work 
has shown that they can be produced by a number of different genera and 
species. The peptide toxins also include a second, closely-related 
group of compounds (nodularins) that are usually associated with more 
saline environments such as marine systems, the Great Salt Lake in 
Utah, or the Salton Sea in California. Microcystis is an extremely 
common genus of cyanobacteria and it is likely this toxin will be found 
in every state of the United States. It has been associated with recent 
animal fatalities in the Midwest, Northeast, and Oregon, and is of 
major concern to drinking water suppliers that must use impacted waters 
(example: western basin of Lake Erie) as their source water. One of the 
first describe toxic events in the United States (1931) refers to an 
outbreak of Microcystis in the Ohio and Potomac Rivers that caused 
intestinal illness in an estimated 5,000-8,000 people. Nebraska (2004) 
recently experienced a similar event on a smaller scale with a number 
of dog, livestock, and wildlife fatalities, and more than 50 accounts 
of human skin rashes, lesions and flu-like gastrointestinal illness.
    Microcystins have been linked with animal deaths and human 
illnesses all over the world. The acute human toxicity of these toxins 
was graphically observed in Brazil in 1996, when naturally occurring 
concentrations of toxin in the water supply for a hemodialysis center 
led to the death of over 50 patients. There are also concerns over 
long-term sub-acute exposure. Microcystin-LR, the most studied member 
of the class, was recently reclassified by the International Agency for 
Research on Cancer into risk group 2B (possibly carcinogenic to humans) 
based on a review of existing scientific evidence. This raises further 
questions about the risk from chronic exposure to this group of toxins 
through drinking water supplies. To date, the United States does not 
have regulatory standards or guidelines for the concentrations of 
cyanobacteria toxins allowed in drinking water. However standards exist 
at both the international level (World Health Organization), national 
level (e.g., Australia Brazil, Canada, France, Japan, New Zealand, 
Norway, Poland, Spain), and exist or are under development at the State 
Level (CA, FL, IA, NE and OR). The US-EPA, as a first step for issuing 
such as standard, placed microcystins on its Critical Contaminant List 
or CCL as described under the Safe Drinking Water Act (SDWA) as amended 
in 1996. The drinking water CCL is a list of priority contaminants, 
known or anticipated to occur in public water systems, where further 
research may be necessary before US-EPA can decide if a regulatory 
ruling is needed under the SDWA. Microcystins have been on the US-EPA's 
CCL-1 (1998), CCL-2 (2005), and now CCL-3 (2008). They remain on the 
CCL, in part, because of missing information in terms of their health 
effects, routes of exposure and analytical methodology. The US-EPA, as 
part of their toxicological assessment associated with the CCL, has 
determined that microcystins, anatoxin-a and cylindrospermopsin 
(discussed below) are the cyanobacterial toxins of most concern 
(highest priority), followed by paralytic shellfish poisoning (PSP) 
toxins and anatoxin-a(S).

Freshwater Cytotoxins. The second group of cyanobacterial toxins is the 
cylindrospermopsin derivatives. This group is also produced by a number 
of different genera of cyanobacteria, including members of the genus 
Cylindrospermopsis for which they are named. The major toxin, 
cylindrospermopsin, results in generalized cell death (cytotoxin) but 
have also been linked to DNA damage as well as possible tumor 
initiation. However, in accordance with US-EPA ``Guidelines for 
Carcinogen Risk Assessment'' (2005), this toxin should be listed as 
``inadequate information to assess carcinogenic potential'' until 
further studies have been completed.
    Cylindrospermopsin-producing species are generally associated with 
tropical or arid environments, and toxic Cylindrospermopsis blooms are 
common in the warmer drinking water reservoirs of Florida. Recently, 
the major potentially-toxic species (C. raciborskii) has been 
identified in temperate Europe and in several of the Great Lake States 
(MI, OH, WI), suggesting that its observed range has expanded from 
southern states (FL, NC) to more northern temperate climates. The 
factors responsible for this potential spread and the production of 
toxins in these more northern climates are an area of active 
investigation.

Freshwater Neurotoxins. A third class of toxins are the neurotoxic 
cyanobacterial toxins; anatoxin, anatoxin-a(S), and the PSP toxins 
discussed below. The most important member of the class, anatoxin-a, 
was originally reported from an Anabaena species (hence the name), but 
like the microcystins, this toxin can be produced by a number of 
different species and genera. Blooms containing anatoxin-a in many 
states across the United States. They have recently been associated 
with domestic animal (dog) and livestock (cattle) fatalities in NY, VT, 
OR, and in the mid-western states. A toxic bloom containing anatoxin-a 
occurred as recently as this last month in Elk Creek (Douglas County, 
OR). This bloom resulted in the deaths of several household pets and 
widespread media coverage of the event.
    A second neurotoxin, anatoxin-a(S), is very distinct in both its 
chemistry and mode of action from anatoxin-a. Originally differentiated 
from anatoxin-a because the affected dogs showed extremely salivation 
(hence the S), this toxin is commonly reported in the prairie states. 
However anatoxin-a(S) symptoms are identical to organophosphate 
pesticide intoxication and hence its occurrence is likely under-
reported in this and in other regions of the country.

Paralytic Shellfish Poisoning (PSP) Toxins. These freshwater toxins are 
produced by selected strains of blue-green algae and are very similar 
or identical to the PSP neurotoxins produced by marine red-tide 
dinoflagellate species. Blue-green algae produce a larger variety of 
PSP toxins than their marine counterparts, with almost twice as many 
different variations in chemical structures. Several toxins, including 
saxitoxin, are produced by both freshwater and marine algae. Saxitoxin 
is considered one of the most potent ``non-protein'' toxins known with 
a toxicity about 1,000 times greater than cyanide. Saxitoxin is a 
regulated biological warfare agent listed in the Public Health Security 
and Bioterrorism Preparedness and Response Act of 2002 through the 
``Select Agents'' program. Production of PSP toxins have been 
associated with domestic and wild-life fatalities in the United States, 
but a major bloom (to my knowledge) has never occurred in a drinking 
water supply reservoir. Such blooms have occurred in Australia, leading 
to the deaths of tens of thousands of livestock and forcing entire 
communities to shift to bottled or tanker water supplies.

Golden Algae Fish Toxins. Most toxic freshwater blooms are caused by 
cyanobacteria; however there are a number of non-cyanobacterial toxic 
species that are important in saline or aquaculture facilities. Perhaps 
the most problematic are the blooms of the fish-killing species 
Prymnesium parvum, which is also referred to as a ``golden algae''. 
These blooms were first suspected of causing massive fish kills in 
Texas in the mid 1980's. Since that time, the blooms of golden algae 
have expanded and been reported in nine southern states (TX, NM, CO, 
NC, SC, GA, AR, AL and OK) and are suspect in two others (NE, FL). 
These blooms have been estimated to kill more than 17 million fish 
worth over $6.5 million dollars in Texas alone and now threaten the 
survival of several endangered or threatened fish species. They 
continue to result in the loss of millions of dollars to local 
economies due to a decrease in fish-related tourism each year.
    In addition to these major categories described above, there have 
been a large number of different toxic events where either the bloom 
was not directly associated with the die-off of an easily observable 
species, or where a definitive cause and effect relationship has not be 
established. Harmful algal blooms can cause dramatic changes in 
ecosystems through the effect on the lower food web. They may also be 
responsible for many of the common ailments (e.g., swimmers itch) 
experienced by recreational users that come in contact with these 
blooms.

Occurrence and Causes of Freshwater HABs in the United States

    As evidenced from the discussion above, freshwater toxic algal 
blooms are not confined to any geopolitical boundaries. Blooms of toxic 
blue-green algae are widespread and have occurred in all 50 states of 
the United States (Figure 1). While not all blooms of cyanobacteria are 
toxic, many of the toxic species are cosmopolitan or widely distributed 
between ecosystems. Blooms are not confined to large lakes such as the 
Great Lakes, but occur in all sorts of water bodies ranging from 
smaller prairie potholes, rivers, reservoirs, impoundments to large 
lake ecosystems.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A recent study by a NOAA-sponsored regional program to look at the 
occurrence of toxic algal blooms in the lower Great Lakes (MERHAB-LGL) 
has found that 50 percent of the samples collected from western Lake 
Erie over the last decade contained detectable levels of blue-green 
algal toxins. A significant fraction of these samples also exceeded the 
World Health Organization's guidelines for safe drinking water. As the 
Great Lakes in total contain more than 84 percent of North America's 
fresh surface waters, 22 percent of the world's fresh surface waters, 
and currently provide drinking water for more than 40 million people, 
broad scale efforts to protect these essential resources from HABs are 
essential.
    These studies in the Great Lakes are not an exception. Similar to 
the Great Lakes, there has been a rapid proliferation of toxic 
cyanobacteria blooms in other freshwater ecosystems, including those in 
the Northeast (VT, NY), Midwest (NE, IA), southern (FL), and western 
states (NM, CO, OR). Broad scale studies in Europe and the mid-western 
United States have shown a similar high percentage (50 percent) of 
their blooms contain toxic species and/or toxins. Each year, new toxic 
blooms are reported in areas where they have not been previously 
reported. The increased number of scientific papers on freshwater 
harmful algal blooms over the last several decade, the increased 
numbers of reports in the popular press, and the increase in health 
advisories due to cyanobacterial toxins all suggest that, if anything, 
the occurrence of toxic freshwater blooms has increased over the past 
30-40 years.

Causes and Costs of Freshwater Harmful Algal Blooms.

    Blooms of freshwater algae, especially cyanobacteria, are triggered 
by a number of factors. These include, but is not limited to:

        <bullet>  Increases in nutrient loading from point and non-
        point sources. Like all plant species, freshwater algae must 
        obtain the basic building blocks of nitrogen and phosphorus 
        needed for growth. These are often obtained through runoff due 
        to agricultural or land-use practices in the surrounding 
        watershed. For example, the US-EPA has recently started 
        extensive efforts to look at nutrient inputs from the 
        watersheds surrounding the Maumee River region [near Toledo, 
        OH] in western Lake Erie as a causative factor for the large 
        blooms of toxic blue-green algae that occur in the western 
        basin.

        <bullet>  Extended periods of high solar radiation that promote 
        photosynthesis. This means bright, sunny days such as those 
        that often come at the end of the summer season.

        <bullet>  Warm temperatures that can accelerate the growth of 
        the organisms and lead to thermal stratification or separation 
        of the water column into distinct layers.

        <bullet>  Calm wind conditions that also lead to a stable water 
        column with little mixing. This can allow buoyant species to 
        rise to the surface and shade competing species. Changes in 
        hydrology, such as the formation of an impoundment in a 
        normally flowing river may also increase the intensity and 
        occurrence of bloom events.

        <bullet>  Changes in the ecosystem through the introduction of 
        invasive species such as dreissenid mussels that selectively 
        feed on non-cyanobacterial species. This can provide a 
        selective pressure for the formation of selected species.

    These general conditions lead to increased blooms of all algae, not 
specifically harmful or toxic algal species. We have a very poor 
understanding of those environmental factors that specifically lead to 
the formation of a toxic bloom over a non-toxic bloom. This lack of 
basic scientific research has hampered our efforts to design specific 
remediation techniques for freshwater HABs, to forecast the occurrence 
of toxic blooms, and to predict the effects of large- scale ecosystem 
changes such as global climate change on freshwater harmful algal 
blooms.
    For the same reason, it is difficult to provide an economic 
assessment for the costs associated with a toxic freshwater algal bloom 
in comparison to the costs associated with a non-toxic bloom. Dodds and 
co-workers from Kansas have calculated that the annual value of losses 
in recreational water usage, waterfront real estate, alteration of 
ecosystem structure, loss of endangered species, fish kills, and 
impacts on drinking water exceed $2.2 billion dollars annually as a 
result of eutrophication in U.S. freshwaters due to increased nutrients 
and the resulting algal growth. Not all of these expenses are due to 
harmful algae, but anecdotal information provided by large water 
providers in states such as Florida suggest that their treatment costs 
needed to ensure water safety may increase more than a $100,000 per 
week in response to a toxic cyanobacteria bloom. Added to this would be 
the millions of dollars in lost recreational activities, monitoring and 
response expenses, health care costs, and damage to the aquaculture/
fishing industry. In addition, there are also costs where it is 
difficult to assign a monetary value, e.g., what is the value for the 
loss of an endangered or threatened species or permanent changes to an 
ecosystem? Our nation's freshwaters have faced increasing stress due to 
rising population pressure, land use changes, and the increased demand 
for freshwater resources. Once a harmful algal bloom becomes 
established in a given ecosystem, it is very difficult and costly to 
reverse the situation. Research funds spent understanding the basic 
science surrounding a toxic bloom, followed by translation of that 
knowledge into specific prevention, control, and mitigation 
technologies are funds well spent in the long run.

NEED FOR A NATIONAL PROGRAM FOR FRESHWATER HABs.

    Congress passed the Harmful Algal Bloom and Hypoxia Research and 
Control Act in 1998 to authorize funds for research on marine HABs and 
hypoxia. This Act was expanded in the 2004 Reauthorization Act to 
include all freshwater bodies. This latter act also calls for a series 
of reports to clearly assess the status and outline our research needs. 
Members of the scientific community and the Interagency Working Group 
on Harmful Algal Blooms, Hypoxia and Human Health (IWG-4H) have 
prepared a number of reports, including the ``Scientific Assessment of 
Freshwater Harmful Algal Blooms,'' ``Cyanobacterial Harmful Algal 
Blooms, State of the Science and Research Needs,'' and the ``Harmful 
Algal Blooms Research Development Demonstration and Technology 
Transfer'' (HAB RDDTT) report. These reports clearly document an 
increased awareness on a national scale of impacts such as toxin-
contaminated drinking water or seafood, mortality of fish and wildlife, 
damages to aquaculture enterprises, economic losses in coastal and 
lake-side communities from HABs and the impacts on Public Health. They 
also clearly identify the research needs and limitations to progress, 
as well as provide a path forward to protect against long-term 
ecosystem change.
    The marine HAB community has benefited tremendously from the 
initial 1993 national plan for harmful algal blooms and the subsequent 
formation of the competitive, peer-reviewed, merit-based interagency 
research program in Ecology and Oceanography of Harmful Algal Blooms 
(ECOHAB) and NOAA's Monitoring and Event Response of Harmful Algal 
Blooms (MERHAB), as called for in the Harmful Algal Bloom and Hypoxia 
Amendment Act of 2004. These programs have led to dramatic increase in 
our understanding of marine bloom events, increases in detection 
technology, improvements in event response, a better understanding of 
the societal aspects of harmful algal blooms, and an overall 
improvement in coordination between agencies.
    Freshwater HABs and their root causes do not respect geopolitical 
and agency boundaries. Thus a regional and multi-agency approach is 
again required. We need a similar emphasis on freshwater ecosystems, 
including, but not limited to, the Great Lakes ecosystems. As called 
for in the Scientific Assessment of Freshwater Harmful Algal Blooms, 
prepared by the IWG-4H, a successful freshwater HAB program must foster 
collaboration between agencies, minimize unnecessary duplication, and 
provide the essential resources for those agencies to carry out their 
mission. Furthermore, Congress must all authorize sufficient funding 
levels for each of these programs (Freshwater HABs, ECOHAB, MERHAB and 
Prevention Control and Mitigation) if they are collectively to have a 
chance for success, not simply shift funds from one to another.
    Of key importance is the question of which agency should direct 
this important endeavor for freshwater systems. The Department of 
Commerce through NOAA has a mandated requirement to protect our marine 
environments, the Great Lakes and estuaries. However, the Clean Water 
Act of 1968 and the Safe Drinking Water Act of 1974 (and amendments) 
provide for US-EPA oversight of our nation's freshwater resources that 
we use for drinking, swimming and recreational purposes. Previously, 
EPA, NOAA and other agencies joined together in soliciting research 
proposals for funding from the ECOHAB competitive research-grant 
program. Each agency reviewed and selected research proposals for 
funding by their agency that were appropriate for the agency's mission. 
Unfortunately, due to a lack of clear authority from Congress and 
limited funding resources to research, monitor, control and prevent 
freshwater HABs, the EPA has withdrawn or limited its support for HAB 
research grant programs over the past several years. EPA participation 
in HAB-related programs and funding HAB research is essential and EPA 
needs to reestablish their participation in those grant programs. 
Critical research is needed to assess the frequency and concentrations 
with which cyanobacteria and cyanotoxins occur in recreational and 
finished drinking waters. Health research is needed to obtain the dose-
response data needed to set limits for safe exposure to cyanobacterial 
toxins, and for determining cancer assessments. Alternative routes of 
exposure such as fish consumption need to be carefully evaluated in 
these risk assessments. Risk management research is needed to assess 
the efficacy and sustainability of ecological and chemical approaches 
to freshwater HAB control, to develop improved and less expensive 
control technologies, and to devise enhanced mitigation strategies. New 
techniques in molecular biology, biochemistry and chemistry need to be 
applied to this problem as we constantly challenge the classical 
definitions of what is a ``toxic'' or ``non-toxic'' bloom. Thus, all of 
these recommendations and technologies need to be based on the best 
available science in this rapidly changing field.
    The organisms and causes of freshwater HABs are very different from 
those that cause marine HABs, and therefore potential control and 
remediation technologies are also likely to be very different between 
marine and freshwaters systems. A freshwater HAB program that 
specifically addresses those differences is needed. These freshwater 
locations needs to extend beyond the Great Lakes into other impacted 
large water bodies such as Lake Champlain (VT) and Lake Mead (NV, AZ) 
and even to smaller freshwater ecosystems such as the Klamath River 
(CA, OR) or Elk Creek (OR) which suffer from freshwater HABs. Congress 
needs to provide the US-EPA with a clear statutory mandate to 
participate in freshwater HAB research, and authorize funding for that 
research. The EPA, working with other affected agencies, needs to 
develop a comprehensive National Freshwater-HAB Research and Control 
Program, just as NOAA has done for HABs in oceans, estuaries, and the 
Great Lakes, and the US-EPA needs to work with NOAA in administering 
this program for the betterment of all. Congressman Baird's and this 
committee's legislation accomplishes all of these goals related to 
freshwater HAB programs and I commend you for recognizing this 
deficiency.
    Smaller freshwater lakes and rivers are very different from larger 
freshwater systems such as the Great Lakes, which are in turn very 
different from our estuaries and coastal systems. In spite of these 
differences between freshwater, estuarine, and marine HABs, it is 
essential to realize that these water-body types are intimately 
interconnected; nutrients that enter waterways through their upland 
watersheds continually stimulate HABs as they flow from the smaller 
streams, to the larger freshwater lakes, to estuaries and finally to 
our coasts. Holistic legislation that addresses both marine and 
freshwater HABs is needed if we are to understand, control and 
remediate the problem of harmful algal blooms that occur within all our 
nation's waters.
    Thank you for the opportunity to express my viewpoint.

                     Biography for Gregory L. Boyer

    Gregory L. Boyer is a Professor of Biochemistry at the State 
University of New York's College of Environmental Science and Forestry 
(SUNY-ESF) in Syracuse, NY.
    Dr. Boyer received his B.A. Degree in Biochemistry from the 
University of California at Berkeley and his Ph.D. degree in 
Biochemistry from the University of Wisconsin. After postdoctoral 
fellowships at the Plant Research Labs at Michigan State University and 
in the Department of Oceanography at the University of British 
Columbia, he joined the Faculty of Chemistry at SUNY-ESF in 1985. Dr. 
Boyer's expertise line in the area of biologically active natural 
products produced by algae and he has more than 35 years experience 
working with toxins, hormones and siderophores produced by marine and 
freshwater algae. He was Director of NOAA's MERHAB-Lower Great Lakes 
project to develop a Tier-based Monitoring for Toxic Cyanobacteria in 
the Lower Great Lakes'' and is the current Director of New York's Great 
Lakes Research Consortium. The NY-GLRC consists of 18 New York 
Universities and nine Canadian Universities, almost 400 scientists in 
total, working on all aspects of Great Lakes Science, education and 
outreach. He is the Great Lakes Co-Chair of the Science Advisory 
Council for New York Oceans and Great Lakes Ecosystem Conservation 
Council, a member of New York's Great Lakes Basin Advisory Council and 
an active advocate for Great Lakes protection, outreach and public 
education.

    Chairman Baird. Dr. Scavia.

  STATEMENT OF DR. DONALD SCAVIA, GRAHAM FAMILY PROFESSOR OF 
ENVIRONMENTAL SUSTAINABILITY; PROFESSOR OF NATURAL RESOURCES & 
ENVIRONMENT; PROFESSOR OF CIVIL AND ENVIRONMENTAL ENGINEERING, 
                     UNIVERSITY OF MICHIGAN

    Dr. Scavia. Thank you, Mr. Chairman and Members of the 
Subcommittee. I thank you for the opportunity to comment on the 
formulation of an action plan for harmful algal blooms and 
hypoxia. My name is Don Scavia. I am the Graham Family 
Professor of Environmental Sustainability as well as Professor 
of Natural Resources and Environment and Professor of Civil 
Engineering at the University of Michigan. Prior to joining 
Michigan's faculty five years ago, I also held several 
positions in NOAA, most recently as the Chief Scientist of the 
National Ocean Service. While there, I was responsible for 
implementing NOAA's portions of this statute and leading the 
assessments on behalf of the White House. I also directed the 
office that established several of the NOAA and interagency 
programs under the statute, including the ECOHAB program, the 
MERHAB program and the northern Gulf of Mexico research 
program.
    While much has been accomplished in the past 10 years since 
enactment of the first law, much remains unfinished, and I am 
pleased that the Subcommittee is considering reauthorizing this 
Act. Because the other witnesses have focused on harmful algal 
blooms, I am going to focus my comments on the causes, 
consequences and controls of hypoxia.
    In 2008, a report documented hypoxia in more than 400 
ecosystems across the globe, affecting a total of more than 
245,000 square kilometers, and most of those problems are 
driven by nutrient pollution, nitrogen and phosphorus. The U.S. 
national assessment called for in this original statute, 
reported in 2003, that two-thirds of the Nation's estuaries 
showed symptoms of nutrient pollution and a 2007 update of that 
study indicated that those conditions have not improved and 
that worsening conditions are expected in two-thirds of our 
estuaries with only about 20 percent potentially improving in 
the future. And again, the primary driver of this problem is 
the overloading of the system with nitrogen and phosphorus.
    If we consider three iconic systems, Lake Erie, the 
Chesapeake Bay and the Gulf of Mexico, we see that while there 
is lots of year-to-year variability, the dead zones in the 
Chesapeake Bay and the Gulf have not gotten smaller, even after 
decades of research, management discussions and plans, and the 
dead zone in Lake Erie, once thought to be under control and 
shrinking, has grown again to sizes that we haven't seen in 
decades. Clearly, the nutrient pollution problem is not under 
control, and if more is not done to reduce this pollution, we 
can expect further degradation of our coastal and Great Lakes 
waters and loss of important recreational and commercial 
resources. We know that much of the end-of-the-pipe sources of 
pollution have been regulated and reduced so most of the 
nutrient pollution now comes from diffuse sources, a large 
portion of that from agricultural sources. Currently, policy 
instruments to control these sources are mostly voluntary and 
incentive based and clearly are not fixing the problem. These 
instruments are the jurisdictions of other statutes like the 
Farm Bill and the EPA programs, and while the algal bill cannot 
do what these statutes are supposed to do, the provisions in 
the current draft can actually help in some very important 
ways. They can independently identify the geographies and the 
needed actions in these areas and then measure and report 
progress from an ecosystem perspective. As we all know, what 
gets measured and reported gets done; however, we are not 
reporting at the right scale or in the right context to 
influence the impacts of hypoxia and harmful algal blooms.
    I have outlined some recommendations for the 
reauthorization in my written testimony and I will only 
emphasize one here. The current draft calls for a report on the 
progress of the Gulf Action Plan two years after enactment of 
the reauthorization and every five years thereafter. This 
system has been studied for decades. The action plan has been 
in place since 2001, so I recommend the task force report 
progress one year after enactment and every two years 
thereafter. But reporting should be focused at scales that 
matter. For example, the report should include details on the 
specific management metrics and expenditures and updates on 
environmental conditions at sub-basin or State levels. These 
reports should be matched up with USGS estimates of nutrient 
contributions from these sub-basins and these states to ensure 
that the actions and the management measures that are taking 
place are actually targeted in the areas that matter most. The 
biannual reports from the regional plans should also follow 
this approach.
    Mr. Chairman, thank you for your leadership in 
reauthorizing the Harmful Algal Bloom and Hypoxia Research and 
Control Act. Conditions in our nation's coastal and Great Lakes 
waters have unfortunately not improved in the past 10 years 
since the original enactment, and in some cases, like Lake 
Erie, have gotten worse. It is time to increase implementation 
accountability and to ensure we have the research and 
monitoring programs in place to track progress. This bill is an 
important step in that direction, and I appreciate the 
opportunity to comment on it. That ends my testimony. Thank 
you.
    [The prepared statement of Dr. Scavia follows:]

                  Prepared Statement of Donald Scavia

    Mr. Chairman, Members of the Subcommittee, I thank you for this 
opportunity to testify today on formulating an action plan for dealing 
with Harmful Algal blooms and Hypoxia. My name is Donald Scavia and I 
am the Graham Family Professor of Environmental Sustainability, as well 
as Professor of Natural Resources & Environment and Civil & 
Environmental Engineering at the University of Michigan. Prior to 
joining Michigan's faculty, I held several positions in the National 
Oceanic and Atmospheric Administration, the most recent as the Chief 
Scientist for the National Ocean Service.
    While in NOAA, I was responsible for implementation of NOAA's 
components of the Harmful Algal Bloom and Hypoxia Research and Control 
Act of 1998, as well as leading several of the mandated assessment 
reports on behalf of the White House Office of Science and Technology 
Policy. I also directed the office that established several NOAA and 
interagency research programs under this statute, such as the Ecology 
and Oceanography of Harmful Algal Blooms (ECOHAB) research program, the 
Monitoring and Event Response for Harmful Algal Blooms (MERHAB) 
research program, and the Northern Gulf of Mexico Hypoxia (NGOMEX) 
research program. While much has been accomplished, much remains 
unfinished. So, I am pleased that the Subcommittee is considering a 
bill to reauthorize this Act.
    Because other witnesses will be focusing on harmful algal blooms, I 
will focus my remarks on hypoxia--its causes, consequence, and 
controls--and how this reauthorization can help address the problems.

Hypoxia--coastal and Great Lakes ``dead zones''

    Hypoxia, regions of lakes and oceans with seriously depleted 
oxygen, has become an issue of global importance. A 2008 review[1] 
reports hypoxia from more than 400 ecosystems, affecting a total area 
of more than 245,000 square kilometers, and that most of these problems 
are driven by nutrient pollution. The U.S. National Assessment[2] 
called for in the original statute reported that in 2003, two-thirds of 
the Nation's estuaries showed symptoms of nutrient pollution, and a 
2007 update[3] of that study indicated those conditions have not 
improved and that worsening conditions are expected in 65 percent of 
the estuaries, with only 20 percent likely to show improvements. Recent 
studies in the Great Lakes have shown that the dead zone in Lake Erie, 
once thought to be under control and shrinking, has grown again to 
sizes not seen in decades. Clearly, the nutrient pollution problem is 
not under control, and if more is not done to reduce this pollution to 
coastal and Great Lakes waters, we can expect further degradation and 
loss of important recreational and commercial resources.
    I will focus my comments on three iconic sites of hypoxia--
Chesapeake Bay, Lake Erie, and the northern Gulf of Mexico, and then 
draw some common conclusions in the context of the pending legislation.

The Chesapeake Bay

    The causes and consequences of oxygen depletion in Chesapeake Bay 
have been the focus of research, assessment, and policy action over the 
past several decades.[4] During that period, this 11,000 km<SUP>2</SUP> 
estuary has been the subject of a series of intergovernmental 
agreements[5-8] focused on reducing the impacts1,[9] of nutrient over-
enrichment[10] from its 167,000 km<SUP>2</SUP> watershed. The 
Chesapeake 2000 agreement[8] recommitted the parties to nutrient 
reduction goals established under the 1987 agreement that called for a 
40 percent reduction of nitrogen and phosphorus loads. In addition, 
Chesapeake 2000 adopts the broader goal of taking sufficient action by 
2010 to correct nutrient- and sediment-based water quality problems, 
such that Chesapeake Bay is no longer designated as ``impaired'' under 
the U.S. Clean Water Act.
    This goal will obviously not be reached. For example, while 
significant commitments and efforts have taken place over these 
decades, summer hypoxia in the Chesapeake Bay has changed little from 
its long-term average since 1985. My colleague Donald Boesch, President 
of the University of Maryland Center for Environmental Science, 
summarized some of the reasons why in reflecting on recent Government 
Accountability Office and EPA Office of the Inspector General reports 
in testimony before the Subcommittee on Water Resources and 
Environment: limited control over air emissions that impact water 
quality, uncontrolled land development, and limited implementation of 
agricultural conservation practices. Earlier this year, the regional 
governors and the EPA Administrator recommitted to increasing the pace 
of progress in reducing nutrient pollution based on achieving two-yield 
milestones.[11] Furthermore, President Obama issued an executive order 
calling on the Federal Government to lead a renewed effort to restore 
and protect the Nation's largest estuary and its watershed.[12]
    Among the three systems, the Chesapeake is most vulnerable to 
nutrient loads from air emissions because of the amount of high density 
population centers compared to those of the Gulf of Mexico and Lake 
Erie. While uncontrolled land development and increased impervious 
surfaces contribute nutrients and sediments from urban areas, 
agricultural sources of nutrient loads are the largest contribution to 
the Bay, and traditional best management practices, often designed for 
other reasons, are apparently not doing the job. Research has shown 
that the Chesapeake Bay has gone through a regime shift such that the 
system is now more sensitive to nutrient inputs than in the past, with 
nutrient inputs inducing a larger response in hypoxia, the inability to 
effectively and efficiently reduce nutrient run-off from agricultural 
lands is thus more important than in the past, and a common thread 
among all three iconic systems, as well as many other coastal, 
estuarine, and lake systems.
    Climate change could also affect the run-off of nutrients and 
sediments in a number of ways. Climate models for precipitation in the 
Mid-Atlantic region project increased precipitation during the winter 
and spring. This would likely result in flushing more nutrients through 
river flow to the Bay during the critical January-May time period, 
exacerbating water quality problems, including summertime oxygen 
depletion.[13] So, changes in practices and policies today to reduce 
nutrient loads may not be sufficient in a different climate regime. We 
may already be seeing this in Lake Erie.

Lake Erie

    Lake Erie has seen significant impacts cause by high nutrient 
loads--phosphorus as opposed to nitrogen because phosphorus is the most 
critical nutrient in freshwater systems. These excessive loads resulted 
in harmful and nuisance algal blooms, poor water clarity, and summer 
hypoxia in the hypolimnion of the central basin.[14, 15] Excess 
phosphorus entered the lake primarily from agricultural runoff and 
point source discharges.[16] The extent of hypoxia in the 1960s was one 
of the motivations for significant environmental legislation, including 
the Clean Water Act. In addition, U.S. and Canada signed a Great Lakes 
Water Quality Agreement[17] to reduce phosphorus loads at a scale 
unprecedented in any region of the world.[18] Unlike the Chesapeake and 
the Gulf of Mexico, a combination of point and non-point phosphorus 
load reductions achieved the target load of 11,000 metric tons per year 
and the Lake responded rapidly and close to that predicted by models. 
We thought the problem had been solved.
    However, despite this apparent success at reversing summer hypoxia, 
the extent of oxygen depletion in the central basin of Lake Erie 
recently enlarged and reemerged as a potential hazard to ecosystem 
health.[19] Several natural and anthropogenic factors have been 
proposed for causing this resurgence, including changes in climate and 
hydrology,[20] invasion of zebra and quagga mussels,[21] and changes in 
agricultural loading. While investigations are still underway to 
evaluate the potential effects of invasive mussels, recent analyses 
have shown that, to date, the direct climate effect of warming has not 
been the cause of increased hypoxia.[22] However, new evidence is 
pointing to the intersection of agricultural practices and changes in 
precipitation patterns as a primary cause.
    Colleagues Peter Richards and David Baker at Heidelberg College 
have been monitoring loads to Lake Erie for decades and have shown 
that, after the significant decrease in response to the Water Quality 
Agreement, the amount total phosphorus entering the Lake has remained 
relatively constant while the proportion of that load that is in the 
form algae are most responsive to has increased dramatically since the 
mid 1990s.[23, 24] They suggest that while increases in fall and winter 
broadcasting of phosphorus fertilizers is a important cause, it is 
compounded by increasing intensity of winter and spring rainfall 
events. Thus, phosphorus can be lost from fields prior to interacting 
with soil particles. They also report that current practices are 
leading to increased phosphorus concentrations in the upper layer of 
the soil and, combined with the increased storm intensity, also 
contribute to this reversing trend in loads of available phosphorus. It 
is important to note that, while most climate models project increases 
in the intensity of winter and spring storms, such trends are already 
found in the climate records of the Midwest.
    The Great Lakes Restoration Initiative, proposed in the President's 
budget for $475 million in the upcoming fiscal year, if focused 
appropriately should provide significant funds for action in the 
working lands of Lake Erie's watersheds. While agriculture is now the 
dominant source of nutrients from Lake Erie watersheds, nowhere has 
this become more significant than in the lands draining to the northern 
Gulf of Mexico.

Northern Gulf of Mexico

    The development, extent, and persistence of hypoxia in bottom 
waters of the northern Gulf of Mexico were first mapped in 1985. Since 
then, a large volume of data has been collected and a wide range of 
papers and reports have been published that increased our understanding 
of the seasonal and inter-annual distribution of hypoxia and its 
variability, history, and causes. An Integrated Assessment[25] of the 
causes, consequences, and actions needed to reduce hypoxia, mandated in 
HABHRCA-1998, was completed in 2000 and an Action Plan for Reducing, 
Mitigating, and Controlling Hypoxia in the Northern Gulf of Mexico,[26] 
also mandated in that law, was endorsed by federal agencies, states, 
and tribal governments and delivered to the President and the Congress 
in 2001. That Action Plan set a goal of reducing the size the hypoxic 
region to less than 5,000 square kilometers by 2015 and called for a 
long-term adaptive management strategy coupling management actions with 
enhanced monitoring, modeling, and research. The Action Plan also 
called for an assessment every five years of ``the nutrient load 
reductions achieved and the response of the hypoxic zone, water quality 
throughout the Basin, and economic and social effects. Based on this 
assessment, the Task Force will determine appropriate actions to 
continue to implement this strategy or, if necessary, revise the 
strategy.''
    The most recent reassessment conducted under the EPA Science 
Advisory Board[27] focused instead primarily on the scientific basis 
for the original plan and it reconfirmed the relationship between the 
nitrogen load from the Mississippi River, the extent of hypoxia, and 
changes in the coastal ecosystem (e.g., worsening hypoxia). They 
recommended that nitrogen load reduction targets be increased from 30 
percent to 45 percent, recommended that phosphorus loads also be 
reduced by 45 percent, and emphasized that significant time had been 
lost because of a lack of implantation of the original Action Plan. The 
panel also cites several studies[28, 29] that suggest climate change 
will likely create conditions where larger nutrient reductions, e.g., 
50-60 percent for nitrogen, would be required to reduce the size of the 
hypoxic zone.
    The SAB Panel affirmed the major findings of the original 
Integrated Assessment; although, they point out that while the 5,000 
km<SUP>2</SUP> target remains a reasonable endpoint, it may no longer 
be possible to achieve this goal by 2015. Further, they said that it is 
even more important to proceed in a directionally correct fashion to 
manage factors affecting hypoxia than to wait for greater precision in 
setting the goal for the size of the zone. The panel also found that 
the Gulf of Mexico ecosystem appears to have gone through a regime 
shift such that the system is now more sensitive to nutrient inputs 
than in the past, with nutrient inputs inducing a larger response in 
hypoxia, and if actions to control hypoxia are not taken, further 
ecosystem impacts could occur within the Gulf, as has been observed in 
other ecosystems.
    The panel concluded:

         ``In sum, environmental decisions and improvements require a 
        balance between research, monitoring and action. In the Gulf of 
        Mexico, the action component lags behind the growing body of 
        science. Moreover, certain aspects of current agricultural and 
        energy policies conflict with measures needed for hypoxia 
        reduction. Although uncertainty remains, there is an abundance 
        of information on how to reduce hypoxia in the Gulf of Mexico 
        and to improve water quality in the MARB, much of it 
        highlighted in the Integrated Assessment. To utilize that 
        information, it may be necessary to confront the conflicts 
        between certain aspects of current agricultural and energy 
        policies on the one hand and the goals of hypoxia reduction and 
        improving water quality on the other. This dilemma is 
        particularly relevant with respect to those policies that 
        create economic incentives.''

    Even though the Action Plan has been in place for eight years, 
nutrient loads to the Gulf have not been substantially reduced and the 
size of the hypoxic zone has not decreased. In fact, in recent years, 
it has set new records. So I fully support these findings of the EPA 
panel that immediate action be taken to reduce nutrient loads, and that 
an effective process be put in place to track progress and adjust over 
time. I also support the recommendations of the recent report of EPA's 
Office of the Inspector General that asks EPA to identify significant 
waters of national value--like the Gulf of Mexico, Chesapeake Bay, and 
Lake Erie--and establish appropriate nutrient criteria for them as 
drivers for more effective upstream criteria. I will return to these 
thoughts when commenting on the Bill under consideration.

Common issues/Common impacts/Common needs

    There is a growing body of literature[30-37] pointing to hypoxia 
impacts on fisheries in all three systems. While to date no major 
species collapses have been documented in these systems as a direct 
result of hypoxia, much of this literature points to pending impacts 
and the need to avoid a tipping point, where critical species 
populations collapse and may not be recoverable. Regime shifts reported 
in all three systems may portend such tipping points.
    Nitrogen and phosphorus pollution from agricultural sources is the 
primary driver of hypoxia in these three iconic systems, as well as 
many of the other coastal and estuarine regions suffering from hypoxia 
and other symptoms, such as harmful algal bloom and loss of fish 
habitat. This is well documented in the numerous publications, reports, 
and assessments for these specific systems, and more generally for the 
Nation in the assessment[2] carried out under the statute being 
considered here. It is clear for most of these stressed systems, that 
more effective policies and practices are needed for reducing the loss 
of nutrients from working agricultural lands.
    There are of course, USDA conservation programs that can be brought 
to bear on these issues, but funding for them is not adequate to meet 
the need and it is important to increase the targeting of those 
resources to areas that can do the most good. For example, an analysis 
of the Environmental Working Group[38] points out that within the five 
percent of the Mississippi drainage basin supplying 40 percent of the 
nitrogen to the Gulf of Mexico, the ratio of crop subsidies to 
conservation spending is 500:1. Even a modest change in that ratio, 
would make a significant difference. Such targeting is also consistent 
with the recent report of EPA's Office of the Inspector General, 
calling for EPA to set nutrient criteria first for significant waters 
of national value in a way to guide upstream targets.
    I underscore that it is farm policy, not farmers that make it 
difficult to reach these environmental goals. For example, to 
understand how farmers might respond to different practices that could 
affect water quality, my Michigan colleague Joan Nassauer, and her 
collaborators conducted in-depth interviews with Iowa farmers in 1998 
and in 2007 completed a web survey of more than 500 Iowa farmers on 
farming preferences. Their analyses demonstrate that Corn Belt farmers 
understand the difference between current cropping practices and future 
innovations that could result in dramatically improved water quality. 
Given adequate technology to adopt conservation innovations and 
assuming their income is unaffected, farmers prefer a more diverse 
landscape that shows better conservation and improved water quality.

Specific Comments on the Draft Bill

    I understand that much of the discussion above falls under 
different jurisdictions and different statutes, but the Harmful Algal 
Bloom and Hypoxia Research and Control Act reauthorization can help 
frame more action, coordinate and track progress, and ensure adequate 
research and monitoring is in place to support adaptive management 
approaches.
    I believe most elements of the current draft bill represent 
positive steps forward and I applaud the Subcommittee's effort to 
reauthorize this important law. With regard to specific sections:

Section 603A(b)--Specifically including the Environmental Protection 
Agency in the reauthorization is important, both because that agency 
chairs the Gulf of Mexico Task Force and because of its broader 
freshwater responsibilities. I would suggest, however, that explicit 
mention be made in this section of the need for a NOAA-EPA partnership 
in the Great Lakes because NOAA already has significant investments in 
both harmful algal bloom and hypoxia research there.

Section 603A(c)6--This refers only to freshwater harmful algal blooms. 
It should probably apply to both freshwater and marine blooms.

Section 603A(e)--This calls for regional plans to be completed in 12 
months. This may be difficult to do depending on the number and scale 
of the regions. It may be better to require a staged implementation 
such that all are completed in three years.

Section 603A(f)--Biennial reports from the Regional Research and Action 
Plans should follow the recommendations provided below for the Gulf 
Task Force to ensure appropriate tracking of implementation and 
progress.

Section 604(a) and 604(b)--These sections call for a report on Gulf 
Action Plan progress two years after enactment of the reauthorization 
and every five years thereafter. The EPA Science Advisory Hypoxia 
Panel, EPA Office of the Inspector General, and many individuals and 
organizations working on the Gulf hypoxia problem since enactment of 
the original law have identified lack of progress in implementing the 
Action Plan. For better accountability, I recommend Task Force reports 
to Congress every year, and that the reports include both details on 
specific management actions called for in the plan as well as updates 
on environmental conditions (e.g., river nutrient concentrations, 
nutrient loads from each sub-basin and to the Gulf, etc.). These 
reports should include estimates of expenditures by sub-basin, as well 
as metrics of action such as new acres enrolled in each conservation 
program. To help guide targeting of actions to the most important 
regions, implementation expenditures and actions should be reported 
juxtaposed with USGS estimates of nutrient contributions to the Gulf 
from specific sub-basins and states.

Section 605--The current draft does not yet specify spending 
authorizations; however, I recommend the following considerations:

        <bullet>  Authorize at least $40 million to NOAA and at least 
        $5 million to EPA.

        <bullet>  To avoid duplication, it would be good to identify 
        several efforts already administered by NOAA in support of this 
        legislation (e.g., ECOHAB, MERHAB, PCM, NGOMEX and CHRP).

        <bullet>  Require research funds appropriated to NOAA be 
        allocated through a competitive, peer review process, and that 
        the funds are restricted to extramural grants. NOAA has 
        strength in its own labs and offices, but those entities are 
        funded adequately through other appropriations.

    Mr. Chairman, thank you for your leadership in reauthorizing the 
Harmful Algal Bloom and Hypoxia Research and Control Act. Conditions in 
our nation's coastal and Great Lakes waters have unfortunately not 
improved in the past 10 years since its enactment, and in some cases, 
like Lake Erie, have gotten worse. It is time to increase 
implementation accountability and to ensure we have the research and 
monitoring programs in place to track progress. This bill is an 
important step in that direction, and I appreciate the opportunity to 
comment on it.
    This concludes my testimony and I would be happy to answer any 
questions you or other Members of the Subcommittee may have.

Footnotes

1. Diaz, R.J., and R. Rosenberg. 2008. Spreading dead zones and 
        consequences for marine ecosystems. Science, 321:926-929.

2. CENR 2003. An Assessment of Coastal Hypoxia and Eutrophication in 
        U.S. Waters. National Science and Technology Council Committee 
        on Environment and Natural Resources, Washington, D.C.

3. Bricker, S., B. Longstaff, W. Dennison, A. Jones, K. Boicourt, C. 
        Wicks, and J. Woerner. 2007. Effects of Nutrient Enrichment in 
        the Nation's Estuaries: A Decade of Change. NOAA Coastal Ocean 
        Program Decision Analysis Series No. 26. National Centers for 
        Coastal Ocean Science, Silver Spring, MD. 328 pp.

4. Boesch, D.F., R.B. Brinsfield, and R.E. Magnien. 2001. Chesapeake 
        Bay eutrophication: scientific understanding, ecosystem 
        restoration and challenges for agriculture. J. Environ. Qual. 
        30:303-320.

5. Environmental Protection Agency (EPA). 1983. 1983 Chesapeake Bay 
        Agreement. U.S. Environmental Protection Agency, Chesapeake Bay 
        Program Office, Annapolis, MD.

6. Environmental Protection Agency (EPA). 1987. 1987 Chesapeake Bay 
        Agreement. U.S. Environmental Protection Agency, Chesapeake Bay 
        Program Office, Annapolis, MD.

7. Environmental Protection Agency (EPA). 1992. Chesapeake Bay 
        Agreement: 1992 Amendments. U.S. Environmental Protection 
        Agency, Chesapeake Bay Program Office, Annapolis, MD.

8. Environmental Protection Agency (EPA). 2000. Chesapeake 2000. U.S. 
        Environmental Protection Agency, Chesapeake Bay Program Office, 
        Annapolis, MD.

9. Brietburg, D.L., T. Loher, C.A. Pacey, and A. Gerstein. 1997. 
        Varying effects of low dissolved oxygen on trophic interactions 
        in an estuarine food web. Ecol. Monogr. 67:489-507.

10. Malone, T.C., W. Boynton, T. Horton, and C. Stevenson. 1993. 
        Nutrient loading to surface waters: Chesapeake case study, pp. 
        8-38. In M.F. Uman (ed.), Keeping pace with science and 
        engineering. National Academy Press, Washington, DC.

11. http://archive.chesapeakebay.net/pressrelease/
        EC<INF>-</INF>2009<INF>-</INF>allmilestones.pdf

12. http://executiveorder.chesapeakebay.net/page/About-the-Executive-
        Order.aspx

13. Boesch, D.F., V.J. Coles, D.G. Kimmel, W.D. Miller 2007. Coastal 
        Dead Zones & Global climate change: Ramifications of Climate 
        Change for Chesapeake Bay Hypoxia, In: Regional Impacts of 
        Climate Change: Four Case Studies in the United States. 
        Prepared for the Pew Center on Global Climate Change, 
        Arlington, VA.

14. El-Shaarawi, A.H. 1987. Water Quality Changes in Lake Erie , 1968-
        1980. Journal of Great Lakes Research 13:674-683.

15. Rosa, F. and Burns, N.M. 1987. Lake Erie Central Basin Oxygen 
        Depletion Changes from 1929-1980. Journal of Great Lakes 
        Research 13:684-696.

16. Dolan, D.M. 1993. Point source loadings of phosphorus to Lake Erie: 
        1986-1990. Journal of Great Lakes Research 19:212-223.

17. GLWQA 1978. Great Lakes Water Quality Agreement.

18. DePinto, J.V., T.C. Young, and L.M. McIlroy. 1986. Great Lakes 
        water quality improvement. Environ. Sci. Technol. 20(8):752-759

19. Burns, N.M., Rockwell, D.M., Bertram, P.E., Dolan, D.M., and 
        Ciborowski, J.J.H. 2005. Trends in Temperature, Secchi Depth, 
        and Dissolved Oxygen Depletion Rates in the Central Basin of 
        Lake Erie, 1983-2002. Journal of Great Lakes Research 31:35-49.

20. Blumberg, A.F. and Di Toro, D.M. 1990. Effects of Climate Warming 
        on Dissolved Oxygen Concentrations in Lake Erie. Transactions 
        of the American Fisheries Society 119:210-223.

21. Hecky, R.E. 1994. The near-shore phosphorus shunt: a consequence of 
        ecosystem engineering by dreissenids in the Laurentian Great 
        Lakes. Can. J. Fish. Aquat. Sci. 61:1285-1293.

22. Rucinski, D.K., M.S.; D. Beletsky; J.V. DePinto; D.J. Schwab; D. 
        Scavia (in review) A Simple 1-Dimensional Climate Based 
        Dissolved Oxygen Model for Central Basin of Lake Erie.

23. Richards, R. Peter. 2007. Phosphorus Loads and Concentrations from 
        the Maumee River. Chapter 6, pages 68-74 in Hartig, John H., 
        Michael A. Zarull, Jan J.H. Ciborowski, John E. Gannon, Emily 
        Wilke, Greg Norwood, and Ashlee Vincent, eds., State of the 
        Strait: Status and Trends of Key Indicators. Great Lakes 
        Institute for Environmental Research.

24. Richards, R. Peter. 2006. Trends in sediment and nutrients in major 
        Lake Erie tributaries, 1975-2004. Section 10.10 in Lake Erie 
        LaMP, 2006 Update. Available on page 22 at http://www.epa.gov/
        glnpo/lakeerie/2006update/Section<INF>-</INF>10.pdf

25. CENR 2000. Integrated Assessment of Hypoxia in the Northern Gulf of 
        Mexico. National Science and Technology Council, Washington, 
        D.C.

26. Task Force 2001. Action Plan for Reducing, Mitigating, and 
        Controlling Hypoxia in the Northern Gulf of Mexico. Mississippi 
        River/Gulf of Mexico Watershed Nutrient Task Force. USEPA 
        Office of Wetlands, Oceans, and Watersheds: Washington, DC, 
        2001.

27. SAB HAP 2007. Environmental Protection Agency Science Advisory 
        Board. 2007. Hypoxia in the Gulf of Mexico. http://www.epa.gov/
        sab/panels/hypoxia<INF>-</INF>adv<INF>-</INF>panel.htm, 
        December 21, 2007.

28. Justic, D., Rabalais, N.N., and Turner, R.E., 2002, Modeling the 
        impacts of decadal changes in riverine nutrient fluxes on 
        coastal eutrophication near the Mississippi River delta, 
        Ecological Modeling, v. 152, pp. 33-46.

29. Donner, S.D., and Scavia, D., 2007, How climate controls the flux 
        of nitrogen by the Mississippi River and the development of 
        hypoxia in the Gulf of Mexico, Limnology and Oceanography, v. 
        52, no. 2, pp. 856-861.

30. Seitz, R.D., et al., Broad-scale effects of hypoxia on benthic 
        community structure in Chesapeake Bay, USA, J. Exp. Mar. Biol. 
        Ecol. (2009), doi:10.1016/j.jembe.2009.07.004.

31. Ludsin, S.A., et al., Hypoxia-avoidance by planktivorous fish in 
        Chesapeake Bay: Implications for food web interactions and fish 
        recruitment, J. Exp. Mar. Biol. Ecol. (2009), doi:10.1016/
        j.jembe.2009.07.016.

32. Roberts, J.J., et al., Effects of hypolimnetic hypoxia on foraging 
        and distributions of Lake Erie yellow perch, J. Exp. Mar. Biol. 
        Ecol. (2009), doi:10.1016/j.jembe.2009.07.017.

33. Baustian, M.M., et al., Effects of summer 2003 hypoxia on 
        macrobenthos and Atlantic croaker foraging selectivity in the 
        northern Gulf of Mexico, J. Exp. Mar. Biol. Ecol. (2009), 
        doi:10.1016/j.jembe.2009.07.007.

34. Rose, K.A., et al., Does hypoxia have population-level effects on 
        coastal fish? Musings from the virtual world, J. Exp. Mar. 
        Biol. Ecol. (2009), doi:10.1016/j.jembe.2009.07.022.

35. Vanderploeg, H.A., et al., Hypoxia affects spatial distributions 
        and overlap of pelagic fish, zooplankton, and phytoplankton in 
        Lake Erie, J. Exp. Mar. Biol. Ecol. (2009), doi:10.1016/
        j.jembe.2009.07.027.

36. Vanderploeg, H.A., et al., Hypoxic zones as habitat for zooplankton 
        in Lake Erie: Refuges from predation or exclusion zones? J. 
        Exp. Mar. Biol. Ecol. (2009), doi:10.1016/j.jembe.2009.07.015.

37. Zhang, H., et al., Hypoxia-driven changes in the behavior and 
        spatial distribution of pelagic fish and mesozooplankton in the 
        northern Gulf of Mexico, J. Exp. Mar. Biol. Ecol. (2009), 
        doi:10.1016/j.jembe.2009.07.014.

38. Booth, M. 2006. Dead in the Water. Environmental Working Group, 
        Washington, DC. http://www.ewg.org/reports/deadzone

                      Biography for Donald Scavia

    Dr. Scavia and his students combine numerical models, laboratory, 
field work, and assessments to improve the understanding of 
interactions between human activities on land and their impacts on 
coastal marine and freshwater ecosystems. His research and teaching 
support integrated assessments that integrate natural science, social 
science, and environmental policy-making. As Director of the Graham 
Institute, Dr. Scavia leads efforts to engage the full multi-
disciplinary assets of the University of Michigan to support 
sustainable communities, ecosystems, and economies.
    He serves on Advisory Boards for the Environmental Law and Policy 
Center, the National Wildlife Federation Great Lakes Program, North 
American Nitrogen Center, Annis Water Research Institute, Central 
Michigan University Biological Station, and as Science Advisor to the 
Healing our Waters Great Lakes Coalition. At UM, he also serves on the 
Executive Committee for the Erb Institute for Global Sustainable 
Enterprise and the Michigan Memorial Phoenix Energy Institute.
    He has been Associate Dean for Research, Director of the Michigan 
Sea Grant Program, Director of the Cooperative Institute for Limnology 
and Ecosystems Research, Associate Editor for Estuaries and Coasts; 
Associate Editor for Frontiers in Ecology and Environment, and has 
served on the Boards of Directors for the American Society of Limnology 
and Oceanography and the International Association for Great Lakes 
Research.
    Prior to joining the Michigan faculty in 2004, Dr. Scavia was the 
Chief Scientist of NOAA's National Ocean Service, Director of the 
National Centers for Coastal Ocean Science, the Director of NOAA's 
Coastal Ocean Program. Prior to that, he was a senior scientist at 
NOAA's Great Lakes Environmental Research Laboratory. He holds 
Bachelor's, Master's, and Doctorate degrees in Environmental 
Engineering from Rensselaer Polytechnic Institute and the University of 
Michigan, and has published over 70 articles in the primary literature 
and books, co-edited two books, and led development of dozens of 
interagency scientific assessments and program development plans.

                               Discussion

    Chairman Baird. Outstanding testimony. I thank you. By the 
way, the haste with which I began the hearing was an example 
how seriously I take this, not any shortsightedness on it. I 
wanted to hear from you folks and your testimony was certainly 
worthwhile. Indeed, I wish every colleague and many people in 
the country could hear it. I remember when I first moved to a 
community, I am a whitewater kayaker and I go into lakes and 
practice rolling my boat, flipping my boat over, and I am real 
hesitant because there is nobody else on this lake. I paddled 
to shore. It was a little inland lake, you know, a city lake, 
and I said, why is nobody out here? They said oh, because that 
water is really unhealthy for you. The idea that water in a 
lake could kill you and kill your pets is really an alien idea 
to us. It just doesn't seem right, and yet it is clearly the 
case, and if it doesn't kill you, it can permanently remove 
your hippocampi, which is a bad deal; as a neuropsychologist, I 
know. So questions then.
    First of all, the suggestions are well taken. It sounds 
like the elements that were prescribed in the prior legislation 
you find important. To be perfectly honest, we kind of took 
those for granted and said they'll continue. You feel the need 
to specify that because you feel they are valuable. Sometimes 
we get the reverse feedback on this committee and other 
committees here: ``Don't over-direct us.'' They were included 
in prior bills precisely because testimony suggested they were 
important and we assume they will continue but we will make 
that explicit because there seems to be unanimity. I think the 
point is well taken also on the issue of we have studied a lot 
of this and it is time to take action, I think, and certainly 
to report on that action in a more timely manner and measure 
that, and I applaud the recommendations for improved 
monitoring, both in the freshwater upstream as well as the 
downstream area.

        Statements from Representatives Connie Mack and William 
                                Delahunt

    I want to at this point invite my colleague, Connie Mack, 
who has been a champion of this, given his residence in 
Florida, and ask unanimous consent that Representative Mack 
join us on the dais. Also, Representative Mack and Mr. Delahunt 
from Massachusetts both have statements they would like to 
introduce into the record. I would ask unanimous consent. 
Hearing no objection, so ordered.
    [The prepared statement of Mr. Mack follows:]

            Prepared Statement of Representative Connie Mack

    I would like to begin by thanking Chairman Baird, Ranking Member 
Inglis and the Members of the Subcommittee for holding this important 
hearing. I appreciate the chance to speak on harmful algal blooms 
(HABs) and how they are affecting our nation's coastlines, oceans, and 
inland waters.
    A little over a year ago, I appeared before this committee with 
Congressman Boyd and testified about the importance of this issue and 
the legislation I introduced to combat red tide. Since then, the 
Committee has crafted new language to improve the legislation we've 
worked on by including freshwater HABs and instituting regional action 
plans. These are important efforts, and it is time we recognize that 
although harmful algal blooms affect our entire nation, they are 
different throughout the county.
    I represent the coastal areas of Southwest Florida. If you haven't 
been there, it's a beautiful part of the country, with miles and miles 
of white sandy beaches. For Southwest Florida, like many communities, a 
healthy environment and a healthy economy go hand-in-hand. When I was 
growing up in Cape Coral, Florida, red tide blooms were short-lived 
nuisances that lasted just a few days.
    Today, however, these blooms continue for months at a time, and 
they have long-lasting implications that threaten the environment, 
people's health, and our overall quality of life. It is imperative that 
we do more to understand and combat this problem. These blooms cause 
dangerous respiratory distress, burning eyes, as well as the potential 
for severe food poisoning from contaminated shellfish. HABs not only 
affect our personal health, they also affect the health of our economy. 
Red tide and other toxic blooms cost tens of millions of dollars 
annually to communities across America. From New England to the Great 
Lakes, from California to Florida, these toxic blooms affect us all.
    Legislation regarding these toxic blooms was first introduced in 
1998 under the Harmful Algal Bloom and Hypoxia Research and Control 
Act. This law authorized appropriations for NOAA to research, monitor, 
and manage activities for the prevention and control of HABs. It also 
established an interagency task force to develop a comprehensive 
coordinated federal response to toxic blooms and hypoxia. By holding 
the hearing today, your committee is giving this issue the attention it 
deserves.
    Last year, I introduced the Save Our Shores Act to increase our 
commitment to researching HABS. Since then, I have been working with 
the Committee to introduce a new bill to tackle red tide and other 
harmful algal blooms. This legislation will ensure that scientists and 
experts in the field, not politicians, determine where research money 
is spent. Additionally, by improving reporting requirements, Congress 
and NOAA will be able to measure the effectiveness of these research 
efforts.
    Finally, we need to reduce the gap between authorized and 
appropriated funds. Annual funding has fallen far short and we need to 
close this disparity.
    Once again, I commend the Committee for bringing up such an 
important issue. The sooner we can understand what factors contribute 
to these toxic blooms, the sooner we can develop solutions to save our 
nation's coastlines, oceans, and inland waters from the scourge of 
HABs.

    [The prepared statement of Mr. Delahunt follows:]

         Prepared Statement of Representative William Delahunt

Chairman Baird, Ranking Member Inglis, Members of the Committee:

    I commend you for holding this hearing and thank you for granting 
me the opportunity to testify today on the importance of formulating 
action oriented plans to prevent, mitigate and respond to harmful algal 
blooms and hypoxia events.
    As many of you know, I represent the 10th District of 
Massachusetts. It is an area with a rich maritime history that 
encompasses communities on the south shore of Massachusetts, from 
Quincy to Cape Cod and the Islands of Martha's Vineyard and Nantucket. 
The economic health and vitality of these coastal communities is tied 
directly to the health of the ocean. New England's shellfish industry 
is an important part of the region's economy and provides hundreds of 
jobs that pump millions of dollars into the economy of these 
communities. Over the last ten years, we have seen increasingly serious 
outbreaks of harmful algal blooms, commonly referred to as ``red 
tide.''
    These blooms have caused vast areas of our coastline to close, and 
shut down the harvest of clams, mussels, oysters and other shellfish. 
This negative economic impact ripples throughout our coastal 
communities, from fishermen to buyers, processors, and restaurants. In 
2005, New England coastal communities suffered from the worst red tide 
outbreak in over thirty years, leading to a Presidential disaster 
declaration in many coastal counties. The red tide resulted from an 
unusually severe combination of environmental conditions that caused 
toxic algae to cover significant portions of the region's coast.
    In Massachusetts alone, the red tide impacted over 2,000 commercial 
shellfishermen and over 250 shellfish aquaculture grants, resulting in 
economic damages exceeding $35 million dollars. Again in 2008, 
Massachusetts waters suffered another massive and unanticipated red 
tide bloom, forcing an infusion of federal commercial fishery disaster 
aid to prevent the collapse of the local industry. This summer, Maine 
waters were affected and the economic losses to this region were 
estimated in the millions of dollars.
    To better prepare for future algal blooms, scientists and 
researchers from Woods Hole, located in my district, convened a 
national workshop in 2006 and issued a report entitled, ``A Plan for 
Reducing HABs and HAB Impacts.'' I am pleased to see that both Senator 
Snowe and Congressman Baird have read and implemented many of the 
report's recommendations to create a comprehensive national program to 
prevent, control and mitigate the economic and environmental impacts of 
these events.
    It is my belief that we need to take additional measures this year 
to help address this serious threat to New England. That is why I 
strongly support the creation of a Harmful Algal Bloom Event Response 
Program, as part of the national program. It is critical that we 
provide a rapid and thorough response to these outbreaks. Senator Snowe 
has endorsed such an approach and has included similar provisions in 
her legislation, S. 952. I strongly support Senator Snowe and I 
strongly support Congressman Baird's efforts in the House to coordinate 
national and regional action plans to reduce these harmful blooms.
    The health of New England's waters is vital to the economic 
prosperity of our coastal communities, and as such I support the 
investment in planning and research that may alleviate some of these 
economic and environmental hardships in the future.
    I welcome the opportunity to work with you in making sure the House 
of Representatives takes the additional steps necessary to establish a 
robust Harmful Algal Bloom program. Thank you.

    Chairman Baird. I will recognize myself for a few more 
minutes and then Mr. Inglis will proceed in questioning as time 
allows.

             The Inefficacy of Traditional Water Treatment

    I want to make one thing clear and make sure my 
understanding is correct in the case of normal filtration of 
water. You know, as a backpacker and a climber, I am used to 
carrying a water filter with me, and you filter out the 
protozoan and whatnot but you don't filter out the toxin. Is 
that correct? So if there were a mountain lake, which there are 
in Oregon where when you get to the lake there is a sign that 
says caution, there is blue-green algae here, if water is 
coming out of that lake and I filter that water, am I still 
getting the toxin potentially even if I am not getting the 
algae per se?
    Dr. Boyer. One of the issues there is if the toxin is in 
the algae, then your filter will be very effective, but if the 
toxin is released from the cells, it will go straight through. 
That is true for boiling too. We quite often boil ourselves to 
release the toxins because it is a very easy way to get it into 
the water so that we can work with it, so a boil-water 
advisory, for example, is meaningless when you start talking 
about things like microcystin.
    Chairman Baird. That is what I thought. I think it is so 
important to help the public understand this, that your normal 
defenses against this don't work, filtering, boiling. Iodine, 
to my knowledge, doesn't work, or Clorox, I mean, because it is 
a chemical toxin that is released from the organism. Is that 
accurate?
    Dr. Boyer. That is pretty much true. A lot of the basic 
technologies that we would normally use in water treatment are 
not very effective for freshwater toxins.
    Chairman Baird. And that is also the case with the fish or 
the shellfish, right? Mr. Ayres, if you close a beach, somebody 
can't say well I am going to cook the razor clams.
    Mr. Ayres. Exactly. You can't cook it out of the clams. You 
can't freeze it out of them. You just simply have to wait for 
them to naturally purge themselves of that toxin. Yes, exactly, 
you cannot treat it in any way.

                  Growing Dead Zones and Their Causes

    Chairman Baird. This issue of dead zones is profoundly 
troubling, and I am glad you raised it, Dr. Scavia. Expanding 
from everything I hear--by the way, Puget Sound and Hood Canal, 
we have got a major problem, an increasing zone off of Oregon. 
It seems in most areas, they are expanding, not diminishing. Is 
that accurate?
    Dr. Scavia. That is true. In areas where we have had the 
dead zones or hypoxic areas, those areas are getting larger in 
many cases and we are seeing more estuarine systems having 
that. The study that was done between 2003 and 2007 showed 
there was no improvement and with the forecast, we are 
expecting it to increase in about two-thirds of the estuaries.
    Chairman Baird. In both the freshwater and the marine 
environments, the culprit, at least a prime suspect, if not 
known culprit, seems to be nutrient sources, nitrogen and 
phosphorus. To what extent does acidification play a role or 
temperature change play a role as well? I mean, weigh those out 
for us a little bit, and both environments, if you would.
    Dr. Boyer. Well, I will take a stab at the freshwater. You 
are exactly right. The prime culprits are nutrients coming in 
through the watershed. Acidification probably has very little, 
if no, effect on dead zones. I already forgot what your----
    Chairman Baird. Temperature.
    Dr. Boyer. Oh, temperature. Temperature is going to be a 
much trickier issue because associated with rising temperatures 
are often changes in weather patterns, which then lead to 
increased nutrients. Many of these organisms grow better under 
higher temperatures so you would expect that to also be a 
problem, and temperatures also need to be in a more stable 
water column in many cases, which also leads to algal growth. 
So it is going to be sort of a tricky issue there but it is----
    Chairman Baird. Great. Excellent testimony. I will close 
then and I will ask if I get time. You know, one of the great 
paradoxes of this is, you hear your testimony, you know the 
importance of it, and yet to try to get the public fired up 
about this--well, actually we did a radio interview this week 
and we said maybe we should talk about algal blooms, and the 
fear was, they are going to say what is he talking about, 
algae. Well, it can kill you, badly it can kill you. I love the 
name. I decided if I was an ultimate fighter, one of those 
guys, I would like the name--what was it--severe death factor? 
That would be----
    Dr. Boyer. Fast death factor or very fast death factor.
    Chairman Baird. With that, I recognize my friend and 
colleague, Mr. Inglis.

               Current Control and Mitigation Strategies

    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Magnien, I was wondering about the control and 
mitigation technologies that are currently employed when HABs 
or hypoxia events are detected, and who decides what technology 
is used and what is the decision protocol for making those 
decisions about the control and mitigation approaches?
    Dr. Magnien. Well, we define control as actually methods 
that you would use to suppress a bloom once it is present, and 
mitigation is more in the realm of warning people that a bloom 
is there and making sure they don't eat shellfish or come into 
contact with the water and get sick. Dr. Anderson mentioned a 
little bit about these techniques, especially the control 
techniques, are not very well advanced and that is one of the 
reasons why we have initiated this prevention, control and 
mitigation program to get more research dollars applied to 
that. They can include techniques like spreading of clay, which 
is a very common technique in the Far East around aquaculture 
facilities. They coagulate the bloom and it settles out. They 
can include things like viruses or bacteria, disease agents 
that are put out, just like we do for various infestations in 
forests, introduce bacteria to control caterpillar growth. So 
those, you know, are some of the aspects of those programs that 
really require additional research. One of the big mitigation 
areas of research is this forecasting where we give people 
warning or resource managers warning so that a Dan Ayres can 
have much more lead time in the decisions he has to make in 
terms of opening and closing a beach for razor clams, or the 
forecast that we issued through Don Anderson's research in New 
England this year that gave managers there a heads up that they 
would need to gear up and have more staff on board in order to 
deal with a red tide, a big red tide, which in fact did come, 
and they were very appreciative of that advanced warning, and 
that allowed them to mitigate the impacts.
    Mr. Inglis. Who is it that makes the decision? Who makes 
the call on those kind of, what course to pursue?
    Dr. Magnien. Most of the decisions on the front lines are 
State resource managers, again, those folks like Dan Ayres, a 
shellfish manager, a public health official. Some of that is 
made at the county level. County health officials are empowered 
with closing water bodies. We have seen that happen in certain 
areas, especially with beach closures: water contacts 
recreation. So it is usually at the State and local level where 
those decisions are made but those are the same people that 
lack the tools and the resources to support those decisions, 
and that is what we are trying to provide to them.
    Mr. Inglis. Great. Thanks.
    And Dr. Anderson, why is there so little research into 
control and mitigation?
    Dr. Anderson. Well, I tried to address that in my written 
testimony. I even have an annex there which is telling because 
it is a commentary I wrote in the journal Nature more than 10 
years ago about that exact question: Why is it that progress is 
so slow? And as I said, we are not that much further along now. 
The answers are several, and one of them truly is that without 
a targeted program that has money explicitly and specifically 
for, let us say, bloom control, then scientists will tend to 
propose more safe research, things that are fundamental 
science, that build on what they have done before. In my own 
lab, I put an entire Ph.D. student into the use of clay to 
control these red tide organisms. That student has struggled to 
find funding as he moved along, and he has actually left the 
field. It is very sad to say that. But as much as that seems 
like where the money should be coming from, it has been 
difficult to get funding for actual transitioning of these lab 
technologies to the field, and part of it is also that we have 
permitting issues. And scientists, I guess we are just not used 
to having to say ``In order to do this particular line of 
research, I need to go get permits from the state, from the 
Corps of Engineers, from the EPA.'' They need to do all these 
things and they are all going to be asked for more data, and 
that tends to slow down progress dramatically. So there are a 
number of steps that I think can be alleviated by this program 
that we propose, this PCM HAB program, because it has 
development stages, developing the technologies, and it has 
demonstration and transitioning stages so that you take 
something all the way and with substantial resources for all of 
those steps.
    Chairman Baird. Thank you, Mr. Inglis.
    Mr. Mack.

                   Comments from Representative Mack

    Mr. Mack. Thank you, Mr. Chairman, and I also want to thank 
the Ranking Member for having me and letting me join today, and 
I also want to thank all of you for being here and your 
testimony.
    First of all, a little bit about me, I guess, and why I 
have an interest in this, but I grew up in southwest Florida, 
Fort Myers, where I spent most of my childhood when I wasn't in 
school and sports at the beach on the water enjoying fishing 
and water skiing and just enjoying the outdoors in southwest 
Florida, and one of the main economic drivers of southwest 
Florida is people coming down to come to the beach and have a 
little vacation and rest and relaxation. I also have a cousin 
who works at Woods Hole as a scientist, and we were talking one 
day that I decided I was going to run for Congress and we were 
talking about red tide. Frankly, we were talking about it 
because we were out at the beach----
    Chairman Baird. He didn't mean that in a political sense, 
of course.
    Mr. Mack. Yeah. We were at the beach and we were talking 
about how again growing up we would have red tide blooms, I 
guess you would call it, that would come around once a year 
sometime in August, last for four to seven, maybe 10 days, and 
that was it, and now we see red tide blooms that are off the 
coast of Florida that will last 13, 14 months straight. And so 
we started talking about things that we thought we could focus 
on and how to make the process a little bit better, and a 
couple of things that we talked about and that I think are very 
important. And I want to again commend the Committee for taking 
this up and trying to move forward with the legislation that I 
think will have a huge impact, but I wanted to see if there was 
a way to stop duplication of research because funding is so 
limited that if there is a peer review organization, a group 
that can look at the research that is being done, who is 
looking to get research dollars, we would have some mechanism 
to ensure that we are not duplicating research, and for me, 
having been in politics a little bit before I even ran for this 
office, you know, all of us want to try to bring home those 
dollars to our district, so for me, the Florida Gulf Coast 
University or Moat Marine, you know, we all end up finding 
ourselves trying to get the dollars so we can go back home and 
say we are trying to do something to help, but in the long run, 
is that really helping us further research into red tide if we 
are splitting up the available funds and really not having a 
consistent funding mechanism? So the peer review process was 
important, not duplicating research, consistency of funding, 
and I am sure that is something all of you deal with. Mr. 
Chairman, as you know, you will have research projects that 
will be moving along nicely and then funds run out and they 
have to stop, and so that stopping and starting and stopping 
and starting hinders the progress made in research. And the 
last thing that we talked about was a reporting process that 
right now there is so much reporting requirements that I am not 
saying that we should do away with reporting at all. What I am 
suggesting is, we need to do a better job of streamlining those 
reports so you can really spend more time doing the research, 
spend less resources in doing the reports that are required but 
at the same time, given the committee of oversight, given those 
who need to have the information to determination whether or 
not we are being successful, and what changes might need to be 
made.
    So these have been the thought process and the ideas that I 
have had for some time and I am very pleased that the Committee 
is moving forward with this, Mr. Chairman, and I just wondered 
if I could make one other statement. We talk a lot about 
mitigation. We talk a lot about, you know, what can we do and 
what nutrients have really kind of pumped up and kind of, you 
know, energized these events. We still need to get back to 
trying to figure out what causes it in the first place, and we 
recognize that the red tide events that happen in the Gulf of 
Mexico will be different from what happens in the inland 
waterways, but if we solely focus our energies, Mr. Chairman, 
on just how to mitigate and warn people, I think we are missing 
the point. Really what we need to do is try to find out how it 
starts and that is going to give us the best place to start 
with, how to control it, and then I will end with this, Mr. 
Chairman. Thank you for your patience. Someone said who makes 
the call. I think maybe it was the Ranking Member. Who makes 
the call on closing the beach? And I wrote a note down to 
myself, the one who drew the short straw because that person is 
never the popular one, although it is very important for the 
safety of our community.
    So again, Mr. Chairman, I want to congratulate you on your 
efforts in this legislation, and again, I want to thank the 
panelists for being here.
    Chairman Baird. I want to thank the gentleman for his 
comments and his initiative on this. He has been a champion of 
this for an issue that, as I mentioned earlier, is not sort of 
a politically--you know, if you do a poll, this is not going to 
come up on most people's radar screen very high, but for areas 
like Mr. Mack's, that of his childhood and his current 
district, and parts of mine, this is a profoundly important 
issue and it deserves the kind of attention that has gotten, 
and again, I acknowledge Mr. Ehlers and Ms. Castor as well.

                 The Economic Costs of Hypoxia and HABs

    I want to follow up a little bit on a couple of the points 
Mr. Mack made. Let me talk for just a second about the 
economics of it. He talked about the impact on his district and 
on his state. Repeat real quickly the economic costs, the best 
estimate of economic cost we have got in terms of both hypoxia 
and harmful algal blooms. Do we have any? I mean, in our state, 
Mr. Ayres, you threw out some numbers.
    Mr. Ayres. Well, yeah. I mean, I threw out some numbers, 
and it depends on the fishery that is being affected. We do 
have--NOAA recently funded a study on the razor clam fishery 
specifically and what would be lost, and that number was much 
higher than we would have expected, in the neighborhood of $16 
million to the coastal economy, and that is to the small 
communities that you know so well. Sixteen million dollars to 
the state's economy is not a big deal but to these--well, I 
don't know, Governor Gregoire may disagree, but to our small 
coastal communities, that is a big hit to them, so it really 
depends on the scale you want to look at and how that plays 
out, but it is a big---
    Chairman Baird. The local hotel owners tell me it is their 
season.
    Mr. Ayres. Yeah, exactly.
    Chairman Baird. In our coastal area, you know, you could 
rent your garage when the clam season----
    Mr. Ayres. And you are right. I mean, it is not a big deal 
on people's radar screen until it doesn't happen, and then when 
it doesn't happen and they realize what they don't have----
    Chairman Baird. That raises the other side of the issue--
and I think I know the answer to this and I am going to guess 
the answer is ``more.'' But if the question were, what do you 
think are necessary--other than just something more, what kind 
of funding levels do you think, and let us assume that some of 
the kind of intervention approaches, control and mitigation 
strategies, some of the immediate response kind of things, what 
kind of numbers should we be talking about relative to what we 
have been spending on research and control, et cetera if we 
were to make a national effort commensurate with the importance 
of the issue for human health, aquatic health and weather? Any 
thoughts?
    Dr. Scavia. I will take a partial shot at that, partially 
because I used to run the program that Rob Magnien runs and he 
can't answer this question so I will for him. I think the 
overall program focused on harmful algal blooms and hypoxia, 
the NOAA part of it to fund the research, prevention, 
remediation needs to be at least $40 million a year, and that 
is actually not a lot more than what they are doing now, but I 
think that is the level we need to bring it up to. I don't know 
if Dr. Anderson has additional from the pure mitigation side.
    Dr. Anderson. Not just from the pure mitigation side but if 
you look at the back of the, we call it the RDDTT report, R-D-
D-T-T, we actually try to break this down into costs for 
ECOHAB, for MERHAB, for PCM and so forth. We even broke it down 
into freshwater versus marine, and that is when you get up to 
these numbers that are $40 million a year, so that was at least 
our first shot at it.
    Chairman Baird. A conscientious effort to say what is a 
realistic number.
    Dr. Anderson. Yes, and we do acknowledge that if we are 
going to try, for example, some of these control methods, some 
of them could be extraordinarily expensive, much more than we 
give out in a lot of these targeted research grants. If you are 
going to try to control a red tide over a few, let us say, 
square miles or so, it could cost a $1 million just by itself. 
So on the control and mitigation side, the costs might go up 
the closer we get to demonstration projects.

                        Potential Changes at EPA

    Chairman Baird. To punctuate that, though, a little bit, 
you know, if you have got a--a couple years ago we had these 
hearings. We talked about municipal water supplies for major 
cities that had blue-green algae, and you can literally 
overnight have an all-hands-on-deck crisis situation where your 
community is instantly out of most of its water, and the costs 
of dealing with that and the lack of the remediation strategy, 
the lack of a testimony strategy could be--suddenly the most 
important thing on your mind is, what you are going to do with 
that? Not to put you on the spot, Ms. Schwartz, but is EPA--
what can do EPA do better--let me phrase it that way--in the 
freshwater realm here, and not only the freshwater realm as 
freshwater per se but as a contributor to the ultimate marine 
environment?
    Ms. Schwartz. Well, I think there are certainly things we 
could be doing better. We are looking actively at different 
ways that we can be more effective in controlling non-point 
sources in particular of nutrients. We are looking actually--
you know, most everybody else here has been talking about 
control and mitigation of the blooms themselves. Our focus has 
really been more on addressing the nutrients, getting to the 
sources so that hopefully we would prevent the blooms from 
being at least as frequent or as serious as they are, and I 
would offer, although I don't have a figure to give you, that 
the figures that have been thrown around don't include the 
costs of prevention in that sense. We are working closely with 
USDA on a number of things, and I would urge you in fact as you 
are looking at your legislation to think about the different 
agencies that really do need to participate because, again, if 
you are going to get to the underlying causes, certainly USDA 
is a huge player in the Gulf of Mexico hypoxia. They are just 
about to announce some exciting new efforts to try to address 
the particular sources or the hottest sources, at least, in the 
upper Midwest as well as along the Mississippi to address the 
hypoxic zone in the Gulf of Mexico. So we think that there is a 
need to bring everybody in. And if you look at what we are 
going to be proposing shortly in the Chesapeake Bay, we have 
really looked very seriously. There is a huge nutrients and 
sediments issue there as well. We are looking very closely at 
what steps we can take, whether it is to increase the 
activities we regulate under the Clean Water Act, more CAFOs, 
concentrated animal feeding operations, whether those numbers 
should come down in terms of how many animals are considered a 
regulated point source, looking at stormwater discharges and 
how those are regulated. Obviously when we have permitting 
authority or the state has permitting authority, you could 
control what is released much more readily than when you don't 
have that authority, as is the case for most non-point sources.
    Chairman Baird. And it seems from what you are saying 
earlier, it seems to me this non-point source issue is huge, 
especially with agriculture and urban runoff. Is that a fair 
appraisal? And that if you were just to do the pie chart kind 
of model of what percentage of the cause--I mean, algal blooms 
have been here for a long time and, you know, it has not just 
started now but they seem to be worsening and they seem to be 
growing, so too with areas of hypoxia. There seems to be a 
consensus that these nutrient issues, much of it from non-point 
sources, a substantial portion from ag, is a contributor to the 
downstream consequences. Is that a fair portrayal? I am not 
going to ask you to put a number on it but a fair portrayal. So 
we have to address that, how we deal with the non-point 
sources.
    Mr. Mack, I am going to have to leave shortly but I want to 
give you a chance to follow up with any questions you might 
have.
    Mr. Mack. Thank you, Mr. Chairman.

           Research Funding on the Causes of HABs and Hypoxia

    I guess to try to narrow this down, on one side I think the 
Committee and the Congress needs to find a way to ensure that 
the appropriate amount of funding is available and that we are 
not duplicating research, as I said, and that it is consistent. 
I guess I would love to hear from whoever would like to answer 
it but how much of the research dollars that are available now 
are going to, or what percentage of it is going to actually 
trying to identify not what makes the bloom larger but how the 
bloom began in the first place, and I know that it is a little 
difficult. Of course, I am interested in the Gulf of Mexico but 
I know it is a little difficult because all the algae blooms 
are different in different parts so they may have different 
causes but do we have a good understanding of that?
    Dr. Magnien. Yeah, I am glad you asked that question 
because I didn't want to leave the impression that these 
programs that you have heard so much about, the ECOHAB, 
prevention, control and mitigation don't deal with that. In 
fact, they do. The ECOHAB program is looking at the fundamental 
processes that generate these blooms and we need to understand 
that in order to prescribe some kind of a preventative 
solution. You know, we would like to prevent as many of these 
blooms as possible. So the ECOHAB program looks at that. The 
prevention, control and mitigation--I talked about the control 
and mitigation because Representative Inglis asked me about 
that--but prevention is also, the P is prevention. That gets 
at, you know, what is the cause and understanding that. In your 
area in Florida, we have a huge project ongoing now to look at 
that. It has been a very controversial issue. A lot of people 
say we can't control it, we can only mitigate, but we are 
putting in some large dollars, a multi-million-dollar grant now 
to continue to investigate that question as to whether there 
are ways either to lessen the severity. Some people say that 
maybe we can't control the initiation, but some of the local 
sources of nutrient pollution enhance it and prolong it, so we 
are very much looking at that as well as the economic impacts. 
You heard a little bit about that. We have sort of piecemeal 
information. We know there are big impacts in certain areas and 
certain blooms, up to $50 million or more, but we don't have 
comprehensive numbers and that economic impact will help guide 
where we put some of our effort in terms of research on these 
issues as well.
    Mr. Mack. Anybody else want to--yes, Dr. Anderson.
    Dr. Anderson. The HAB forecasts that we have been able to 
do in the northeast region, and in fact with your cousin being 
actively involved in that, are based on exactly what you are 
looking for. We have identified the source of our blooms. We 
know that there are beds of these dormant cells in certain 
locations in the Gulf of Maine and we have over the years 
learned that if we can map those out and count them, then that 
gives us a very good indication of what the next year's red 
tide will be like. So there we have identified the source and 
understand the linkage to the subsequent blooms. The 
challenges, well, other than using that for forecasting, could 
we somehow use that source information in an actual bloom 
control strategy? That is where it truly becomes challenging 
because yes, there are mechanisms. In my lab we actually mate 
toxic and nontoxic cells of this HAB organism and produce a 
nonviable cell from that. It is like a sterile fruit fly. But 
the question to all of you would be, can you imagine me trying 
to propose to put an introduced organism into the Gulf of Maine 
in huge numbers to do this? The societal challenge of doing 
that is dramatic, even though the technology might suggest a 
way to step from that knowledge of the source to a control 
mechanism. That is where we need to move forward, to take that 
knowledge and that little bit of laboratory science and figure 
out a way to get it out into the field.
    Mr. Mack. Thank you.
    Yes, ma'am.
    Ms. Schwartz. One thing I would like to point out is, if 
you look at what has been done for the Gulf of Mexico hypoxic 
zone, the Department of Interior, the USGS actually did some 
mapping and some modeling. It is called the Sparrow Model and 
it actually shows the level of concentration provided to the 
Mississippi River so you can actually identify where the 
largest contributions are coming from, both separately for 
nitrogen and for phosphorus from within the basin, and that is 
something that we feel is really going to be helpful to us in 
order to target--again, we are never going to have enough 
resources to take care of everything all at once, but to target 
the greatest sources. So we think work like that can be done. 
EPA is putting in probably about $4 million to $5 million a 
year specifically on hypoxia in both HABs research and 
implementation activities. We have a lot of other efforts 
underway on nutrients more broadly but without the ability to 
really target where the source is and without, you know, some 
sort of regulatory or voluntary program to make sure that it is 
addressed, it is really hard to do much.
    Mr. Mack. And Mr. Chairman, I know you have got to go but I 
just wanted--you know, these events, these red tide events can 
cripple communities like, you know, Sanibel Island, Florida. 
You get an algae bloom off of Sanibel and it just has a 
devastating impact on the quality of life of the residents and 
tourism, and so again, Mr. Chairman, I just want to commend you 
for your efforts.
    Chairman Baird. Thank you, Mr. Mack. That is why we intend 
to try to move this legislation forward with alacrity. I 
appreciate the input of the panelists. We hope to incorporate 
many of your suggestions in the revision that we will bring up 
for markup, hopefully soon. I thank you for your expertise and 
your work.

                                Closing

    The record of this hearing will remain open for two weeks 
for additional statements from Members and for answers to any 
follow-up questions the Subcommittee may ask. The witnesses are 
again thanked for their expertise and their participation, and 
with that, the hearing stands adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
